               SPECIAL REPORT 

                                    ON THE

                 AGREEMENT FOR THE ACQUISITION
               AND DONATION OF THE MINERAL ESTATE
              BETWEEN THE UNITED STATES OF AMERICA
                     AND THE COLLIER FAMILY




REDACTIONS HAVE BEEN MADE THROUGHOUT THE REPORT PURSUANT TO
5 U.S.C. § 552(b)(4), (b)(6), AND (b)(7)(C) OF THE FREEDOM OF INFORMATION ACT.
                                                   Table of Contents 


Acronyms ........................................................................................................................................3 

Name List........................................................................................................................................4 

Introduction....................................................................................................................................5 

Results in Brief ...............................................................................................................................6 

Details of Investigation ................................................................................................................14 

       The Negotiating Environment ............................................................................................14

       Establishing Value .............................................................................................................18 

               The Grace Review .....................................................................................................24 

       The Appraisal Foundation’s Evaluation............................................................................27 

       The Tax Treatment .............................................................................................................32 

       Agreement Subject to Ratification .....................................................................................35 

               Authorities Applicable to Purchasing Interests in the BCNP...........................................36 

       Closing the Deal ................................................................................................................46 

               Congressional Briefings..............................................................................................46 

               White House Briefing.................................................................................................48 

Conclusion ....................................................................................................................................50 





                                                                        2

                                 Acronym List 


BCNP – Big Cypress National Preserve
CRC – Collier Resources Company (also refers to Collier family)
CS-1 – Confidential Source No. 1
CS-2 – Confidential Source No. 2
DOI/Department – U.S. Department of the Interior
DOJ – Department of Justice
FY – Fiscal Year
MMS – Minerals Management Service
NPS – National Park Service
OIG – Office of Inspector General
POOs – plans of operation
SOL – Office of the Solicitor
UASFLA – Uniform Appraisal Standards for Federal Land Acquisitions
URARPAA – Uniform Relocation Assistance and Real Property Acquisition Act of 1970
USGS – U.S. Geological Survey
USPAP – Uniform Standards for Professional Appraisal Practice




                                           3

                     Name List 

Name                  Title
Burton, Johnnie       Director, MMS
                      Mining Engineer/Mineral Economist, Geologic
Cloues, Philip        Resources Division, NPS
                      Former Chief of MMS’ Resources Studies Section,
                      Currently Deputy Regional Supervisor, Resource
                      Evaluation Division, Offshore Minerals Management,
Cooke, David          MMS
Dickerson, Barry      Former Chief, Models Division, MMS
                      Former Assistant to the Assistant Secretary for Fish and
Doddridge, Joseph     Wildlife and Parks
Grace, Dr. John D.    President, Earth Science Associates
Graham, Bob           Former U.S. Senator, D-Florida
Griles, J. Steven     Former Deputy Secretary, DOI
                      Former Chief, Resource Evaluation Division, Offshore
Hunt, Michael         Minerals Management, MMS
Klee, Ann             Former Counselor to Secretary Gale Norton
Manson, Craig         Assistant Secretary for Fish and Wildlife and Parks
                      Deputy Regional Supervisor, Resource Evaluation
Marin, David          Division, Offshore Minerals Management, MMS
Nelson, Bill          U.S. Senator, D-Florida
Norton, Gale A.       Secretary of DOI
                      Former Assistant Associate Director, Offshore Minerals
                      Management, MMS, Currently Associate Director,
Readinger, Thomas     Offshore Minerals Management
                      Former Attorney, SOL, DOI, Currently Deputy
                      Associate Solicitor, Division of Parks and Wildlife,
Roth, Barry           SOL
                      Deputy Associate Solicitor, Division of Minerals
Schaumberg, Peter     Resources, Onshore Minerals, SOL
                      Chief, Geosciences and Restoration Branch, Geologic
Woods, James          Resources Division, NPS




                          4

                                              Introduction
       In September 2003, a confidential source (CS-1) alleged that the Collier Resources
Company (CRC) took advantage of the politically charged situation surrounding drilling in the
Florida Everglades and “bluffed” the Department of the Interior (DOI or Department) into an
agreement by which the Department would purchase CRC’s mineral interests in the Big Cypress
National Preserve1 (BCNP) in Florida for $120 million.

        The Office of Inspector General (OIG) initiated an investigation into this transaction that
same month. At the outset, we sent a Department-wide memorandum through the Office of the
Secretary, dated September 23, 2003, requesting that Department personnel provide the OIG
with all documents, e-mails, and other material relevant to the proposed agreement.

        Our investigation took us to seven states and the District of Columbia, where we
interviewed over 100 people involved in this attempted transaction. Given the complexity of the
issues, many of these individuals were interviewed multiple times, some as recently as May
2005. In the end, all of the individuals that we contacted – whether DOI employees or otherwise
– agreed to speak with our investigators, with one notable exception. Joseph Doddridge, former
Assistant to the Assistant Secretary for Fish and Wildlife and Parks, who had been involved in
the CRC discussions from the start, initially agreed, but then refused to be further interviewed,
upon advice of his retained legal counsel. Therefore, in regard to his role, we are unable to
provide a complete picture of what happened. We also reviewed thousands of Department
e-mails and collected thousands of documents, including oil and gas exploration trend maps,
technical evaluation methodologies, and correlated financial determinate tables for unproven oil
and gas resources.

         During our review and analysis of information and documents, we readily recognized that
the OIG did not have the substantive expertise to adequately address the intricacies and
complexities of the appraisal process and its attendant rules and standards. Therefore, we
contracted with The Appraisal Foundation, an independent, not-for-profit educational
organization, authorized by the Congress as the source of appraisal standards and appraiser
qualifications, to review and comment on key DOI valuation reports, the processes involved in
preparing them, and the underlying data used in support of the reports’ conclusions. The
Appraisal Foundation was an invaluable resource to us in this investigation. In addition to
reviewing and commenting on the information we provided, The Appraisal Foundation educated
us in the Uniform Standards for Professional Appraisal Practice (USPAP) and the Uniform
Appraisal Standards for Federal Land Acquisitions (UASFLA), and imparted discerning
institutional insight into departmental appraisal practices.

        The attempted acquisition by the Department of CRC mineral rights in the BCNP has
been years in the offing. This was an acquisition supported by the Clinton Administration as
well as by the present Bush Administration. It was heralded by environmentalists and enjoyed
1
  The mineral interests at issue are located in the BCNP, the Florida Panther Wildlife Preserve, and Ten Thousand
Islands National Wildlife Refuge. For simplicity, when we refer to the mineral rights in the BCNP in this report, we
are including the mineral rights located in the Florida Panther Wildlife Preserve and Ten Thousand Islands National
Wildlife Refuge.


                                                         5

the enthusiastic backing of the citizens and leaders of the State of Florida. The intentions behind
the attempted acquisition have always appeared to be firmly grounded in a righteous desire to
protect the environmentally sensitive Everglades from potential harm. The means by which
these intentions were advanced, however, were distressing.

        Because the CRC transaction came to our attention, it was not consummated. Based on
the results of our investigation, however, we believe that the Department – if it ever chooses to
go forward with this acquisition – must take a fresh, wholesale look at the issue of subsurface
mineral rights in the BCNP and address the matter using a fair, objective, transparent process
that treats all interested parties equitably, complies with the law, and protects the interests of the
American public.

                                           Results in Brief
        The BCNP was established by legislation in 1974 (see Figure 1 on the following page).
The 1974 enabling legislation authorized the Department to acquire private property rights,
including oil and gas rights. The Department could not, however, buy oil and gas rights without
the owner’s consent, unless the Secretary made a determination that the property was subject to,
or threatened with, uses that are, or would be, detrimental to the purposes of the Preserve.2 The
Department acquired property rights of numerous small landowners as a result of the 1974
legislation, although the acquisition excepted oil and gas rights. In 1988, legislation expanded
the Preserve’s boundaries,3 and the Department acquired additional property rights, including
those of CRC, but again excepting the oil and gas rights.

       Acquisition of CRC’s property rights pursuant to the 1988 legislation was based on three
DOI-generated appraisals and a fourth appraisal performed for the State of Florida and the
Federal Highway Administration. In a May 1988 report, the General Accounting Office
(currently the Government Accountability Office) said of the DOI appraisals:

        All three appraisals agreed that the ‘highest and best use’ of the properties would
        be for recreational use and speculative holding. This is because the land is
        predominantly what a layman would call a ‘swamp’ and has practical as well as
        regulatory restrictions on commercial or residential development.

        Based on our understanding from the Appraisal Foundation, “highest and best use” would
have considered the subsurface mineral interests. Therefore, we asked our consultant from the
Appraisal Foundation to review all four of these appraisals and tell us if they included mineral
interests. Our consultant opined that all four appraisals were for a “fee simple” estate, meaning
that the mineral interests were included. Yet, the agreement between the Department and CRC
excepted oil and gas rights.




2
 16 U.S.C. § 698f. 

3
  Pub. L. 93-440, 88 Stat. 1257 (1974), as amended by Pub. L. 100-301, 102 Stat. 443(1988), codified at 16 U.S.C. 

§ 698f to 698m-4.



                                                         6

        The BCNP enabling legislation requires appraisal of any land to be acquired pursuant to
the statute, with the express exception for lands valued at less than $10,000. All other
acquisitions are subject to the requirements of the Uniform Relocation and Assistance and Real
Property Acquisition Act (URARPAA).

        To regulate operations and development in the BCNP, the Congress required the
Secretary of the Interior to develop rules and regulations governing the exploration for, and
development and production of, private interests in oil and gas. These regulations are codified at
36 C.F.R. Part 9B (9B Regulations). In 1991, the National Park Service (NPS) developed an
extensive set of stipulations for various exploratory and operational phases of oil and gas
development and incorporated them into the BCNP Minerals Management Plan. Generally, this
plan limits oil and gas exploration and development activities within the Preserve to 10 percent
at any given time.

                                             Figure 1




                                                7

         In the early 1990s, talks began between DOI and CRC concerning possible acquisition of
CRC oil and gas rights by land exchange. During an April 1992 meeting, CRC’s consulting
geologist offered his summarized research from which he concluded that CRC’s mineral interests
in the lands proposed for exchange were valued at $472.5 million. At that time, the Department
had nothing to either substantiate or refute the consultant’s conclusions.

        In 1995, the Department and CRC discussed the possibility of an exchange of CRC’s oil
and gas rights for surplus Department of Defense property scheduled to become available at
closed military installations. The Department initiated a process to estimate the CRC mineral
estate value, and in August 1995, the Bureau of Land Management asked the Minerals
Management Service (MMS) to work with NPS in deriving an estimate of the subsurface rights
within the Preserve. MMS was to conduct an “economic evaluation” of approximately 400,000
acres of mineral rights CRC claims to own in South Florida (see Figure 2).

                                           Figure 2




                                              8

        MMS was selected purportedly because of its expertise in offshore oil and gas evaluation,
and its perceived independence. MMS conducted an initial evaluation in 1995 using its
Probabilistic Resource Estimates Offshore V Model. This model uses a technique known as the
Monte Carlo simulation to quantify uncertainty. The 1996 report entitled, “Evaluation of Collier
Resources Company’s Mineral Estate in Big Cypress National Preserve,” was based entirely on
data provided by CRC. In developing this and later evaluations, MMS primarily relied on data
provided by CRC, but in a confidentiality agreement, CRC refused either to warrant or to verify
the accuracy of the data provided. Issues surfaced about CRC’s ownership interests during the
1996 evaluation. Best guess estimates by MMS were that CRC owned approximately two-thirds
of the rights, i.e., 66 percent. In the end, the evaluation amount developed by MMS in 1996 was
a mean of $154.791 million for 100 percent of the mineral rights.

        CRC thought that MMS had undervalued its mineral resources. NPS appraisal personnel
also questioned the validity of the MMS 1996 report because, among other things, it did not rely
on comparable sales methodology as preferred under the UASFLA and because the proposed
exchange of “low potential speculative oil and gas lands” for “high potential real estate at closed
military bases” did not seem to be in the public interest. These concerns were not resolved, and
ultimately, the deal using this evaluation failed.

       During the late 1990s, CRC embarked on a public outreach effort to signal that it was
about to exercise its rights to explore for subsurface oil and gas in the BCNP. Between 1997 and
2001, CRC submitted 27 plans of operation (POOs) to explore within the BCNP. Not
unexpectedly, this caused a panic in the environmental community, raised an election issue in
Florida, and positioned CRC nicely for another round of exchange negotiations with DOI.

        In 1999, CRC again approached the Department with a proposal to exchange its mineral
interests in the BCNP. The Office of the Assistant Secretary for Fish and Wildlife and Parks
asked MMS to update its earlier evaluation. Although hesitant to do so, MMS updated its 1995
evaluation to facilitate the newly proposed exchange in October 2000. This time the Department
planned to exchange CRC’s interests for Homestead Air Force Base in southern Florida. A
different MMS geologist re-evaluated the same data provided by CRC in 1995 and in 2000
adjusted the evaluation downward to a mean of $68 million for 100 percent of the subsurface
mineral rights. CRC’s actual ownership still remained in question, with a best guess in the range
of 50 to 80 percent.

        In January 2000, the NPS Geologic Resources Division requested a U.S. Geological
Survey (USGS) assessment of undiscovered oil and gas in the BCNP. The USGS assessment
was not an appraisal, but rather, was an attempt to hypothesize about the size of the
undiscovered resources. Using information in the USGS assessment, the NPS prepared an
economic estimation of the BCNP’s mineral value. Based upon the data presented in the USGS
report, NPS’ Geologic Resources Division concluded that the likely combined estimated market
value for CRC’s oil and gas interest was between $5 million and $20 million, in significant
conflict even with MMS’ downward adjustment of $68 million.




                                                 9

       CRC was given a copy of MMS’ 2000 evaluation shortly after the new administration
took office in 2001. CRC reacted negatively to MMS’ 2000 evaluation of approximately $68
million, and vehemently protested the new number to DOI as being too low.

      In January 2001, Homestead Air Force Base was taken off the negotiating table. The
new evaluation then became geared toward facilitating the Department’s outright purchase of the
CRC mineral rights.

       Secretary Gale Norton asked Ann Klee, then Counselor to the Secretary, to assume the
CRC minerals acquisition as part of her portfolio. Klee relied on two Office of the Solicitor
(SOL) attorneys, Barry Roth and Peter Schaumberg, as her principal advisors for the new
negotiations with CRC.

       A July 16, 2001 e-mail sent by Michael Hunt, former Division Chief, Resource
Evaluation Division, Offshore Minerals Management, MMS, to the then Associate Director,
Offshore Minerals Management, MMS, is indicative of the concern that was being expressed
within MMS at the time.

       In this e-mail, Hunt states:

              Barry [Dickerson, then Chief of MMS Models Division,] & I
              discussed this with [the then Deputy Director of MMS,] last Wed.
              … and we don’t believe Dept. management appreciates the
              significant problem this issue might cause them. Barry & I have
              expressed concern that Collier is inching his way into a situation
              where he wants to discount the MMS assessment (because it’s too
              low for their purposes) and put pressure on the Dept. to accept a
              higher assessment, i.e. their 3rd party or a ‘negotiated’ value.
              …Perhaps if the Dept. wants to pursue this further, the value
              should be established by BLM and the Park Service, & we get out
              of it …. The last thing they all need is for them to make what is
              perceived to be a sweetheart deal in Fla. with an oilman.

        In late 2001, yet another re-evaluation was being considered. MMS once again objected
but eventually produced a spreadsheet containing numbers from a re-evaluation in early 2002
that valued 100 percent of BCNP mineral rights at $68 million.

        Consistently throughout the time these evaluations were being conducted, NPS appraisal
personnel persisted in their view that the UASFLA should be used to appraise the value for the
CRC mineral interests. During late 2001 and early 2002, former SOL attorney Barry Roth,
currently Deputy Associate Solicitor, Division of Parks and Wildlife, SOL, told NPS officials
that he did not believe that CRC would accept an appraisal conducted under the UASFLA. By
this time, CRC had made it known to the Department that its range of values was from $130
million to $180 million, with $130 million being the absolute minimum that it was willing to
accept. Therefore, the MMS evaluation process continued to be pursued to support the proposed
bottom-line purchase price that CRC had made known to the Department.



                                              10

       In late January or early February of 2002, Peter Schaumberg, Deputy Associate Solicitor,
Division of Minerals Resources, Onshore Minerals, SOL, contracted with Dr. John Grace, doing
business as a private company, Earth Science Associates, to conduct a review of MMS’
methodology used in the 2000 evaluation. Subsequently, Dr. Grace was also asked by
Schaumberg to develop a “range of value” around the MMS mean of $68 million. Dr. Grace
determined that a “range of value” around the $68 million mean was $31 million to $140 million,
for 100 percent of the BCNP mineral rights.

        Using Dr. Grace’s range of values as support, the Department extended to CRC its “best
offer” of $120 million. In March 2002, Klee notified the Council on Environmental Quality that
the Department had reached an agreement with CRC to purchase CRC’s oil and gas rights. On
May 29, 2002, an agreement in principle was signed between CRC and the Department for $120
million. The agreement was announced in a ceremony at the White House.

        Finally, in January 2003, Assistant Secretary for Fish and Wildlife and Parks, Craig
Manson, signed the final agreement, which called for CRC to receive cash for its mineral rights:
$20 million at closing, $40 million from the Fiscal Year (FY) 2004 DOI budget, $30 million
from the FY 2005 DOI budget, and $30 million from the FY 2006 DOI budget. The agreement
also called for the Secretary to acknowledge that CRC had the right to claim a donation for any
amount over $120 million that it could substantiate.

        Clearly, CRC had received extraordinary treatment by the Department, spanning two
separate administrations – both Democrat and Republican. Due, in part, to its sheer tenacity, as
well as a very well orchestrated campaign that included instilling fear into the environmental
community and into the Department itself with its purported intent to drill in the Preserve, CRC
successfully captured the attention, the power, and the will of the very highest political officials
at the Department to grant its monetary wishes. With the assistance of the two SOL lawyers who
creatively navigated around the human, legal, and financial impediments that plagued the
transaction, CRC came precariously close to accomplishing its objective.

        In the final analysis, however, particularly from an appraisal standpoint, we believe that
compensation has already been made in previous transactions for some or all of the mineral
interests that CRC seeks to sell and the Department to acquire. As a result, the federal
government is in a troublesome quandary: Since the fee simple appraisals that supported the
1988 transactions by which the Department acquired CRC’s surface interests in BCNP took
subsurface mineral rights into account in arriving at fair market value, the mineral rights were
subsumed. Yet, the federal government, in the land exchange agreement, allowed CRC to retain
the mineral rights. To now pay CRC for any mineral rights that were considered in the 1988
acquisition transactions would result, in practical terms, in dual compensation.

        The enabling legislation is partially to blame: It is internally inconsistent. The statute
requires an appraisal compliant with the UASFLA for acquisition of property rights. Absent a
congressionally mandated exception, this appraisal would include the entirety of privately owned
real property rights, which must include consideration of any market value for subsurface
mineral rights, in reaching a final fair market value amount for the “highest and best” use of the



                                                11

land. The UASFLA prohibits the separate valuation of different components of a tract of land to
then be added together, resulting in a prohibited summation or cumulative appraisal. The statute,
however, goes on to make special provisions for the subsurface mineral rights – the rights that
would be contemplated, and ultimately subsumed, in a fee simple appraisal for the surface
property. One must be intimately familiar with both the enabling legislation and appraisal
practice and standards, however, to recognize these incompatible provisions.

        If the Department’s appraisers had been allowed to perform their job at the outset, if
senior Department officials had listened as well to their own employees as they did to CRC, and
if the Department’s legal advisors had spent the same level of effort on a thorough,
comprehensive analysis as they seemingly did to obscure and secrete the issue of value, this
long, sophisticated charade, which has consumed incalculable hours of time and money on both
sides, might have been avoided altogether.

       Figure 3, on the following page, summarizes BCNP historical events.




                                               12
Figure 3




 13

                              Details of Investigation
                              The Negotiating Environment
        From the start, CRC was the driving force behind DOI’s acquisition of its BCNP mineral
rights. CRC initiated the discussions in the mid-1990s; it renewed them in January 2000 and, yet
again, with the present administration in 2001. Joseph Doddridge, then Assistant to the Assistant
Secretary for Fish and Wildlife and Parks, who had been involved in the CRC discussions from
the start and who initially agreed to talk to us but later refused to continue his interview upon
advice from his retained legal counsel, described the CRC “pitch” as “trade, buy, or drill.”

        DOI conducted its evaluation efforts using CRC-provided data, data that CRC refused to
warrant or verify as accurate, saying the Department was responsible for conducting its own due-
diligence on the accuracy and reliability of the data. Even as recently as December 2004 and
January 2005, CRC continued to request and schedule meetings with Department officials
regarding a proposed agreement.

       As MMS was developing the first evaluation, CRC had virtually unfettered access to the
MMS employees responsible for this effort. During his interview with us, Thomas Readinger,
then Assistant Associate Director, Offshore Minerals Management, MMS, described CRC
representatives as “badgering” MMS with questions. He told us that the then Deputy Regional
Supervisor, Resource Evaluation Division, Offshore Minerals Management, MMS, called him
approximately six times saying CRC’s representatives were “bothering” him by asking to meet
and discuss the evaluation. Readinger also said he felt some pressure from Doddridge about
CRC; Doddridge told him that the evaluation was a “big priority” and that “this is something the
Department wants.”

       During his interview, the former Deputy Regional Supervisor, Resource Evaluation
Division, Offshore Minerals Management, MMS, recalled that shortly after starting the
evaluation, CRC representatives were asking him for MMS’ results.

        The Associate Director, Natural Resources Stewardship and Science, NPS, said in his
interview that he had told Doddridge that the CRC matter was not being handled in the normal
way. The Associate Director said that Doddridge told him that this was way beyond the
Associate Director’s position and that the decisions were being handled at a much higher level.

        When we interviewed him, the then Deputy Director of MMS said that the then Director
of MMS wanted him involved in the CRC matter. He referred to the CRC matter as both a
“nuisance” and “complicated” but that it was something they had to deal with. The former
Deputy Director stated that the Bush Administration inherited the CRC matter from the Clinton
Administration and that Ann Klee, Counselor to the Secretary, seemed to want to resolve it. He
recalled attending a meeting with Klee; the then Associate Director, Offshore Minerals
Management, MMS; and the former Deputy Regional Supervisor, Resource Evaluation Division,
whom he described as “one of their best analysts,” but he could not remember any details of the
meeting.



                                               14

        During a second interview, the former MMS Deputy Director was shown a copy of his
handwritten notes that we had obtained during our investigation. After being asked to discuss
the notation, “[a CRC Attorney] calls Joe everyday,” he responded, “I know what it looks like,
but I’m not going to characterize it.” Agent’s Note: The following notations were also found in
former Deputy Director’s notes: “Collier – Not want to drill – but want top dollar. Collier
wants cash and land. Park and MMS – Figure out valuation.”

       The former MMS Deputy Director said that on June 21, 2001, Joseph Doddridge, then
Assistant to the Assistant Secretary for Fish and Wildlife and Parks, telephoned him and asked to
have the MMS evaluation (2000) updated. The former Deputy Director said Doddridge was a
“conduit” between NPS and MMS for the CRC issue. He opined that Klee would telephone
Doddridge and ask that something be done and that Doddridge would then contact him relaying
Klee’s request.

        Readinger also said, “We were always asked [to do] things [regarding the CRC
evaluations] where we had to ask ourselves, ‘Is this appropriate?’ We don’t normally work in
that environment.” He went on to say, “Companies don’t come to us and tell us what to put into
[our] study.”

       MMS issued its first evaluation in 1996. The former Deputy Regional Supervisor,
Resource Evaluation Division, called it a “ballpark evaluation,” saying that MMS did not
thoroughly analyze the geologic data, partly due to CRC representatives “constantly harassing”
MMS during the evaluation.

        In conducting its evaluation, MMS relied almost exclusively on data provided by CRC,
something that concerned the former Deputy Regional Supervisor, Resource Evaluation
Division. Furthermore, in the Confidentiality Agreement that covered this data, CRC included
the following language: “CRC makes no warranty, express or implied, as to the accuracy,
correctness or completeness of the above listed proprietary data. This data is supplied for the
convenience and information of the evaluator and any reliance on this data is at the evaluator’s
sole risk.” Thus, the data was neither independently obtained nor verified and warranted by
CRC, the provider.

        In the end, however, CRC criticized the MMS evaluation, saying the value was too low,
while, on the other hand, NPS accused MMS of inflating the values. Michael Hunt, then Chief,
Resource Evaluation Division, Offshore Minerals Management, MMS, said in his interview that
“the field was not only fighting the Colliers, but departmental personnel as well.”

       To bolster its negotiating position, CRC also filed 27 POOs with NPS and the U.S. Fish
and Wildlife Service, and made its filings very public, particularly with environmental groups.
The POOs purportedly signaled CRC’s intent to launch exploration activities for oil in the
BCNP. This riled and galvanized the environmentalists, as well as the citizens of Florida, who
opposed drilling in the state, and particularly in the Everglades ecosystem. CRC developed and
displayed a proposed 3-D seismic map at a meeting involving environmental organizations that
depicted virtually the entire Preserve being under exploration activity once CRC began to




                                                15

develop its POOs. From a public relations standpoint, this placed DOI officials in a defensive
posture, placing them, in turn, in a vulnerable position from a negotiation stand point.

        This concern was exacerbated by the outspoken NPS Park Superintendent for BCNP at
the time, who said that the NPS regulations are “sufficient to manage oil and gas development,
but not enough to regulate the environment.” In the Superintendent’s view, buying CRC’s
mineral interests would be money well spent. He said, “[It] does not make a difference as to why
they are doing it, as long as it gets done and we have the resource.” He equated the CRC
acquisition to the Louisiana Purchase; some aspects of the acquisition “may seem negative now,
but 50 to 100 years later, it would be a good deal.” This view was not shared, however, by many
of his NPS colleagues, particularly those who would normally be tasked with appraising the
value of the mineral rights in a transaction such as this.

        In short, the CRC POO-campaign was brilliantly executed to bring everyone – the
environmentalists, interested citizens, and political leaders for both the state and federal
governments – to the ultimate conclusion that DOI’s acquisition of CRC’s mineral rights in
BCNP was a “win for all sides” – as stated by Secretary Gale Norton in a Department of the
Interior press release.

        What nearly everyone, except for the excluded Geologic Resources Division and BCNP
personnel in NPS, failed to, or perhaps, chose not to, recognize was (1) that none of the POOs
were complete; (2) that the POOs were designed to suggest the most extreme impact possible on
the Preserve’s environment, regardless of expenditure; (3) that the approval of the POOs – once
complete – would be subject to NPS regulations governing activity on the Preserve that limit
exploration to a maximum of 10 percent of the Preserve at any given time; and, as such, (4) that
several decades would likely pass before CRC could incrementally actualize the 27 POOs that it
had filed with the Department.

      In a document we received from a petroleum engineer, Geologic Resources Division,
NPS, he wrote the following:

       In last year’s annual report, the Division reported that Big Cypress National
       Preserve was being inundated with proposed oil and gas development plans of
       operations from Collier Resources Company (CRC). CRC is the majority mineral
       owner in the Preserve. The company continued its efforts during 1999 by revising
       and augmenting many of its 24 plans. Each plan of operations includes proposals
       for extensive 3D-seismic programs and 1 to 3 exploration wells. In all, acreage
       covered by all the seismic programs approaches 500,000 acres with nearly
       100,000 shot hole points, 80 miles of new roads, and 35 acres of improved staging
       pad for seismic. The Colliers have also proposed 28 exploration wells. If
       conducted on [sic] after the other, it would take over 30 years to complete
       everything that’s been proposed.

       CRC has taken an atypical approach in their permit applications leading the
       Division to believe the proposal are more likely part of a larger plan to foster a
       buyout or mineral exchange via threats of large-scale development.



                                                16

       However, the exchange of Big Cypress minerals for Homestead Airforce Base has
       several factors to overcome. First, most of the areas where CRC holds a mineral
       interest, it is not 100% ownership. Acquisition of CRC’s interest in those areas
       would not keep the remaining owners exploring for and extracting oil and gas –
       no environmental protection guaranteed. Only lands owned 100% by CRC should
       be considered for exchange. Secondly, since Federal minerals in the Preserve
       cannot be leased under current law, the mineral estate has no financial value to the
       American public. It must then be justified on purely environmental benefits.
       Lastly, a significant sticking point may be a determination of the fair market value
       of CRC’s mineral estate. Fair market appraisals for mineral properties, especially
       where the presence or absence of oil and gas is not proven, is very difficult.
       When comparable properties cannot be found to base appraisals, the
       determination may have to resort to cash flow analysis. Even when used by an
       appraiser experienced in this field, this approach is a highly speculative appraisal
       method.

       The Division has recommended that independent certified mineral appraisers need
       to be brought in to ensure any land exchanges are equitable to the public’s
       interest.

        James Woods, Chief of the Geosciences and Restoration Branch, Geologic Resources
Division, NPS, who is familiar with POOs, called CRC’s plans “very out of the ordinary,” saying
he had never before seen NPS “bombarded” by so many POOs in such a short time by one entity.
He was, he said, also in a quandary regarding the cost prohibitive nature of the collective
proposals. For example, Woods said he had never seen a permit application for exploration that
included a drilling site prior to conducting exploration. It did not make sense, he explained, to
plan drill sites prior to conducting exploration and analyzing the resultant data. He also
questioned CRC’s proposed use of “all weather roads” and “drilling pads” for exploration access
activities. According to Woods, CRC proposed to build access roads and drilling pads with lime
rock. He opined that trucking lime rock into the BCNP for this purpose would be a prodigious
task and cost millions of dollars. Woods said that there are less expensive ways to access the
swamplands for oil and gas exploration.

        A senior manager of the Resource Management Division, NPS, BCNP, was interviewed
and opined that it was “not feasible” for CRC to explore and develop all plans as proposed. For
one of its plans alone, he estimated that building the purported 6.5 miles of road would have cost
approximately $6 million. In his interview, the senior manager reiterated the view of Woods,
saying that he had never seen POOs with actual drilling sites included.

       In a letter supporting the initiation of our investigation into this matter, a public interest
group outlined the regulatory obstacles that CRC would face in advancing its intention to explore
and develop:

       Preserve regulations reasonably limit exploration and allow for 10% area of
       influence of oil and gas operation[s] according to the Preserve’s Mineral



                                                 17

       Management Plan….The Preserve has nine existing producing wells in two fields
       and is already relatively close to the area of influence threshold….the addition of
       just one more well would take the area of influence very close to the maximum
       10% threshold. Therefore to be able to drill a second well, at least one existing
       well would have to come out of production and the site restored to the Preserve’s
       standards. Since wells sometimes produce for decades, the wait for another
       drilling opportunity could be very lengthy. Therefore, the threat of massive wide-
       scale drilling (promoted by the Colliers [CRC]) with 27 plans of operation is
       unrealistic given current regulations.

        Nonetheless, CRC and its representatives, who were obviously shrewd in business and
unabashed in politics, found in DOI a malleable bureaucratic instrument. Exploiting a
combination of public policy, politics, and environmentalism, which was being fueled by the
demoralization of career DOI employees, at one extreme, and sycophantical enabling, at the
other, CRC took complete advantage of a negotiating environment weighted heavily in its favor.

                                     Establishing Value
       During this investigation we found nothing to indicate that minerals in the South Florida
BCNP area have any significant value. To the contrary, several sources suggest that the mineral
resources in BCNP are worth little or nothing.

        During an interview with the Chief of Land Acquisition, Environmental and Natural
Resources Division, Department of Justice (DOJ), the Chief said that DOJ had contracted for a
BCNP market study between 1998 and 1999. The Chief provided a copy of the study entitled,
“Market Study, Big Cypress National Preserve; Big Cypress First Revision,” dated June 8, 1999.
In its Summary of Conclusions, the report concluded, “For sales in freshwater wetlands, there is
no evidence of any change in the price per acre directly associated with the issue of Mineral
Rights.”

        When we asked during our interview of a certified Florida evaluator, Collier County,
Florida, what the current fair market value for mineral interests in the BCNP is, the evaluator
responded with a hand gesture indicating zero value. He said that he was not aware of any
interest in oil or gas sales since the 1960s. Additionally, the evaluator was shown a Lands
Available List, published by the Office of the Clerk of the Circuit Court, Collier County. The list
indicated 18 sites involving mineral interests currently for sale in the BCNP. The Collier County
evaluator said the “minimum bid” listing for those interests, ranging from $419.45 to $1,236.08,
was for taxes due, and no additional value was reflected for potential oil and gas resources.

        An NPS petroleum engineer said the only company currently producing oil in the BCNP,
Calumet of Florida, Inc., has attempted to sell its working interests multiple times. He said
Calumet was unsuccessful, having received no credible offers. We subsequently verified this
information with officials from Plains Exploration and Production Company, the parent company
of Calumet. Plains officials said that at least twice contractors were hired to set up “data rooms”
for potential buyers to view their production data, but in both cases, they received no offers that
would have allowed them to complete the sale.


                                                18

       In our interview of a Reservoir Engineer of the Plains Exploration and Production
Company, we also learned that the quality of the oil being produced in this section of South
Florida is low-end.

        When a CRC manager was interviewed, he admitted candidly that because of the rating
of the oil in the BCNP, it “suffers” a discounted price in comparison with West Texas Crude. He
added that multiple products are created from BCNP oil, although he could not name any.

        Thus, the Department faced considerable challenges to establish any value for the mineral
rights in the BCNP, never mind a value that would be acceptable to CRC.

        When MMS was first tasked to conduct an evaluation, it was told by Doddridge to
simply, “get it done.” Although Readinger advised Doddridge that such an evaluation would be
unprecedented for MMS because MMS usually works offshore, he said they could do it. As
Readinger put it in a September 19, 2000 e-mail, “MMS was asked to perform this task because
of our expertise; we reluctantly, as ‘good soldiers’ agreed.” Using the tools it had available,
MMS prepared an evaluation based on MMS’ experience with offshore oil and gas minerals.
This valuation, however, was being applied to onshore mineral estates.

       Thus, at the outset, the Department was using an “apples and oranges” approach to value
the CRC mineral estate. It was also an approach that NPS Geologic Resources Division
personnel firmly believed was wholly improper for the proposed transaction.

        Once again in 2000, Doddridge applied pressure on MMS to conduct another evaluation.
Readinger strongly resisted doing another evaluation and, ultimately, was summoned by
Doddridge to a meeting with the then Deputy Assistant Secretary for Water and Science, who
“strongly encouraged” Readinger to do another evaluation. The 2000 evaluation, which, in the
opinion of Readinger and the other MMS officials responsible for its production, was
considerably more thorough than the earlier one, resulted in a mean value nearly $86 million less
than that generated by the 1996 evaluation.

        When in 2000, NPS Geologic Resources Division independently requested USGS to
conduct an evaluation of undiscovered oil and gas in the BCNP, it did so without Doddridge’s
knowledge because NPS career personnel felt that an exchange with CRC was unnecessary and
that the dollar figures being discussed were way out of line. Readinger also said that when
Doddridge learned of this development, he said he was reportedly dismayed.

        When we interviewed a senior manager of the NPS Lands Resources Division, he told us
that the Lands Resources Division had felt it was being “pushed aside” because the Department
did not want to use prescribed policy or procedures to conduct this exchange.

        Another confidential source (CS-2), who was in a position to know NPS’ role in this
matter, stated that the normal process used had been “waylaid and prostituted” based on the
cultural mindset within DOI and politics.




                                               19

       When we interviewed the Associate Director, Natural Resources Stewardship and
Science, NPS, he confirmed that Barry Roth, then SOL attorney, was “trying to twist my arm”
and that Roth and Doddridge “were pushing us to get on board with something we could not do.”

       A considerable amount of effort was subsequently expended among MMS, NPS, and
USGS to reconcile the results of their respective evaluations. By late September 2000, one
option was “the SOL idea of having a host of numbers….” At this point, another e-mail
authored by Readinger indicates that the Director of MMS at the time had become involved:
“[The former Director] met with Peter and indicated MMS would not prepare a report with
numbers. Although [the former Director] said we may hear more from ‘upstairs,’ so far, this is
holding….He does not support the SOL proposal to ‘cloud’ the issue by having many different
numbers.”

        When yet another MMS evaluation was being considered in 2002, MMS personnel told
us that it was clear that the Department wanted MMS’ numbers to go up. In an e-mail exchange
between Barry Dickerson, then Chief of MMS’ Models Division, and the then Deputy Regional
Supervisor, Resource Evaluation Division, Offshore Minerals Management, MMS, Dickerson
stated, “I am not clear as to why we are evaluating this based on CRC’s value. What the
government should pay for this is more closely tied to what a buyer would pay than what Collier
would sell for.” The former Deputy Regional Supervisor replied:

       I agree with your impression….CRC continues to snipe at our evaluation and
       push the envelope, without acknowledging anything that was to their benefit in
       the analysis. Since they refuse to show us their model and the lawyers won’t
       insist on seeing this info. I’m beginning to suspect that either their results are
       similar or they don’t have one.

        By this time, Klee had assumed control of this issue, and Readinger had become
marginalized in the valuation efforts. Instead, Klee, Roth, and Schaumberg began dealing
directly with the former Deputy Regional Supervisor, Resource Evaluation Division, Offshore
Minerals Management, and the former MMS Associate Director, Offshore Minerals
Management.

        When we interviewed the former Deputy Regional Supervisor, he said that when the
former Associate Director asked him to become more involved, he had asked her if he was going
to be allowed to conduct a “real evaluation” or whether it would be something similar to the last
one (in 1996). The former Deputy Regional Supervisor told the OIG that the former Associate
Director responded by agreeing to get written instructions from the Department that would
include language indicating that MMS would do an independent evaluation.

        CRC entered negotiations with a clear dollar objective of not less than $130 million,
which it had made known to the Department’s negotiators. As noted earlier, Barry Roth, the
attorney with the lengthiest involvement in the deal, told others involved that a traditional
appraisal could not be done. During our investigation, we found documents and heard witnesses
claim that Roth advocated the use of MMS rather than an appraisal to prepare the evaluation,
which would be used for the purposes of negotiating a purchase price with CRC.



                                                20

       For instance, Philip Cloues, a Mining Engineer/Mineral Economist with NPS’ Geologic
Resources Division, said when we interviewed him that he had participated in a teleconference in
early October 2001 in which Roth specifically stated that the UASFLA would not be used for the
determination of value and that MMS would perform the evaluation to determine value.

        After several meetings between MMS and CRC, the former Deputy Regional Supervisor,
Resource Evaluation Division, was instructed to meet with Klee, the then Deputy Director of
MMS, Schaumburg, and Roth on August 16, 2001, to explain the 2000 evaluation. In his
interview, the former Deputy Regional Supervisor said Department personnel “strongly”
questioned MMS’ evaluation during the meeting. When he tried to explain it, he said Klee did
not seem to listen. He said that Klee wanted to know why MMS’ numbers had not changed as a
result of MMS’ meetings with CRC. Overall, the former Deputy Regional Supervisor felt that
his and MMS’ efforts were not being held with the same regard as CRC’s views of their
evaluation. He went on to describe the later stages of MMS’ involvement as “one big pissing
match.” He said MMS was not going to come up with a number to make NPS or anyone else in
the Department happy. He said, “We were going to do what we needed to do.”

        When asked, Ann Klee stated she could not recall any meeting she had with former
Deputy Regional Supervisor of the Resource Evaluation Division that was cantankerous as a
result of her questioning him on why MMS could not get its valuation numbers higher.

       The notes of the former Deputy Director, MMS, reflect that he attended the meeting on
August 16, 2001, with the former Associate Director, Offshore Minerals Management; the
former Deputy Regional Supervisor of the Resource Evaluation Division, Offshore Minerals
Management; and Klee. When interviewed, he had no recollection of the meeting except for
what he wrote in his notes: “Yes – Ann says we can” and “[the former Deputy Regional
Supervisor]” said “no.” However, that notation appeared related to another comment about a
common understanding between parties concerning resources. He also wrote that they needed to
“…try to narrow the differences” and “Collier wants us to buy them out – they do not want to
develop.”

       Regardless, in all instances, the MMS evaluations covered all of the mineral rights (100
percent) in the BCNP. Although MMS had repeatedly asked CRC for exact ownership data,
CRC never provided it. Even today, the Department does not know the extent of CRC’s
ownership of subsurface mineral rights in the BCNP. Information subpoenaed from CRC during
our investigation now suggests, however, that its ownership falls, at best, in the 63-percent range.

        MMS was very concerned about how its evaluation was being represented in negotiations
and reiterated numerous times to various officials involved in the negotiations, but specifically to
Barry Roth and later, over and over again, to Peter Schaumberg, another lawyer involved in the
negotiations, that the evaluation covered all of the mineral rights in BCNP, not CRC’s
percentage.

       In their interviews, Readinger; David Marin, Deputy Regional Supervisor, Resource
Evaluation Division, Offshore Minerals Management, MMS; and David Cooke, former Chief of
MMS’ Resources Studies Section, as well as Dickerson and a former Deputy Regional



                                                 21

Supervisor of the Resource Evaluation Division, Offshore Minerals Management, said they
repeatedly told Schaumberg that the mean value determined by MMS was for all of the oil and
gas reserves in the BCNP, of which CRC owned an undetermined percentage. Readinger said,
“We were intent to underscore, and note in bold, the issue of ownership.” He said that Marin
and Cooke seemed “troubled” that Schaumberg did not “get” that the mean value of
approximately $68 million did not truly reflect CRC’s interests. He also said that he “was not
comfortable that Schaumberg understood the percentage point. [Schaumberg] did not seem to
listen.” Readinger recalled “strongly” asking, “Peter, what’s going on here? This is not right.
Do you understand that the mean value determined by MMS was for all of the oil and gas
resources, of which the Colliers own an undetermined percentage?” Readinger said that
Schaumberg did not acknowledge the point he was trying to convey. Readinger said he felt his
and MMS’ integrity were at stake. Other MMS employees who were interviewed also expressed
concerns over Schaumberg’s lack of acknowledgement over CRC’s percentage of ownership
issue.

        While the third evaluation was being considered, it became clear to MMS that it could
not come up with a value higher than its 2000 value. Thus, MMS did not actually complete the
third evaluation and, instead, produced a spreadsheet that reported an approximately $68 million
mean value for the entire BCNP mineral estate. This was roughly half of CRC’s lowest dollar
objective amount.

        In a meeting at DOI on January 28, 2002, CRC representatives were provided another
opportunity to express their position on their mineral interests. DOI officials attending this
meeting included Ann Klee; Barry Roth; Peter Schaumberg; the Superintendent of BCNP at the
time; the former Deputy Regional Supervisor, Resource Evaluation Division; David Cooke;
David Marin; and Michael Hunt.

       Marin confirmed that the meeting was called to allow CRC to present its position. Marin
said CRC representatives continually interrupted Cooke when he spoke, and he did not recall
MMS receiving any support from the DOI representatives present.

       According to Cooke, Ann Klee led the meeting and said its purpose was to let CRC
explain why its value should be higher. Cooke said no one from MMS was seated at the main
conference room table; they all sat in the row behind. He and the former Deputy Regional
Supervisor of the Resource Evaluation Division made a few comments in rebuttal to CRC, and at
one point Klee interjected on behalf of MMS.

        Schaumberg said the January 28, 2002 meeting was his first involving the CRC matter.
He said, “That’s the first meeting I had a sense of where we were.” However, he did not recall
what was presented or discussed. When asked if MMS did any further work or evaluations of
CRC’s mineral interests after the meeting, Schaumberg said MMS “updated their numbers,” but
he did not recall what they changed or updated.




                                               22

       We obtained an e-mail from Hunt, dated January 29, 2002, that stated the following:

       [a consulting geologist] for Collier, presented their tech. information to Ann, and
       pointed out approx.’ly [sic] 18 areas where they differ with MMS. This took most
       of the 2 hrs., and they did most of the talking. A few times Ann requested that
       MMS ([the former Deputy Regional Supervisor of the Resource Evaluation
       Division] & Dave Cooke) respond to specific questions, and that was handled
       well. Ann grasped the tech. issues and asked good questions. She didn’t appear
       to be completely ‘buying’ Collier’s sales pitch. …Overall, I believe it went well.
       Ann Klee was even-handed, perceptive, and understood what was being cover
       [sic].

        When interviewed, the former Deputy Regional Supervisor of the Resource Evaluation
Division said the meeting was held in a conference room at the Department. He said he and
David Cooke, then Chief of MMS’ Resources Studies Section, attended the meeting representing
MMS. The former Deputy Regional Supervisor of the Resource Evaluation Division did not
recall the names of any additional MMS people who were in attendance, but he said he thought
there were others. He said that during most of the meeting, CRC had “laid out…a litany” of their
“substantial” differences and disagreements with MMS’ assessment of CRC’s mineral interests.
He said that from his seat in the back of the room, he eventually interrupted the CRC
representatives because they seemed to be “…moving right along” unchallenged. He wanted it
to be known that MMS did not agree with what the CRC representatives were saying. Cooke
also spoke out, adding details to the points raised by the former Deputy Regional Supervisor of
the Resource Evaluation Division.

         The former Deputy Regional Supervisor of the Resource Evaluation Division did not
recall what, if any, response the Department officials had to his rebuttals. He also did not recall
if there was a published agenda for the meeting or if MMS would have been allowed to counter
the points made by the CRC representatives, had he not interjected.

        When interviewed regarding this meeting, Klee told us that the meeting allowed her to
hear the technical debate between CRC and MMS. Prior to this meeting, she had not heard from
the MMS “technical people” who had conducted the evaluation of CRC’s mineral rights. She
said that another purpose of the meeting was to see if the differences in CRC’s and MMS’
evaluations could be narrowed. She said she was “under whelmed” by the discussions,
particularly referring to MMS.

        When interviewed about the January 28, 2002 meeting, the former Superintendent,
BCNP, stated that MMS was asked to present its views on valuation. He said MMS and CRC
were far apart on their valuations. Although he did not recall the names of the MMS personnel
who conducted the presentation, he characterized them as somewhat “nervous” and “anxious.”
The former BCNP Superintendent was asked if he could have mistaken a speech impediment for
nervousness and he replied, “I could have.” Agent’s Note: One of the meeting’s participants
stutters when he speaks.




                                                 23

        Overall, the former BCNP Superintendent said that MMS stood its ground and he was
satisfied with the presentation. However, he noted that the MMS personnel did not seem happy
about presenting their views to people who did not seem to want to hear them. When asked if
this included Department representatives, the former BCNP Superintendent said he meant that
the CRC representatives did not seem to want to hear MMS’ views.

       The former BCNP Superintendent said CRC’s presenter painted a different picture than
MMS. He said he was given a lot of “leeway” at the meeting and he seemed to have been
accepted as a qualified expert. The former BCNP Superintendent said the CRC presenter was
more “emotional” than other CRC representatives that he had dealt with in the past.

      According to the former BCNP Superintendent, Ann Klee was in charge of the meeting;
however, he thought she portrayed herself as not being knowledgeable about the topics discussed
by MMS and CRC and that she was “just listening.”

        When asked about this meeting, unlike all other attendees, Barry Roth could only recall
that he attended a couple of briefings with MMS in a conference room.

The Grace Review

        When the Department failed to reach a value that would be acceptable to CRC, Peter
Schaumberg sought and obtained the services of an offshore minerals expert, Dr. John D. Grace,
President of Earth Science Associates. Dr. Grace was initially asked to review MMS’ evaluation
methodology and report his findings in a teleconference. Dr. Grace told us during an interview
that the data MMS used was “sufficient” for the task MMS was assigned to do and that MMS
employed the methodology “well.” In his interview with the OIG, however, Grace explained
that using offshore auction bids might be viewed as representing a “synthetic” market in
comparison to a different or nonexistent onshore market.

         Subsequently, Schaumberg asked Dr. Grace to include a “variance” – or range – of values
that one might pay for the oil resources evaluated by MMS and to produce a written report.
Initially, Dr. Grace was very reluctant to do so and sought the advice of a colleague, a consultant
on mathematics in financial matters and professor of statistics. When we interviewed the
consultant, he confirmed that he had been contacted by Grace regarding a project Grace was
working on for the Department of the Interior. The consultant said that during his conversation
with Dr. Grace, Grace stated that he was “struggling” to put a range of variance around one
professional estimate and that he was looking at Outer Continental Shelf bids to help establish
this variance. At the time, the consultant advised Grace that he could not think of any better way
to suggest putting a range of variance around one estimate. When we asked, the consultant
indicated that one possible reason for establishing the variance was to give an “excuse” to go
higher during negotiations than the $68 million mean contained in the information Grace was
working with.

       Ultimately, Dr. Grace produced a nine-page report, addressed to Schaumberg, reiterating
his overall conclusion that the methodology employed by MMS was “sound and correctly
applied”; he also included a “range” of values from $31 million to $140 million based on MMS’
$68 million mean.


                                                24

        During his interview, Dr. Grace said he probably created this value range at the request of
Peter Schaumberg, that he understood from Schaumberg that the Department needed a value
range to meet its needs in the proposed mineral rights acquisition, that he had never before
created such a value range, and that he had no plans to create one again. He also conceded to us
that his range of values had a “positive bias.”

         Dr. Grace explained that "positive bias" means his analysis resulted in a greater range of
values, or variance, which would have favored the seller, or the party seeking the higher dollar
amount. In this case, his range favored CRC. Dr. Grace stated that he used an example set
(offshore auction bids) that was “much richer in prospects” than bids that might have existed
onshore in South Florida at the time of his analysis. The “pot is much richer in size offshore than
it is onshore,” Dr. Grace said. He explained that the magnitude of rich offshore auctions used to
represent onshore prospects caused “the whole picture to be up shifted.”

       Dr. Grace went on to tell us:

               The positive bias in the range of values obtained from bids in the
               Gulf of Mexico [GOM] might be better understood by the
               following rough analogy. If we wanted to analyze the range of
               salaries earned by minor league baseball players, the range of
               salaries of major league players would be informative. However,
               because there are no 'superstars' in the minors, the range of salaries
               in the majors would be positively biased relative to minor leaguers.

               Likewise, onshore Florida, there just is not the potential for super-
               giant fields that exists offshore. Therefore, there would be a
               smaller range for onshore bids on leases (were such an auction
               held) than would occur in an offshore lease sale. Unfortunately,
               there were no organized data on onshore lease auctions that could
               be used in constructing the range for onshore Florida. Therefore,
               the offshore GOM lease sales were used, and the existence of some
               positive bias (of unknown degree) was reported with the analysis.

       The peculiarity of this range is further revealed by Dr. Grace in his report:

               ….I was asked to prepare a range around the mean of the
               distribution in value calculated by MMS. The mean of that
               distribution (when finalized and prorated for that portion being
               bought) is, according to microeconomic theory, the price at which
               the asset would trade on an open market.

               There is no specific provision in that theory for developing a range
               around that mean to reflect how different participants in the
               market would value the asset in practice. And assumption of the
               pure equilibrium market model is that all participants have perfect



                                                25

                information. Therefore, one would not expect a variance in
                evaluations, so there is no need for a range – in theory. [Emphasis
                added]

                However, development of a range was required to meet the
                practical needs of the Department of Interior. [Emphasis added]

        Later, in a memorandum crafted and signed by Barry Roth and Peter Schaumberg, Dr.
Grace’s efforts would be characterized as an “Independent Review,” which would later be
interpreted by congressional staffers as a “Peer Review,” although the Appraisal Foundation
granted it no credit for either, and was, for practical purposes, the basis upon which the key
Department decision-makers – specifically Ann Klee and ultimately the Secretary – relied to
reach the purchase price of $120 million.

         Although his report parenthetically qualified the need to prorate for the portion being
bought, like MMS’ evaluation, Dr. Grace did not calculate an allocation for CRC’s partial
ownership interest in BCNP. He did not discuss prorating with Peter Schaumberg because, he
said, it seemed so obvious that he assumed Schaumberg would have accounted for it.

        Dr. Grace said that he was concerned that the approximate mean of $68 million should
have been reduced proportionately to CRC’s actual mineral interests in BCNP. When he was
asked if he believed that his work supported the $120 million agreement between the Department
and CRC, Dr. Grace said that he did not know about the $120 million until he heard the
Presidential announcement. He opined that someone might potentially pay that amount, but it
would be “odd.” Dr. Grace explained that the mean is the expectation, that is, the price that
would be expected in an ideal theoretical market. If a price is derived that is above the mean, Dr.
Grace said that the seller has received a better deal, has a better position, or is a better negotiator.

       Dr. Grace also said that failure to prorate the mean value, from which he constructed his
range of values, was incorrect, and not completing such a rudimentary and elementary step in
valuing CRC’s mineral interests was “a dead-out mistake.”

        As the following section will explain in greater detail, the MMS and Grace reports were
conceived, crafted, and presented as if to replicate – or at very least, substitute for – a standards-
compliant appraisal. While the sum of all these reports would suggest that they provide the basis
for determining the $120 million value of CRC’s subsurface mineral rights in the BCNP, we
were told during interviews of the very people who caused these reports to be generated that they
are not the basis for the $120 million offer. Rather, Barry Roth and Peter Schaumberg say the
$120 million was a “negotiated price” justified by congressional ratification (Agreement Subject
to Ratification).

       The independent evaluation conducted by The Appraisal Foundation and our own
analysis of the Agreement Subject to Ratification belie the validity of this last-ditch mendacity.




                                                  26

                         The Appraisal Foundation’s Evaluation
        Included in its entirety as an attachment to this report, the “Evaluation of the Department
of the Interior’s Value Justification Process and Procedures Associated With Collier Resources
Company Undiscovered Oil and Gas Interests in Florida,” dated May 28, 2004, prepared by The
Appraisal Foundation, speaks for itself.

        A synopsis, however, of the evaluation’s findings and conclusions will inform those who
choose not to read the entire evaluation, and should assist those who do. In addition to
thoroughly addressing the specific questions we presented, The Appraisal Foundation adeptly
and articulately crafted its responses in a context, both historical and practical, that provides even
the most uninformed reader a clear understanding of what took place in the effort to secure a
value for the subsurface mineral rights in this matter.

       Before we summarize the Foundation’s findings, we must make this very important
caveat: While the Foundation is critical of the form of and representations contained in the
MMS reports it reviewed, its criticism must not be extended to those MMS employees who
created the reports. As we discussed in the section entitled, “The Negotiating Environment,” the
MMS civil servants who were pressed into service acted only after repeatedly expressing their
reservations and concerns in every way and to everyone possible, short of becoming
insubordinate (although Readinger opined that he believed that when he objected to conducting a
re-evaluation in 2000, he may have, in fact, crossed the insubordination line). (See Attachment)

       Keeping this caveat in mind, we asked the Foundation to:

       1. 	Explain the evaluation methodologies and appraisal practices that are used by the
           federal government in determining the value of subsurface oil/gas mineral rights,
           including a discussion of the Uniform Standards for Professional Appraisal Practice
           (USPAP).

       2.	 Determine whether the processes employed in the 1996 and 2000 MMS evaluations, and
           the 2002 review conducted by Dr. John Grace, of the CRC mineral estate were valid and
           appropriate. Identify whether, in general, the processes constituted a valid methodology
           for use by the federal government in determining onshore mineral values.

       3.	 Explain whether an appraisal is necessary in cases involving the purchase or exchange of
           subsurface oil/gas mineral rights. If so, explain what part of the USPAP applies and what
           part of the Uniform Appraisal Standards of Federal Land Acquisitions (UASFLA) apply;
           if not, explain why not, and identify the range of options by which a federal entity has for
           valuing the purchase or exchange of subsurface oil/gas mineral rights.

       4.	 If the evaluation methodology used by DOI was outside of acceptable industry
           practice, identify and describe generally the impacts to the valuations.




                                                 27

       5.	 Identify any acceptable deviations to the evaluation and valuation methodology used
           by MMS and describe generally the impact of the deviations.

       6.	 In light of the above consideration, review the following document: GAO Report
           entitled, “Land Exchange-New Appraisals of Interior’s Collier Proposal Would Not
           Resolve Issues,” May 1988, GAO Report No. GAO/GGD-88-85.

         In its report, the Foundation first provided some history: The United States has had
ethical rules statements for real property appraisals since the late 1920s, developed in part as a
response to fraudulent market practices and abuses in real estate characterized by the repetitive
sales of the Brooklyn Bridge and the rampant abuse of a “buyer beware” marketplace.
Recognizing that these and related systemic failures contributed to the severity and extent of the
Great Depression, professional appraisal organizations were formed in the public interest to
assist in stabilizing markets and establishing foundations of certainty and security for real estate
investments.

        The purpose of the USPAP is to promote and maintain a high level of public trust by
establishing requirements for appraisers in order that they may develop and communicate their
analyses, opinions, and conclusions in a meaningful way that is not misleading. The standards
prohibit appraisers from advocating the particular needs or dictates of the client and provide the
foundation for fairness, transparency, objectivity, independence, and competency.

        The USPAP is recognized in the courts, in the Congress, and in a wide spectrum of
private market transactions, especially in mortgage lending and the purchase and sale of real
property rights. It serves as an important set of supplemental standards to allow for the minimal
number of special differences that occur in the federal jurisdiction.

        The UASFLA was first published in 1971. It is the product of more than 30 federal
agencies who are signatories to it. It is intended to apply to all federal government land
acquisitions and exchanges with the private sector.

        The USPAP and the UASFLA each have their roots in principles that were developed to
avoid fraud, waste, abuse, and misunderstanding, and promote independence and objectivity,
whether the users are public or private.

         As a result of its evaluation of the information we provided, the Foundation recognized
that professional appraisers were “consciously by-passed” by management. The Foundation
found the stated reasons for by-passing the appraisers to be “more suited to an excuse that
attempted to justify what was clearly an unwarranted decision, and thereby permit development
and reporting of inflated ‘values.’” The Foundation also recognized that DOI officials involved
in the transaction were aware of legal standards and requirements, but neither sought nor
received reports that complied with those requirements. (See Attachment, page 66)




                                                 28

In response to our specific inquiries, the Foundation provided the following:

1. 	Explain the evaluation methodologies and appraisal practices that are used by the
    federal government in determining the value of subsurface oil/gas mineral rights,
    including a discussion of the USPAP.

   •	 Appraisals are to be performed in the federal jurisdiction by qualified appraisers
      who are trained and experienced to meet the professional standards required to
      develop market value opinions. There are no provisions for “alternative
      valuation means” where market value determinations are an element of land
      acquisitions or exchanges involving private sector entities.

2. 	Determine whether the processes employed in the 1996 and 2000 MMS evaluations,
    and the 2002 review conducted by Dr. John Grace, of the CRC mineral estate were
    valid and appropriate. Identify whether, in general, the processes constituted a valid
    methodology for use by the federal government in determining onshore mineral
    values.

   •	 None of the reports reviewed by the Foundation were standards-compliant market
      value appraisals. The 2000 MMS report in particular was misleading in that, without
      complying with the requirements for federal appraisals, and without appropriate data
      reasoning, analysis, and conclusions, it was reported in a form and was apparently
      used as though it were prepared in accordance with federal appraisal standards.

   •	 Despite the extent of information, discussion, and recitation of how statistical
      models were used in the MMS reports, these reports are hypothetical, highly
      speculative, and not based upon supportable market data.

   •	 The purported subsurface oil and gas mineral interests owned by CRC were not
      defined on a property-specific basis as to their nature and extent, or even as to
      their location. As such, any value ascribed to these interests is misleading and
      improper because even if minerals were to exist, there is no way to quantify the
      CRC portion of any market value that might be ascribable to the interests.

   •	 At best, the MMS report deals with a factual unknown: No one knows that
      economically viable oil and gas exists on the real estate to which CRC’s mineral
      interests apply.

3. 	 Explain whether an appraisal is necessary in cases involving the purchase or
     exchange of subsurface oil/gas mineral rights. If so, explain what part of the USPAP
     applies and what part of the UASFLA apply; if not, explain why not, and identify the
     range of options by which a federal entity has for valuing the purchase or exchange of
     subsurface oil/gas mineral rights.

   •	 The USPAP and the UASFLA provide pertinent standards and guidance for the
      valuation of real property interests, but the requirements of these standards were


                                        29

               overlooked and not reflected in the materials reviewed. These failures, among
               others, render the reports and the processes by which the reports were generated
               as highly questionable.

           •	 A determination that there are no comparable sales transactions that would allow
              an appraisal to be done must be adequately supported by a qualified appraiser.

       4. 	 If the evaluation methodology used by DOI was outside of acceptable industry
            practice, identify and describe generally the impacts to the valuations.

           •	 With the number of mischaracterizations, misrepresentations, and misapplications
              reflected in these materials, the Foundation found no reliable foundation for
              concluding or using any opinion of market value of the CRC mineral interests
              involved.

       5. 	 Identify any acceptable deviations to the evaluation and valuation methodology used
            by MMS and describe generally the impact of the deviations.

           •	 In a situation such as the CRC mineral interest in Florida, qualified appraisers are
              particularly needed. The way in which this transaction was handled evidences an
              improper and unsupported land deal, not in compliance with the law and the need
              to uphold the public trust.

           •	 Market value appraisals developed and reviewed by qualified appraisers should be
              recognized as necessary in all land acquisitions and exchanges by DOI and its
              agencies.

       6.	 In light of the above consideration, review the following document: GAO Report
           entitled, “Land Exchange-New Appraisals of Interior’s Collier Proposal Would Not
           Resolve Issues,” May 1988, GAO Report No. GAO/GGD-88-85.

           •	 Although the GAO report does not discuss the rights appraised, distinguishing
              between surface rights and any reserved mineral interests, it does state that all
              three of the appraisers in Florida agreed that the highest and best use of the
              properties would be for recreational use and speculative holding.

       In addition to responding to our specific inquiries, the Foundation offered other insights
and concerns:

           •	 The Foundation expressed concern that program abuses or more serious violation
              of the public trust may have occurred.

           •	 The MMS reports relied heavily upon materials, information, and discussions
              with CRC, compromising the independence and objectivity that are required for
              standards-compliant market value opinions.



                                                30

•	 The Foundation could not understand how rational program staff could rely on the
   MMS reports as support for the proposed exchange. The 2000 MMS report was
   not an appraisal, was heavily influenced by CRC data that even CRC would not
   warrant as true and correct, and was adjusted by non-appraisers to have the
   appearance that the MMS had developed a market value conclusion.

•	 Market value definitions are based upon the concept that the buyer and seller are
   each reasonably knowledgeable, that each is acting in self-interest, and there is an
   absence of any compulsion. Sellers are generally obligated to provide truthful
   disclosures of pertinent property facts that might influence buyer decisions. A
   market value transaction is, thus, an “arms-length transaction” because each party
   acts independently, without accommodations for special relationships that might
   exist between the parties.

•	 CRC did not make disclosures that would meet normal seller requirements, and
   DOI expressed a compulsion for the transaction or exchange to occur.

•	 In addition to the obvious questions of propriety and possible abuse of public
   trust, CRC’s unwillingness to “warrant, express or implied, as to the accuracy,
   correctness or completeness” of the proprietary data provided to MMS, raises the
   question of why the agreement would be signed in the first place if the data could
   or would not be warranted.

•	 Negotiators and other program officials may deal with negotiated prices, but such
   negotiated amounts do not substitute for value opinions developed by qualified
   appraisers.

•	 Pronouncements of “market value” by administrators do not substitute for the
   opinion of an independent qualified appraiser. This opinion should form the basis
   for administrative determinations.

•	 The spirit of the USPAP and the UASFLA requires that appraisers and reviewers
   of appraisals examine prior transactions involving an appraised property. An
   evaluation of previous acquisitions or exchanges involving CRC surface rights, or
   of congressional actions that may relate to such rights, needs to be analyzed to
   determine whether CRC interests may have already been compensated for all or
   part of the mineral rights involved.

•	 If mineral interests of any sort had been reserved, extracted, or otherwise removed
   from the bundle of rights, none of the appraisals would have qualified as “fee
   simple” appraisals.

•	 In the federal jurisdiction, compensation for acquisitions is generally limited to
   the real property rights. Business rights are not generally acquired. When an
   owner of real property rights becomes, or has the potential to become, a developer
   and/or an operator of resource extraction, the functions of a developer and/or an


                                    31

               operator are considered as business activities and are to be separated from the
               land rights that are valued.

        In the end, the Foundation concluded that any exchange or transaction based upon any of
the documents it reviewed was not based on credible or reliable information by which to judge
the market value of purported and undefined CRC property interests. The Foundation,
commenting on the Department’s justification, stated: “Overall, the Department’s experience in
various large land acquisition projects over the years has found that the appraisal process has the
potential for devolving into an essentially adversarial proceeding that can be counterproductive
to protect the underlying resources.” The Foundation likened the Department to a child who says,
“I don’t ask Dad if I can go to town because he might say no. Instead, I only ask mom” (see
Attachment, pages 75 and 76). Interestingly, during his interview, Peter Schaumberg
conveyed a similar adage: “It’s the old joke, ‘I’d rather just do something and get approval
later.’” We suspect he was referring to the adage: “It is easier to get forgiveness than
permission,” commonly ascribed to Stuart’s Law of Retroaction. From this, the Foundation
deduced that DOI does not care about requirements when requirements frustrate program goals.
“These goals would trump properly founded financial decisions that can stand public
scrutiny….” (See Attachment, page 76)

        The Foundation construed in a scathing denunciation: “Further, examples such as this
foster individual and agency abuses of office and opportunity for failures to uphold the public
trust.” (Emphasis added) (See Attachment, page 76)

                                     The Tax Treatment
        Despite the difficulty with and lengths to which the Department had to go to reach the
$120 million price tag, CRC continued to insist that its subsurface mineral rights in BCNP were
considerably more valuable. In keeping with this position, CRC also insisted that the Agreement
include language that would allow it to do two things: First, to claim credit for a donation for
any amount it could sustain with the IRS over the $120 million that the Department was willing
to pay, and second, to reap the tax benefits associated with a sale of the property “in lieu of
condemnation,” which, in summary, equates to the ability to defer or avoid taxation on capital
gains.

       Thus, the Agreement included the following language:

               Whereas, the United States, in lieu of condemnation and subject to
               Congressional ratification, has agreed to accept the Collier Mineral
               Estate from Collier Family through a voluntary acquisition and
               donation.

               Whereas, the Collier Family believes that the fair market value of
               the Collier Mineral Estate is significantly greater than the
               monetary consideration offered by the United States; however, in
               recognition of the environmental sensitivity of the surface rights
               associated with the Collier Mineral Estate, the Collier Family has


                                                32

               agreed to convey all right, title and interest in the Collier Mineral
               Estate to the United States and in return will accept monetary
               consideration as partial consideration and will donate to the United
               States the amount by which fair market value of the Collier
               Mineral Estate exceeds the monetary consideration being paid by
               the United States to the Collier Family ….

               ...The Secretary acknowledges that the Collier Family believes that
               the fair market value of the Collier Mineral Estate is significantly
               greater than the monetary consideration that will be paid to the
               Collier family. The Collier Family nevertheless has agreed to
               accept the $120 million of monetary consideration with an
               understanding that it intends to treat this transaction as a partial
               sale, under threat of condemnation in accordance with section 1033
               of the Internal Revenue Code, and as a partial charitable
               contribution….The Collier family will be solely responsible for
               any appraisals or other such documentation supporting the
               charitable contribution deduction for any excess of the fair market
               value of the Collier Mineral Estate beyond the monetary
               consideration being paid ….

         Since the OIG has no more expertise in tax issues than it does in appraisals, we sought
the assistance of the Senate Joint Committee on Taxation. We met with Committee staff
members with expertise in these areas to discuss the matter. After being provided a summary of
the facts, Committee staff said the circumstances in this case “sound weird.” They explained
that it seemed like CRC wanted it both ways. Specifically, CRC not only wanted to secure the
benefits of donating a portion of its mineral rights under IRS Code Section 170, which applies to
charitable donations and requires “donative intent,” but also wanted to claim the tax benefits
associated with IRS Code Section 1033, which contemplates “involuntary conversion” and
requires that property be taken away under threat or use of force. Committee staff opined that
tax treatment under these two code sections is, essentially, mutually exclusive.

        Committee staff further explained that the intent to involuntary convert property should
be formed by the Department and not the property owner. Thus, the government would form the
intent to initiate or contemplate an involuntary conversion and notify the property owner in
writing. They concluded that involuntary conversion did not appear applicable in this case.

        On the other hand, they noted that for the charitable donation, the IRS would ask the
donor for information such as the history of the deal/negotiations, the values that were asserted,
and other information salient to the transaction. They explained that a donee could incur
potential criminal or civil liability if its representative signed IRS Form 8283 (acknowledging the
donation) knowing the donated property was overvalued. Agent’s Note: We found no evidence
that an IRS Form 8283 was signed by any representative of the Department.

      We asked Committee staff to consider why the Department would want to enter into an
agreement that would include these taxation terms and what, if any benefit, the Department



                                                33

would receive. They responded that they could think of no reason the Department would want to
agree to the terms described.

       The SOL attorneys who drafted the agreement conducted no independent inquiry or
research into these issues. Instead, they simply conceded to the insistence of CRC’s legal
representatives.

       Barry Roth justified the inclusion of the donation aspect because the Department had
used similar language in a prior exchange (the Little River Canyon Exchange), adding that the
Department has done them before.

         In our interview of him, Roth justified the “in lieu of condemnation” language because
the Department was not giving any tax advice and because it is up to the IRS to approve. In
short, Roth said, “My job is to get a deal done.”

       During his interview, when asked about the tax aspects of the Agreement, Peter
Schaumberg said, “I have nothing to do with that.” When we asked if he understood the tax
implications of the Agreement, he replied, “There was discussion, but I did not understand …,”
adding, “…No, I am not aware of the ‘involuntary conversion’ part, I did not understand that.”
However, he was aware of the donation aspect of the agreement.

        When we examined Schaumberg’s February 14, 2002 notes for a meeting with CRC
attorneys, we found the following reference to CRC’s concern regarding the tax issue: “[The
Colliers] suggested that a post tax deal [at $120 million] would work. Otherwise, Colliers not
willing to accept it. They would like to meet or talk [with] John Grace to see if there is a way to
help up the inputs.”

        Ann Klee, who knew that the “in lieu of condemnation” language was essential to CRC,
said in her interview that CRC wanted to claim the difference between what the Department was
going to pay and what CRC felt the mineral rights were actually worth, but the Department felt
that CRC would not be able to prove the difference in order to claim a charitable tax donation.
Klee said she was told by either Peter Schaumberg or Barry Roth that similar language had been
used in other deals, but that the IRS usually does not grant the donation.

        In our interview of J. Steven Griles, then Deputy Secretary, he did not express concern
about the Department using language that might assist CRC in receiving a tax break. He equated
the potential tax break to that of a home seller being allowed to avoid paying capital gains taxes
by investing sale proceeds into the purchase of another home within a particular time period.

        In April 2002, between the time Ann Klee notified the Council on Environmental Quality
that an agreement had been reached and the time that the Agreement in Principle was signed at
the White House ceremony, CRC again met with the Department (including Cooke,
Schaumberg, and Roth) in an attempt to decrease the prospects that it would be selling to the
Department. Agent’s Note: A decrease in the purchased prospect size would later allow CRC to
claim that it donated more property to the United States, thereby giving CRC a larger tax benefit
when it filed a donation claim with the IRS. CRC’s representative referred to this as the



                                                34

“bifurcation meeting” but said that after discussions with a consultant, CRC decided not to
pursue the “bifurcation scheme.”

       Like the failed Agreement itself, this tax treatment, today, might be dismissed as “no
harm, no foul.” We feel compelled, however, to comment in the following regards:

           •	 It represents a careless practice to conclude that something is appropriate simply
              because the Department has done it before. Without factual basis and analysis, it
              is reckless to draw such a conclusion and advise decision-makers without more.
              In fact, the OIG has uncovered numerous, serious programmatic failings when
              one program relies on the precedent of another for justification to act.

           •	 It represents a compartmentalized view of responsibility that has haunted and
              thwarted other transactions investigated by the OIG. This compartmentalization
              results in a wholesale lack of accountability, with the various participants pointing
              to one another as being responsible for whichever aspect of a transaction breaks
              bad.

           •	 Taking the compartmentalization one step further, it represents a view that the
              Department acts only in its own self-interest and not the interest of the federal
              government and the American public – here the IRS and the taxpayer.

           •	 It represents yet another aspect of the deal that was being driven and controlled by
              CRC, with the acquiescence and assistance of the Department.

           •	 By including “in lieu of condemnation” language, the Department was acceding
              to a statement that was false.

           •	 Including both aspects of tax treatment that CRC insisted upon, aspects that are
              mutually exclusive in the view of subject-matter experts, causes the Department
              to look, at best, foolish and, at worst, complicit.

        Simply stated, in conclusion, this is not the substance of which a sound Agreement in the
best interests of the federal government and American public is made.

                             Agreement Subject to Ratification
        As the list of irregularities associated with this transaction grew increasingly long, we
grew increasingly concerned about the way in which the transaction transformed, apparently
unfettered by rules, process, or restraint.

        Rather late in our investigation, we came to understand. Upon interviewing Barry Roth,
he cited a concept – “Agreement Subject to Ratification” – as the basis for proceeding. Peter
Schaumberg described the process as being “outside the box.”




                                                 35

       To fully appreciate the concept of “Agreement Subject to Ratification,” one must first
understand the process as it was intended to work.

Authorities Applicable to Purchasing Interests in the BCNP

        NPS buys land under the authority of several general statutes and under individual
statutes that address acquisition at specific sites. Some purchases are also governed by the
implied authority of appropriations bills. The Congress can also direct NPS to purchase lands
through special legislation.

        Purchases within the BCNP are primarily governed by the BCNP enabling statute, and
secondarily, by general laws applicable to the National Park System. The BCNP enabling
legislation, other relevant statutory provisions, and Department policy all require an appraisal
before the Department can buy lands in the Preserve. The only exception is for small parcels,
costing less than $10,000. Other general laws relating to the National Park System apply to the
extent they are not inconsistent with the enabling statute.

        The BCNP statute authorizes the Secretary to buy lands and interests in land in the
BCNP. The statute specifically states, however, that the Secretary cannot extend an offer to buy
in excess of $10,000 without first obtaining an appraisal. The land acquisition process for the
federal government is statutorily dictated by the Uniform Relocation Assistance and Real
Property Acquisition Act of 1970 (URARPAA).

        The URARPAA and its underlying regulations require the Department to appraise real
property before it initiates negotiations to purchase real property or real property interests. NPS
policy is consistent with this requirement, declaring that both private and public interests be
protected “through credible appraisals and reviews.” Specifically, the NPS Land Acquisition
Procedures 2000 establish the internal framework, processes, and authorities that NPS must
adhere to when it buys land. NPS Director’s Order No. 25, Land Protection, specifically directs
NPS to follow the URARPAA. Consistent with statutory authorities, Director’s Order No. 25
provides that NPS must appraise the land before negotiations to buy begin; must establish an
amount that is believed to be just compensation or fair market value; and it must make an offer to
pay fair market value to the owner of the land. If another bureau, such as the Bureau of Land
Management, conducts the purchase for NPS under its (the Bureau of Land Management’s)
procedures, that bureau must adhere to NPS’ requirements, where there is inconsistency.

        If the parties cannot agree on a price during negotiations and the Department still wants
to obtain the property, the statutes provide that the Department may exercise its power of
eminent domain (i.e., take the property). In order to exercise eminent domain, the Secretary has
to commence condemnation proceedings. In doing so, the legislation establishing the BCNP
required the Secretary to declare that the BCNP was threatened with, or subject to, uses that
were, or would be, detrimental to the purposes of the Preserve. Only then could she initiate
condemnation proceedings for interests within the BCNP.

     The Agreement states that the Department was buying under its authority found in the
BCNP enabling statutes. Although the Agreement states that the Secretary determined that



                                                36

CRC’s proposed exploration was detrimental to the purposes of the Preserve, as required by the
enabling statute, we were unable to find departmental opinion, memorandum, environmental
impact statement, or other documentation to corroborate this assertion.

        With such a plethora of law, regulation, and policy directing NPS on how to conduct land
exchanges and acquisitions, and since the Agreement cites as authority the enabling statute,
which prescribes an appraisal process, we were dumbfounded to understand how the Department
could legitimately opt out of established procedures and engage in activities utterly void of
structure. Ultimately, we have concluded that the Department could not do so. Although to
support this conclusion, we must dissect the concept of “Agreement Subject to Ratification.”

        In lay-terms, the concept follows this logic: When the Department has neither the
statutory authority nor the funding to accomplish a particular land transaction, if, in the end, the
transaction is presented to, then approved and funded by the Congress, the Department’s efforts
to accomplish the transaction are ratified and absolved. This is the very situation we found in the
aborted San Rafael Land Exchange – a transaction that was called a “legislative exchange” as
opposed to an Agreement Subject to Ratification. In fact, it was actually an exchange conceived
between the State of Utah and the Department, carefully crafting the Agreement and ratifying
legislation to secrete terms that might be construed as inequitable to the United States.

       Astonishingly, both Schaumberg and Roth point to the failed San Rafael Exchange as a
model for their actions in the BCNP transaction. San Rafael was an exchange that the OIG so
vehemently criticized that the Secretary and then-Governor of Utah publicly voided the deal.

        In essence, Roth and Schaumberg both contend that they did not need to follow any
statutory, regulatory, or policy guidance in reaching an agreement on the purchase price of the
CRC oil and gas interests in BCNP. This was true, they asserted, because they, on behalf of the
Department, had opted out of the process and were negotiating an agreement subject to
congressional ratification.

        However, a presumption of regularity of government operations does not permit the
Department to simply ignore all of the laws, regulations, and policies that would normally apply
to an acquisition transaction such as this. Upon closer scrutiny, it appears that the SOL attorneys
invented this non-process from a piecemeal compilation of past practices in the Department and
presented it to Ann Klee (who presented it to the Secretary and Deputy Secretary, who ultimately
presented it to the White House) and to the Congress with the veneer of a conventional land
acquisition transaction, as if the normally attendant rules and processes applied and had been
followed.

        As we prepare to launch a rather lengthy critique of the concept of Agreement Subject to
Ratification, we must begin with a clear caveat: The OIG is not, and has never been, opposed to
land exchanges or land purchases by the Department of the Interior.

        The OIG recognizes the authority of the Department to conduct land transactions in
accordance with attendant rules and processes. We also recognize the authority of the Congress
to direct and approve land exchanges and land purchases through the enactment of legislation,



                                                37

with specific directions and requirements that may differ from the rules and processes that
otherwise bind the Department. We believe, however, that the fundamental concept of a
“legislative” land exchange or acquisition begins with the Congress, expressing its intent along
with any specific direction or requirements to accomplish the transaction. With congressional
intent and direction a condition-precedent, we believe that “Agreement Subject to Ratification”
would be the conceptual process by which a Department could carry out the wishes of the
Congress, so long as the process is conducted with full disclosure and transparency. In the CRC
Agreement, as with San Rafael, however, the Department missed the critical condition-precedent
– congressional intent – and utterly failed the full disclosure and transparency tests.

        Even as we were conducting our investigation, when the Agreement expired, by its own
terms, CRC again approached the Department with a new proposal, and another Agreement
(2004 Agreement) was crafted. The 2004 Agreement called for a UASFLA appraisal, capped the
amount that the Department would be obligated to pay at $120 million, and allowed CRC to
walk away if the appraisal came in less than $120 million. The 2004 Agreement reiterated the
tax treatment provisions contained in the expired Agreement. Although the 2004 Agreement had
yet to be signed, the Department contracted with an outside appraiser to begin the appraisal
process. Inexplicably, on December 15, 2004, CRC sent a letter to the Department criticizing the
appraisal process as “seriously flawed” and signaling its unwillingness to proceed with the 2004
Agreement. On January 24, 2005, CRC sent another letter to the Secretary signaling its intent to
“move ahead with resource development” in BCNP. CRC went on to say, “We will conduct our
mineral exploration with the utmost sensitivity to the environment. Congress had no concerns
about our environmental stewardship when they expressly declined to acquire the Collier mineral
estate in 1974 and again in 1988….The Department should have no concern today and we would
appreciate your support as we move forward.”

        CRC’s attribution of congressional intent as to its environmental stewardship rings
strikingly similar to the Department’s attribution of congressional intent via Agreement Subject
to Ratification.

        The OIG questioned Barry Roth extensively concerning information that several
Department employees cautioned him that an appraisal needed to be prepared for the CRC
interests. Roth asserted that it was legally acceptable to ask the Congress to ratify the agreement
without a UASFLA-compliant appraisal since Agreements Subject to Ratification had been done
before. He claimed that his position was rooted in his experience working on Capitol Hill –
specifically his work on the Uranium Enrichment Project. He stated that he was the first to
suggest the Agreement Subject to Ratification idea, thinking – “why not negotiate a conditional
contract and go to the Hill to ratify?” He made a distinction between what he called
administrative action versus legislative action. When asked the difference between the two, Roth
stated that administrative action is when an agency acts using existing authority, without new
legislation. Legislative action, on the other hand, is action taken by the Congress using new
statutory authority.

        By his own admission, Roth has never seen a handbook on Agreements Subject to
Ratification. He claimed that the roadmap for them is written by the Congress and professed to
have seen approximately six of them during his tenure at DOI, but acknowledged that,



                                               38

considering all DOI land acquisitions, the practice is “clearly abnormal” when compared to the
total number of DOI acquisitions. He said DOI had no process for Agreements Subject to
Ratification; it just did them. He stated, without context or exception, that it is legally acceptable
to petition the Congress to ratify an agreement to buy land without having conducted an
appraisal compliant with the UASFLA.

        Referring to the Congress’ ability to exempt an agency from operation of a statute, Roth
cited the National Environmental Policy Act as an example where, at times, the Congress
exempts agencies from its requirements. Agent’s Note: We also heard this during our
investigation into the San Rafael exchange. In that matter, attorneys in the SOL concluded,
summarily, that if the Congress does not grant the Department enough time in the consummation
of the exchange to conduct a National Environmental Policy Act study, it is fair to assume that
the Congress has “exempted” the Department from the National Environmental Policy Act
requirement. Although it was not an issue we addressed in our written report, our analysis at
the time brought us to the conclusion that this assumption, without disclosure and dialogue with
the Congress, is not sound. Therefore, during his interview, we asked Barry Roth if the
URARPAA was the National Environmental Policy Act of appraisals and whether the
Agreement Subject to Ratification practice covertly required the Congress to exempt DOI from
the appraisal process. Roth responded only, “What’s clear in the agreement is what’s on the face
of the agreement.”

        Roth summarily dismissed the laws, regulations, and procedures that govern the
Department’s land acquisitions. When he was questioned about the requirements of NPS’
internal policies Land Acquisition Procedures 2000 and NPS Director’s Order No. 25, both of
which require fair market value to be established pursuant to a formal appraisal conducted under
the UASFLA, Roth commented, “You guys have clearly spent more time investigating than we
spent on the deal over the last 10 years.” Astonishingly, Roth, whose principal client is NPS,
said he has never read NPS Director’s Order No. 25 or Land Acquisition Procedures 2000.
Nonetheless, at one point he stated that there is an element in the bureaucracy that sees process
as everything, and, if you don’t get the land, you simply don’t get the land. Roth stated that he
was there to close the deal. Without support in law or fact, he concluded that the Department
could simply agree to buy land and then later submit an agreement to the Congress to ratify.
Even though in doing so the Department never determines fair market value for property, Roth
said, “It’s up to Congress to tell us if they needed more.” Shifting the responsibility, he said,
“Well, that’s what their staffs are for.”

        Schaumberg said that the value of the property really did not matter because he, Roth,
and Klee were going to seek congressional approval for the agreement. Throughout his
interview, Schaumberg was persistent and elaborate in his own defense. He explained that the
Agreement did not have to be “legally defensible, just reasonable.” He admitted that the
Department used the Agreement Subject to Ratification vehicle only “[when its] existing legal
authority does not work or is inadequate, and [the Department] can’t use [its] regular
authority….” When asked whether there was any legal basis for the Department to conduct the
acquisition, he stated, “There wasn’t any [legal basis] to do it….”




                                                 39

        Schaumberg was asked if any MMS employees or other Department personnel criticized
how he handled their work on the CRC agreement. Schaumberg responded, “It’s not that I
wasn’t listening. I took things back to Klee and Roth.” When asked if that included any
concerns he heard, he said, “I passed on the e-mails I received and concerns I heard. The
lawyer’s role was to determine whether the process was unlawful.” Earlier Schaumberg stated,
“[The agreement] wasn’t legal in and of itself; that’s why we had to get authority from Congress.
It was a negotiated price based on [the information received from MMS, Dr. Grace, and CRC].
He later said, “Sometimes you come across circumstances when you can’t do things a normal
way.”

        Schaumberg said that currently, agreements by ratification have come under scrutiny by
the Department. Nevertheless, at the time they were working on the CRC agreement, the
Department’s rules were different. He added, “The Secretary was the one that wanted to do this,
but she is not willing now.” He said the Department could request that the Congress approve the
same type of agreement, yet the Secretary is not now willing to do so without an appraisal.
Schaumberg stated, “If an appraisal was required, then we would have done it.”

        After his interview, Schaumberg offered a memorandum claiming that no pre-existing
legal standard applied to the agreement subject to ratification. In this memorandum, he theorized
that because the Congress has plenary power to enact new legislation to approve whatever
acquisition it wanted, the Department did not need to follow any particular procedures in this
acquisition. Circuitously, Schaumberg concluded that “there is no requirement that any
individual acquisition that Congress authorizes and ratifies through special legislation conform to
existing laws, regulations or procedures.”

         Schaumberg’s memorandum conveniently ignores the obvious. First, it ignores the fact
that the Congress speaks through its statutes, and under them has already given the Department
specific legislative authority to purchase, exchange, or otherwise acquire land in general, and at
the BCNP specifically, and that it enacted a plethora of laws defining this authority. Second, it
ignores the fact that the Department has promulgated numerous regulations and policies to
implement the authorities delegated by the Congress. Schaumberg’s logic jumps from what the
Secretary purportedly wanted to do, i.e., reach an agreement on price, to what the Congress can
do, i.e., pass legislation. He merges the two concepts in a fuzzy attempt to validate the
illegitimate approach taken in this matter.

        Although admittedly unfamiliar with the BCNP enabling legislation and NPS’ internal
policies, Schaumberg stated in his September 21, 2004 memorandum, “Specifically, there is no
requirement that there be any particular form of evaluation or ‘appraisal’ to support the agreed-
upon acquisition.” Indeed, he surmised that “if Congress may approve, after the fact, an agency
action for which it did not have pre-existing authority, it necessarily follows that Congress may
approve an agency action for which it does not have pre-existing authority before the agency
action becomes effective!” Citing a provision of the Agreement that states that neither party is
required to undertake any action or receive any benefit under the agreement prior to
congressional enactment of legislation, Schaumberg concluded that the Department was not
obligated to buy the CRC mineral interest until the Congress provided the “express legal
authority to do so.”



                                                40

         Schaumberg conceded that he was unaware of any Member of Congress instructing or
authorizing the Department to complete the CRC acquisition. Referencing the San Rafael
exchange, Schaumberg stated that neither would have worked if the Department had not availed
itself of the Agreement Subject to Ratification. Interestingly, neither has.

        Both Schaumberg and Roth pointed to the authority of senior Department officials (here,
political appointees) to determine policy. Roth said he only gave people in the Department
options and they made their decisions. Schaumberg said he doesn’t make policy decisions and
said he acted as a “facilitator.”

        The Supreme Court long ago pointed out that public policy is primarily for the Congress
to determine:4

           The public policy of the Government is to be found in its statutes, and when they
           have not directly spoken, then in the decisions of the courts and the constant
           practice of the government officials; but when the lawmaking power speaks upon
           a particular subject, over which it has constitutional power to legislate, public
           policy in such a case is what the statute enacts.

        The Congress has spoken to the Department about how it expects property and interests
in property to be acquired through several statutes, notably here the BCNP enabling statute and
the URARPAA. In other words, the Congress told the Department to conduct an appraisal when
it buys property interests in BCNP. Like the Congress, agencies speak to the public through the
rules and regulations they promulgate to implement the dictates of law.5 The Department has
spoken to NPS and other Department officials, through the NPS Land Acquisition Procedures
2000 and NPS Director’s Order No. 25. These require an appraisal when property is purchased
and the establishment of fair market value and arms-length negotiations on price. Schaumberg
and Roth ignored these requirements; Roth said, “The assignment was to get a deal done, so we
got a deal done.” Roth described this as a negotiated price – not value. He legitimized his and
Schaumberg’s actions by reasoning that their actions could be subject to later ratification by the
Congress. Throughout our interviews and even beyond, these two lawyers still maintain that
they did not, and do not, have to follow established laws, regulations, or procedures, so long as
there is an Agreement Subject to Ratification.

        When we interviewed Roth’s supervisor, the then Associate Solicitor, Division of Parks
and Wildlife, on March 30, 2004, he provided us with a draft copy of the Division of Parks and
Wildlife Land Exchange Guidelines, dated March 26, 2004. The draft document contained four
specific guidelines:

           Any proposed land exchange requiring Congressional ratification must fully and
           completely explain all of the terms of the land exchange to policy persons within
           the Department and to Members of Congress.


4
    United States v. Trans-Missouri Freight Association, 166 U.S. 290, 340, 17 S.Ct. 540, 558, 41 L.Ed. 1007 (1897).
5
    United States v. Turkette, 452 U.S. 576, 580, 101 S.Ct. 2524, 69 L.Ed.2d 246 (1981).


                                                          41

       Any proposed land exchange that could require Congressional ratification must
       fully and completely explain, in an explicit and direct manner, how the
       Department is complying with all existing and relevant laws and whether
       ratification would have the effect of modifying or eliminating compliance with
       such laws.

       All proposed land exchanges must follow the Department’s standard survey,
       appraisal, and contamination requirements. [Emphasis added]

       All proposed land exchanges must be in full compliance with all Departmental
       ethical requirements, must serve our clients authorized purposes [sic]. Such
       exchanges must also be primarily in the interest of the public and not serve to
       unduly benefit, either directly or indirectly, a select interest group.

       When questions arise concerning any proposed land exchange with regard to any
       of the factors listed above, those questions should be expressed to the appropriate
       Assistant Solicitor or to the Associate Solicitor and pursued until a response is
       received.

       Clearly, these draft guidelines would address many of the concerns we raised in the San
Rafael transaction and that we address in this report.

        In an e-mail commenting on these guidelines, however, Barry Roth maintained his view
that the rules need not be followed:

               [M]y initial comment is in the 5th [paragraph about following the
               Department’s standard survey, appraisal, and contamination
               requirements], any exchanges should ‘address’ rather than ‘follow’ the
               standards you cite. [T]here may be transactions where it has been decided
               at policy levels to pursue an alternative strategy. [W]hen doing so, that
               should be clearly addressed in the administrative record and the
               rationale/basis for that decision reflected. [Emphasis added]

        While Roth very nearly redeems himself with the last sentence of this e-mail, we remain
skeptical if the clarity of the administrative record envisioned in his e-mail resembles anything like
the record in the BCNP transaction. The discussion that follows should illuminate our doubt.

        The fallacy of the Agreement Subject to Ratification is further exposed by the manner in
which information was presented to decision-makers and the Congress. Because we found
remarkable memory failure on the parts of Barry Roth and Peter Schaumberg as to who did, said,
and wrote what, we must rely on the written word. An analysis of a briefing memorandum from
Peter Schaumberg and Barry Roth to Ann Klee, dated April 10, 2003, entitled, “History of
Valuation Efforts With Respect to the Collier Oil and Gas Rights,” is very telling of how
factually accurate, albeit incomplete, information can lead a reader to an intended, although
incorrect, conclusion. This memorandum is important not only because it was used to brief Ann
Klee and the Secretary, but also because it was used in the briefings for the Congress.



                                                  42

        For many of these statements, Peter Schaumberg, during his interview, claimed
ignorance, as things outside his area of expertise and responsibility. For most of these
statements, Barry Roth, during his interview, admitted knowledge of the information that made
the statements incomplete.

       We begin our analysis with excerpts from the memorandum:

       Factually accurate:

       “Although presently stayed, the Colliers have filed twenty-seven plans of operation for
exploration within the Preserve and the Panther Refuge.”

       Albeit incomplete:

       Of the 27 POOs, only one had been acted upon by NPS, and that was provisional pending
CRC providing complete ownership information. The remaining 26 POOs were not ripe for
being considered by NPS because they, too, were incomplete.

       Factually accurate:

       “While the Service has the right to reasonably regulate such oil and gas activities within
the Preserve, it is unlikely that it could deny all such activities.”

       Albeit incomplete:

       NPS regulations limit exploration activities in BCNP to no more than 10 percent of the
Preserve area. The proposed exploration contained in the POOs could not be conducted
simultaneously and would, thus, take decades to complete.

        Numerous sources said that acquisition of CRC’s subsurface mineral rights in BCNP was
necessary to save or preserve the “park.” Contrary to this sentiment, Big Cypress was statutorily
established as a preserve, not a park. In establishing the Big Cypress National Preserve, the
Congress envisioned the potential for exploration and drilling. Exploration and drilling were not
antithetical to the statutory purpose and establishment of the Preserve; in fact, they were
provided for, specifically, by the Congress, with explicit direction to NPS to develop and publish
rules to regulate exploration and drilling. The Preserve was already legally protected, insofar as
the Congress intended.

       Factually accurate:

       “Access to proprietary data possessed by the Colliers was critical to this evaluation and
a confidentiality agreement was entered into by MMS and the Colliers to protect this data.”




                                               43

       Albeit incomplete:

       The Department relied blindly on the data provided by CRC, as CRC refused to warrant
the accuracy of the data pursuant to the confidentiality agreement.

       Factually accurate:

        “Before making this request to MMS [to update its earlier evaluation], Department and
NPS staff, along with Collier representatives, met with the Land Acquisition Section staff at the
U.S. Department of Justice (DOJ) to ensure that the use of the MMS methodology for the Collier
holdings would not prejudice the United States’ position in various Everglades condemnation
cases involving mineral rights.”

       Albeit incomplete:

       Roth and Doddridge were told by DOJ’s Chief Appraiser, as early as 1999, that the MMS
methodology was not the proper approach to valuing the CRC mineral rights in the BCNP. The
Chief Appraiser recalled at least two 1999 meetings in which he told DOI officials that the
UASFLA should be used for establishing fair market value for exchanges and acquisitions.

        The DOJ attorney followed up the meeting with a letter that clarified what she did and
did not agree to:

       As to the support for any determination of value for the Collier minerals…[I]
       advised you that we would not review [the documents that CRC offered to
       provide in support of the value]; we take no position as to the substantive and
       procedural details of any actual exchange. [Emphasis added]

       Factually accurate:

        “Moreover, in November 2001, the Associate Director, Natural Resources Stewardship
and Science, of the National Park Service wrote to the Acting Assistant Secretary for Fish and
Wildlife and Parks: ‘This [MMS report] involves an evaluation of mineral reserves, not a formal
mineral appraisal. Since MMS is the recognized Federal authority in evaluating offshore
mineral leasing potential and we understand their analysis will account for USGS onshore
mineral reserve estimates, there is no need for NPS to be involved in the development of this
mineral reserve evaluation.”

       Albeit incomplete:

        NPS officials said that they felt pressured by Barry Roth to draft this memorandum. By
selecting their words very carefully, however, they created a document that satisfied Roth, but
which did not say they agreed with the MMS evaluation.

     Although in his interview Roth did not remember directing anyone to draft such a
memorandum, a November 2, 2001 e-mail from Barry Roth to NPS suggests otherwise:



                                               44

       We still need to get something in writing that there is no need to further review
       the MMS estimates for the Collier’s reserves. You might simply explain because
       NPS is considering options that do not at this time require an appraisal under the
       Uniform Standards, there is no need for NPS to review or approve the report
       based on the MMS’ methodology.

        The “factually correct, albeit incomplete” paradigm is subtle in the manner by which it
leads a reader to the intended, although incorrect, conclusions. It may also vindicate an author
from allegations of presenting false information. In one critical area, however, the authors of
this memorandum go beyond the paradigm and step precariously close to, if not over, the line
that divides incomplete from deceit.

       Beginning with the title of the memorandum, the term “valuation” is used. “Valuation”
and “value” are scattered throughout the April 10, 2003 briefing memorandum. Without more,
an educated reader might reasonably ascribe the common definitions to these terms (taken from
Webster’s II New Riverside University Dictionary (1994)):

       Valuation – n. 1. An act or process of assessing value or price: an appraisal. 2.
       Assessed value or price. 3. An estimation of worth….

       Value – n. 1. An amount regarded as a suitable equivalent for something else,
       exp. a fair price or return for goods or services. 2. Monetary or material
       worth….vt….1. To determine or estimate the worth or value of: APPRAISE….4.
       To assign a value to….

        During our interviews of them, however, both Roth and Schaumberg evaded the “value”
terms. Roth called it “a negotiated price,” whereas Schaumberg said, “This was a negotiation,
not a valuation.”

        Schaumberg went on to say that the MMS number was not a valuation number as he
understood it. MMS came up with a mean calculation of “intangible” mineral interests. He said,
“We took a little of this and that and shake it all together and came up with a net economic value
– not a value that should be relied upon.”

        Although Barry Roth conceded during his interview that the Grace report was used to
support the $120 million, and Ann Klee said that she offered the $120 million based on the Grace
report and after Peter Schaumberg suggested the number to her, we are now being told by the
two primary architects of the Agreement that this was a “negotiated” price, not necessarily a
determination of “value.”

       Ann Klee, however, could not have been more clear when we interviewed her. She said
that while she knew a traditional appraisal was not being done, it was her understanding that the
MMS method was appropriate. She reiterated that at no time during her involvement in the CRC
mineral rights acquisition was she told that fair market value had not been established. When




                                               45

asked, Klee indicated that she could not remember anyone telling her that CRC would not accept
a fair market value derived from a formal appraisal.

        The statements of Barry Roth and Peter Schaumberg now fly in the face of their words
then, the words that the decision-makers in the Department and the Congress were to rely upon:

       The Department elected to proceed upon the basis of the MMS estimates of value
       for several reasons, including the evaluation of the MMS analysis by Dr.
       Grace…A more accurate estimate of value would ordinarily require additional
       field work that would impact the resources this acquisition was intended to
       protect. [Emphasis added]

                                       Closing the Deal
      As the Agreement’s progress continued to advance, the concerns of career officials in
both NPS and MMS continued to escalate.

       David Cooke said in his interview that he warned Klee and Schaumberg that if he had
completed his work – something which he clearly felt he had not been able to accomplish – that
the numbers would have decreased by half. Cooke said that it would not be “right” if MMS’
numbers were used as a basis for a $120 million agreement with CRC.

        Employees in NPS, Geologic Resources Division, continued to express their concern that
a UASFLA appraisal had not been conducted. For instance, James Woods, Chief of the
Geosciences and Restoration Branch, Geologic Resources Division, NPS, told us in an interview
that up until approximately February 2002, some NPS Geologic Resources Division employees
continued to prepare briefing statements regarding their findings and views about the valuation
of CRC’s mineral interests, as noted above. He said their opinions were sent through the NPS
chain-of-command until they grew “tired of pushing the issue.”

        Thomas Readinger persisted in his protest against the tentative agreement to anyone who
would listen. He was extremely concerned that DOI was paying too much for the CRC mineral
estate and felt that the MMS valuation of $68 million was a much better estimate of value for all
of the mineral rights evaluated by MMS. He was also upset that an initial briefing memorandum
on the agreement authored by Schaumberg had failed to note that CRC did not own 100 percent
of the mineral rights in the BCNP. Readinger said he felt like MMS was being “used” in the
process and that the $120 million figure was not representative of CRC’s interests. By this time,
however, Readinger had been effectively silenced and cut out.

Congressional Briefings

        We fully understand that congressional briefings are typically abbreviated and tend to be
accomplished in short order. We expect, however, that Executive Branch Agencies and
Departments with business before the Congress will do their best to punctuate brevity with the
utmost clarity and transparency. Unfortunately, in this case, clarity and transparency would
reveal the profound pretenses that had kept this deal alive for so many years.


                                               46

       We sought to determine what, exactly, the Congress had been told about this deal. We
discovered that the initial briefings were conducted while negotiations with CRC were still
ongoing. Lasting approximately 30 minutes, these briefings with both the Senate and the House
of Representatives were described by Peter Schaumberg as “30,000 feet briefings.”

       Some time after the Agreement had been struck, the Senators from Florida requested and
eventually received an additional briefing from Klee, Roth, and Schaumberg. Schaumberg
described these briefings as very general, saying that he didn’t present them with a lot of
information. He said he talked about how MMS conducted an evaluation that was generally
based upon its models using a modified version of the program it uses for evaluating offshore
resources. He said he briefed that the Department engaged Dr. Grace, who said that the MMS
method was reasonable, and that Dr. Grace then created a range of values.

        Although one staff member remembered that Barry Roth told them that NPS did not do
mineral valuation because it was not capable, Roth himself has little recollection of the
congressional briefings. Because Ann Klee remembers her role as primarily introducing
Schaumberg and Roth, and the congressional staff members we interviewed could not remember
specifically who spoke on what issue, we must again rely on the written word for clarity. The
April 10, 2003 memorandum was used in the briefings to the Senators and their staffs:

       MMS began a review and refinement of its 2000 report in late 2001, and in
       January 2002, prepared a preliminary run based on its further interpretation of the
       geological and geophysical data. Economic adjustments in the analysis were
       made in February and early March….This update estimated that there are 133.067
       Mmbbl [Million barrels of oil] of conventionally recoverable oil at the 5th
       percentile, 5.403 Mmbbl at the 95th percentile with a mean of 49.057 Mmbbl.
       This represented a net economic value of $287.413 million at the 5th percentile,
       $7.711 million at the 95th percentile, and a mean of $123.230 million. The
       estimated net present worth profits was $156.919 at the 5th percentile, $4.159
       million at the 95th percentile and a mean value of $67.157 million.

        It is no wonder that the congressional staff members who received the briefings found the
valuation discussions to be “very technical.”

       Dr. Grace’s report became essential to anyone without geological and geophysical
minerals expertise to understand the bottom line. The April 10, 2003 briefing memorandum
says:

       While conclusions are best drawn from his report by reading it as a whole, the key
       conclusion was ‘that if an auction on the Florida AOI [area of interest] was
       conducted, 75% of the bids would fall between $31 and $140 million, assuming
       that the mean of $68 million [the 2002 MMS mean estimate of value] was the
       mean evaluation of all bids submitted.’




                                               47

        Members of Senator Bill Nelson’s staff said that they understood the Grace report to be
similar to a “Peer Review” and said that the Senator felt like he received the answers he needed.
One staff member offered his personal feelings during an interview, stating it was a “lousy deal
for the taxpayers.” Former Senator Bob Graham’s staff said that after questioning how DOI
developed the $120 million figure, Ann Klee explained that it was negotiated from a range of
values established and comfortable to DOI. They said that the Senator was somewhat more
comfortable with the $120 million figure after the briefing and was glad that the DOI had its
work evaluated by an outside independent source.

       Although the briefing paper disclosed the fact that both MMS’ and Dr. Grace’s work
represented the entire mineral resources in BCNP and that CRC owned less than 100 percent,
there was no discussion about discounting the $120 million to reflect CRC’s true ownership
share.

        With this, Schaumberg and Roth shared the same sentiment: It was up to the Congress to
ask for more information if it felt it was needed.

       Congressional ratification was to be obtained with a single line: “The agreement between
the Department of the Interior and Collier Resources is hereby ratified and confirmed.”

        Ann Klee understood this ratification to be necessary because the funding would span
several years. Roth and Schaumberg, on the other hand, cite the legislation as the ultimate act
that gave the Department the retroactive authority to conduct itself as it had – without rules or
reign – over the course of nearly 7 years.

       “There are no Standards. It’s Congress’ last act that counts,” Peter Schaumberg said.

White House Briefing

       Here, we have a missing piece. We know an announcement of the Agreement in
Principle was made at the White House with CRC and representatives of the federal and state
governments in attendance on May 29, 2002.

        We also know that just prior to the announcement Readinger expressed concerns to an
SOL attorney. The SOL attorney told the OIG that Readinger had approached him and wanted
him to evaluate the proposed agreement. He said Readinger told him that Peter Schaumberg said
the deal “did not involve much risk,” and, as a result, MMS’ evaluation “numbers” could be
increased. The SOL attorney and MMS Director Johnnie Burton, in turn, brought these concerns
to the attention of then Deputy Secretary J. Steven Griles several days before he went to the
White House to present a briefing on this issue.

        Burton, in her interview with us, had little recollection of her meeting with Griles and the
SOL attorney, although she did recall a question about ownership interest arising. The SOL
attorney, on the other hand, said that he specifically recalled the meeting with Burton and Griles
and that Griles expressed some concern over what he learned and that he said he would discuss
this with the White House. The SOL attorney said Burton and Griles asked him to write a



                                                 48

briefing memorandum about the concerns discussed during their meeting. The memorandum
that the SOL attorney produced and forwarded to Griles was dated May 13, 2002 – 2 days before
Griles was scheduled to attend a White House meeting that involved four oil and gas issues, one
of which was “Big Cypress/Collier Oil and Gas Rights.” The memorandum detailed problems
the SOL attorney found with the Department’s proposed purchase of CRC’s mineral interests,
including the CRC ownership issue.

        When interviewed, Griles said he had no specific recollection of this memorandum
despite his admission that the handwriting on the copy we showed him was his own; Griles said
that Ann Klee was taking care of the ownership records. Griles went on to say, “To date, I have
heard of nothing to suggest $120 million was too much.” He added that the matter of value is
“very subjective.”

        In addition, Griles said that he had no specific recollection of his May 15, 2002 meetings
at or with the White House where the CRC matter was discussed. However, Griles’ calendars
list two separate meetings at the White House – one at 4:25 p.m. and one at 4:55 p.m. on
May 15, 2002.

        In addition, a briefing paper from Ann Klee notes: “Steve – For your meeting at the WH
re: Big Cypress….” The SOL attorney, who met with Griles on May 15, 2002, just after the
meetings at the White House, told us that Griles related specific details about his White House
meetings. In his interview, Griles admitted that he had a conversation with the SOL attorney but
said he could not remember the context or content of the discussion. Agent’s Note: During an
interview for a separate investigation, Griles admitted to OIG agents that he had gone to the
White House to discuss the Big Cypress/CRC issue.

       Furthermore, prior to our interview with Griles, we had received information from a
confidential source (CS-1) that Griles had commented to Readinger much later about the failed
CRC/BCNP deal. CS-1 said that in a meeting in 2004, Griles asked Readinger if there was a
problem with the mean value and range of values in the CRC deal and if the Department was
making a mistake with the CRC transaction.

        We re-interviewed Readinger to follow up on the information provided by CS-1.
Although unhappy to do so, Readinger reluctantly confirmed to us the accuracy of the
information reported by CS-1, telling us that the discussion he had with Griles about this matter
lasted approximately one minute and that Griles had asked him rhetorically, “Didn’t we screw
that up?” Readinger said that this was the last time he and Griles had ever had a discussion
about CRC.

       In his interview, Griles initially denied having any discussions with anyone regarding the
CRC matter after the White House ceremony on May 29, 2002; however, he later admitted that
he had spoken to Readinger about the use of the Monte Carlo method for evaluating mineral
resources.

      Subsequent to his interview, Griles felt compelled to send one of our investigating agents
a handwritten, personal note purportedly to further explain this matter.



                                                49

       [Interviewing Agent] – During your interview with me on the proposed buyout of
       the Collier Resources, you indicated that it was reported that I didn’t support the
       buyout. I have thought a great deal and I can’t imagine how anyone would have
       believed that from any comment I made – so NO I didn’t say that. Second, I now
       have had the opportunity to review the file of more than two years ago. It appears
       that many answers to the questions you asked me are set forth in those materials!
       Regards[,] Steve Griles.

        On January 13, 2003, Craig Manson, Assistant Secretary for Fish and Wildlife and Parks,
signed the final agreement between CRC and the Department. During his interview, Manson
characterized himself as being “ankle deep” in the CRC transaction and said Ann Klee was “hip
deep.” He said that based upon questions asked during his interview and information discussed,
he felt he had not received enough information to make an informed decision to sign the
agreement between CRC and the Department.

       Although CRC withdrew its cooperation from the Department in the appraisal effort and
announced its intent to “move ahead with resource development” in its January 24, 2005 letter,
the appraisal process initiated by the Department in June 2004 continued.

        Even as we were writing the final versions of this report, we learned that a draft appraisal
report had been delivered to the Department. While the conclusion contained in this draft
appraisal report appears to us to be derived from a lyrical leap between the scientific/geological
data and the issue of a marketplace, it is not for us – at this point – to challenge the appraiser’s
conclusion that the best indication of market value for the excepted mineral interests of CRC is
$10.6 million.

        Agent’s Note: The Department’s chief appraiser told us that this unsigned draft
appraisal will be reviewed by a minerals economist outside the Department; following that
review, an internal DOI appraiser would conduct a review to ensure that the appraisal complied
with “yellow book” appraisal standards, and to identify any weaknesses or other areas needing
further assessment, such as CRC ownership issues.

        One thing the draft report did make clear was CRC's continued unwillingness to provide
reliable data to the Department or its appraisers. With this, and the other conduct chronicled
throughout this report, we are forced to conclude that CRC has failed to demonstrate the integrity
or good faith to make it worthy of a partnership effort in the acquisition of its mineral interests.

                                         Conclusion
       This report contains the simplest telling of a complex series of events that transpired over
the course of many years to reach the deal announced in May 2002. We have attempted to
present as clear and accurate a picture as possible in a matter as convoluted as this.

        The Office of Inspector General is not timid about publicly critiquing the Department of
the Interior and its officials when warranted. On the other hand, we have publicly exonerated the


                                                 50

Department in several high-profile, controversial matters in which strict adherence to the
administrative process effectively silenced the Department’s potential detractors.

        This is the second recent matter in which we found that a well-established process was
suspended in favor of an end. When this occurs, the potential for abuse is manifold, and the
results are predictable. We found this best described in the words of one of those whose voice
had been silenced in this transaction:

       In over thirty years the only times that I have seen the Standards ignored have
       been with sensitive political interests and all of those incidents to date have
       resulted in eventual failure or outright embarrassment to the Department.

       …While political appointees may not be aware of all the laws and standards,
       career public servants are expected to follow the law and to inform those in a
       responsible position when the law appears to be ignored….

        With the Department’s policy goal and CRC’s dollar goal dictating the end, a path was
charted where, along the way, all rules seemed to have been abandoned, yet the transaction was
developed and presented as if the rules applied. Providing information that was factually correct,
albeit incomplete, the decision-makers lay the Agreement at the feet of the Congress. The
Congress was then left to determine what might be missing. With too little clear information and
too much confusing information, the Congress asked for nothing more and “ratified” the
Agreement through appropriations legislation. The architects of the Agreement, thus declared
absolution because “it’s Congress’ last act that counts” – Agreement Subject to Ratification, a
concocted process to which no rules apply.

         In the end, the “creative” navigation around the legal process and over the objections of
the career public servants led to the negotiation of a $120 million deal that is so fundamentally
flawed that it may not, in fact, be salvageable without special legislation. If such is pursued,
however, we would expect it to be done by way of a fair, objective, transparent process that
treats all interested parties equitably, complies with the law, and protects the interests of the
American public.




                                                51

                 ATTACHMENT 



EVALUATION OF THE DEPARTMENT OF THE INTERIOR’S
 VALUE JUSTIFICATION PROCESSES AND PROCEDURES
  ASSOCIATED WITH COLLIER RESOURCES COMPANY
      UNDISCOVERED OIL AND GAS INTERESTS
                   IN FLORIDA




                     May 28, 2004




               CONTRACT No. OIG4P00015




                    SUBMITTED TO



                  MR. EARL E. DEVANEY
                  INSPECTOR GENERAL
            U.S. DEPARTMENT OF INTERIOR
                    WASHINGTON, DC



                    PREPARED BY




          1029 VERMONT AVENUE, NW, SUITE 900
                 WASHINGTON, DC 20005
                   PHONE: 202.347.7722
                 FACSIMILE: 202.347.7727
                 www.appraisalfoundation.org
       EVALUATION OF THE DEPARTMENT OF THE INTERIOR’S
        VALUE JUSTIFICATION PROCESSES AND PROCEDURES
         ASSOCIATED WITH COLLIER RESOURCES COMPANY
             UNDISCOVERED OIL AND GAS INTERESTS
                          IN FLORIDA


                                        TABLE OF CONTENTS 





Executive Summary: DOI Value Justifications and Processes Relating to Collier
Resource Company Undiscoverd Oil and Gas Interests in Florida ............................... 3

Section 1: USPAP and UASFLA Appraisal Standards ............................................. 10 


Section 2: Analysis of Materials Received from the OIG ....................................... 32 


Section 3: Final Conclusions and Reasoning ...................................................... 65 


Exhibits




                               The Appraisal Foundation Report to the
                               U.S. Department of Interior, Office of the Inspector General
                               May 28, 2004
                                                                                               Page 2
                 Executive Summary:
                 DOI Value Justifications and Processes Relating to Collier Resource
                   Company Undiscovered Oil and Gas Interests in Florida
                 Evaluation by The Appraisal Foundation


Nature of The    In a letter from the United States Department of the Interior’s (“DOI”) Office
Appraisal        of Inspector General (“OIG”) dated February 20, 2004, The Appraisal
Foundation’s     Foundation (“Foundation”) was invited to submit a proposal for consulting
Engagement       services. Subsequently a contract was issued to the Foundation on March 12,
                 2004 requiring an evaluation of the DOI’s methodologies and appraisal
                 practices in valuing subsurface oil/gas mineral rights.

                 Principal elements of the evaluation require discussion of the role of the
                 Uniform Standards for Professional Appraisal Practice (“USPAP”). These
                 uniform standards are developed and published by the Appraisal Standards
                 Board (ASB) of the Foundation.1 USPAP is the principal statement of
                 appraisal standards in the United States and serves in conjunction with the
                 Uniform Appraisal Standards for Federal Land Acquisitions (“UASFLA”).2
                 UASFLA incorporates USPAP standards in the context of real property
                 dealings between the federal government and private sector individuals and
                 entities. Other than a few Jurisdictional Exceptions that apply in the federal
                 jurisdiction, UASFLA can be interpreted as supplemental standards for
                 USPAP applications and interpretations.

                 Focus for the Foundation’s evaluations was identified by the OIG as a series
                 of reports, reviews, and related documents regarding Collier Resources
                 Company’s (“CRC”) mineral estate in Big Cypress National Preserve and the
                 Florida Panther National Wildlife Refuge, both located in Florida. Surface
                 and/or subsurface rights purportedly owned by CRC have been the subject of
                 intense prior attention of the federal government in connection with proposed
                 or actual federal acquisitions and exchanges.


Purpose of the   As stated in the Foundation’s Scope of Work, the Foundation was required to
Assignment       review and evaluate the process employed by the DOI’s Minerals
                 Management Service (“MMS”) to evaluate and value the Collier mineral
                 estate. Specifically the Foundation is to evaluate the following:


                 1
                     A brief explanation and history of the Foundation are contained in Section 1.
                 2
                     The first Interagency Task Force federal appraisal standards were published in 1971.
                     The current version revises the style of the report and provides a closer linkage with
                     USPAP, but carries forward long articulated principles.

                            The Appraisal Foundation Report to the
                            U.S. Department of Interior, Office of the Inspector General
                            May 28, 2004
                                                                                                       Page 3
1.      “What evaluation methodologies and appraisal practices are utilized
by the federal government, in particular the DOI, in determining the value of
subsurface oil/gas mineral rights? Include a discussion of the role of the
Uniform Standards for Professional Appraisal Practice (USPAP).”

2.      “Determine whether the processes employed in the 1996 and 2000
MMS evaluations, and the 2002 review conducted by Earth Science
Associates (ESA), of the Collier mineral estate were valid and appropriate.
Identify whether, in general, the processes constituted a valid methodology for
use by the federal government in determining onshore mineral values.
Review includes the following documents:

       MMS Valuations:
       ▪	 Evaluation of Collier Resources Company’s Mineral Estate in Big
          Cypress National Preserve, [ ] -US DOI MMS, Gulf of Mexico
          Region, Office of Resource Evaluation, New Orleans, LA (March
          1, 1996)
       ▪	 Evaluation of Collier Resources Company’s Mineral Estate in Big
          Cypress National Preserve and the Florida Panther National
          Wildlife Refuge, [ ] -US DOI MMS, Gulf of Mexico Region,
          Office of Resource Evaluation, New Orleans, LA (October 27,
          2000)

       Others:
       ▪	 Dr. John Grace’s (d/b/a ESA) independent review of the
          methodology employed by MMS, and subsequent development of
          a range of values using statistical models (April 22, 2002).
       ▪	 National Park Service valuation study of BCNP.”

3.     “State whether an appraisal is necessary in cases involving the
purchase or exchange of subsurface oil/gas mineral rights.

       ▪	 If an appraisal is necessary, what part of the USPAP applies and
          what part of the Uniform Appraisal Standards of Federal Land
          acquisitions apply?
       ▪	 If an appraisal is not required, state why not, and identify the range
          of options by which a federal entity, specifically the DOI, has for
          valuing the purchase or exchange of subsurface oil/gas mineral
          rights.”

4.      “If the evaluation methodology used by DOI is deemed to be outside
of acceptable industry practices, identify and describe generally the impacts to
the valuations.”



        The Appraisal Foundation Report to the
        U.S. Department of Interior, Office of the Inspector General
        May 28, 2004
                                                                          Page 4
                  5.      “Identify any acceptable deviations to the evaluation and valuation
                  methodology utilized by MMS and describe generally the impact of the
                  deviations.”

                  6.    “In light of the above considerations, review the following document:
                  GAO Report entitled: Land Exchange-New Appraisals of Interior’s Collier
                  Proposal Would Not Resolve Issues, May 1988. GAO Report No.
                  GAO/GCD-88-85.”

                        The Foundation provided an oral report of preliminary findings to the
                  OIG and several staff members on April 28, 2004.


Intended Use of   This report is for the primary use of the OIG. We understand that it may also
the Report        be used by other federal agencies or entities. It therefore contains details that
                  would not necessarily be contained if the OIG were the only intended user.
                  The Appraisal Foundation has no restriction on the report’s distribution so
                  long as it is distributed in its entirety and without editing. Although
                  information that may exceed the scope of our contract was gathered during
                  our research, no attempt was made to expand our work program and report of
                  findings beyond what we believe is consistent with the assignment.


Work Program      The Appraisal Foundation established a work team (“Foundation team”) of
Summary and       two analyst/reviewers to perform the principal contract work. This team was
Standards         supplemented with an oversight review and quality control team (“Foundation
                  reviewers”) of two additional persons. This group was, in turn, supported by
                  Foundation staff.

                  A series of reports and a collection of correspondence were furnished to the
                  Foundation by the OIG as the principal subject matter for review. In addition
                  we obtained copies of the 1988 GAO Report referenced above.

                  The members of the Foundation team performed individual and independent
                  reviews of the materials, analyzed their content, and developed conclusions.
                  These conclusions were then discussed between the Foundation team
                  members and subsequently related to the Foundation reviewers. The
                  conclusions of the group were then orally reported to the OIG on April 28,
                  2004 prior to the writing of this report.

                  Because of the nature of the findings, the Foundation determined that no
                  USPAP standards technically applied to the Foundation’s work because
                  neither appraisals nor appraisal reviews were included in the materials we



                          The Appraisal Foundation Report to the
                          U.S. Department of Interior, Office of the Inspector General
                          May 28, 2004
                                                                                             Page 5
                      were furnished.3 Had appraisals been involved, it would be possible to apply
                      USPAP Standard 3, Appraisal Review, Development and Reporting, and to
                      analyze any applicable report or reports for their compliance with USPAP’s
                      Ethics and other Rules, Standard 1 relating to Real Property Appraisal,
                      Development, and Standard 2, Real Property Appraisal, Reporting. In the
                      absence of an appraisal, an appraisal review could not be applied per se.

                      USPAP Standards 4 and 5 relate to Real Property Appraisal Consulting,
                      Development and Reporting, respectively. Although the scope of work of the
                      Foundation originally envisioned the development of an analysis,
                      recommendation, or opinion where at least one opinion where at least one
                      opinion of value is a component of the analysis leading to the assignment
                      results, the absence of a qualified appraisal opinion on the part of MMS or
                      others technically precludes the applicability of these Standards.

                      Accordingly, it is our opinion that the intent of the DOI scope of work can be
                      appropriately accomplished if the Foundation follows the basic intent of
                      USPAP’s ethics and standards provisions, with appropriate references to the
                      applicability of such provisions and their counterpart UASFLA provisions,
                      and we have done so in the following report.


Report Organization This report consists of an Executive Summary, three sections of information,
and Content         analysis, conclusions, and exhibits. Section 1 introduces and discusses
                    pertinent appraisal standards as a foundation for our evaluations. Section 2
                    provides an analysis of the materials furnished to the Foundation by the OIG
                    and details contained in the OIG report. Section 3 contains the Foundation’s
                    conclusions and the reasoning upon which these conclusions are based. This
                    final section includes both direct responses to the OIG’s list of evaluation
                    issues and a series of related conclusions that were developed from our
                    evaluations.


Principal Findings    As discussed above, the Foundation determined that it was necessary to apply
and Conclusions       the principles of USPAP and UASFLA in its evaluations of MMS and related
                      materials in the context of market value4 appraisals, even though they were
                      not such appraisals. This approach is not to imply that the reports could be


                      3
                          The terms “appraisal,” “valuation,” and “evaluation” are commonly confused. Each is
                          discussed throughout the report. In general, the terms valuation and appraisal are
                          synonymous in the contexts applied within this report. Evaluation, however, is a less
                          precise term that relates to analyses leading to opinions or judgments that do not
                          include the market value, or other value, of specified real property rights.
                      4
                          Market value is defined in footnote 1 of this report’s Section 1.

                                 The Appraisal Foundation Report to the
                                 U.S. Department of Interior, Office of the Inspector General
                                 May 28, 2004
                                                                                                          Page 6
used as substitutes for appraisals performed by “Qualified Appraisers.”5
Instead, it is a means of demonstrating their shortcomings in this context and
the reasons why they should not be used by DOI as appraisals. Based upon
our research and analysis, and the discussions contained in the remainder of
this report, the following findings and conclusions were made by the
Foundation. Each of these conclusions is discussed more fully in Section 3.

1.      None of the reports reviewed by the Foundation were standards-
compliant market value appraisals. The 2000 MMS report in particular was
misleading in that regard in that, without complying with the requirements for
federal appraisals, and without appropriate data reasoning, analysis, and
conclusions, it was reported in a form and was apparently used as though it
were prepared in accordance with federal appraisal standards. Even if the
report were intended as a “preliminary estimate of value,” it was incorrectly
developed and used, did not include the disclosure of instructions under which
it was apparently developed, and was misleading except as an incomplete and
preliminary document that clearly was not an appraisal.6

2.      The subject matter of the reports and memoranda dealt with purported
subsurface oil and gas mineral interests owned by CRC. These purported
rights were not defined on a property-specific basis as to their nature and
extent, or even as to their location. Because the reports indicate that they vary
in each regard, any value ascribed to these interests is misleading and
improper because even if minerals were to exist, there is no way to quantify
the CRC portion of any market value that might be ascribable to the interests.
We use the term “purported” because there has been no identification that
permits our ability to confirm these interests.

3.       Despite the extent of information, discussion, and recitation of how
statistical models were used in the MMS reports, these reports are
hypothetical, highly speculative, not based upon supportable market data.
They are further not reliable in their present form as work that a Qualified
Appraiser could rely upon in developing and reporting a market value opinion.

4.      USPAP and UASFLA provide pertinent standards and guidance for
the valuation of real property interests, but the requirements of these standards

5
    “Qualified Appraisers” are defined by the Uniform Relocation Assistance and Real
    Property Acquisition Policies for Federal and Federally Assisted Programs Act of 1970
    and UASFLA Sections A-39, D-1e, D-2, D-7, and D-15. Their products are referred
    to as “qualified appraisals.” Such appraisers also perform appraisal reviews.
6
    A “preliminary estimate” is, for example, provided for in the BLM’s Exchange 

    Handbook which defines the term as, “…a short oral or written report estimating a 

    value or a range of values for properties….Because preliminary estimates are brief 

    they should be used for internal purposes only.” 


           The Appraisal Foundation Report to the
           U.S. Department of Interior, Office of the Inspector General 

           May 28, 2004 

                                                                                     Page 7
was, in the main, overlooked and not reflected in the materials reviewed.
These failures, among others, render the reports and the processes by which
the reports were generated as highly questionable. With the number of
mischaracterizations, misrepresentations, and misapplications reflected in
these materials, we see no reliable foundation for concluding or using any
opinion of market value of the CRC mineral interests involved. Further, we
are concerned that program abuses or more serious violations of the public
trust may have occurred.

5.      The MMS reports were developed with heavy reliance upon materials,
information, and discussions with a private entity, CRC, that was the private
sector party to a proposed exchange with the federal government. The 2000
MMS report discloses its reliance upon CRC, but is not always consistent in
its descriptions of the extent or the effect of that reliance. The result is that
MMS reports do not contain the evidences of independence and objectivity
that are required for standards-compliant market value opinions. We cannot
understand how the MMS reports could have been used by rational program
staff as a support for the proposed exchange. They understood that, in
particular, the 2000 MMS report was not an appraisal, was heavily influenced
by CRC involvement that even CRC would not warrant as true and correct,
and was adjusted by non-appraisers to have the appearance that the MMS had
developed a market value conclusion.

6.       Market value definitions are generally based upon the concept that the
buyer and seller are each reasonably knowledgeable. Further, each is defined
as acting for self interest, with reasonable knowledge and an absence of any
compulsion. There is no prohibition that states a buyer and a seller may not
talk, exchange information, or otherwise communicate. Most states require
that sellers provide truthful disclosures of pertinent property facts that might
influence buyer decisions. The concept is that the market value transaction is
an “arms-length transaction” because each party acts independently, in
keeping with the concepts just explained, and without accommodations for
special relationships that might exist between the parties. The materials
reviewed did not indicate that CRC made disclosures that would meet normal
seller requirements. Further, the materials indicated that the DOI and/or its
agencies expressed a compulsion for the transaction or exchange to occur.

7.      The DOI and at least some of its agencies have a serious
misconception that in situations where market value determinations are an
element of land acquisitions or exchanges involving private sector entities
“alternative valuation means” maybe preferable. Appraisals are to be
performed in the federal jurisdiction by Qualified Valuers, and in keeping
with the requirements of federal law and the standards established by USPAP
and UASFLA. Only qualified appraisers are trained and experienced to meet
the professional standards required to develop market value opinions.

        The Appraisal Foundation Report to the
        U.S. Department of Interior, Office of the Inspector General
        May 28, 2004
                                                                           Page 8
Negotiators and other program officials may deal with negotiated prices, but
such negotiated amounts are not substitutes for value opinions developed by
Qualified Valuers. Neither are pronouncements of “market value” by
administrators substitutes for the independent Qualified Appraiser developed
and reviewed opinion of market value that should form a basis for
administrative determinations. Hence, in situations such as the CRC mineral
interests in Florida where Qualified Valuers are particularly needed, the DOI
evidences circumstances where improper and unsupported land dealings occur
without the benefit of competent and reliable market value figures. We
question whether such procedures can always comply with law and the need
to uphold the public trust. Market value appraisals developed and reviewed
by Qualified Appraisers should be recognized as necessary in all land
acquisitions and exchanges by the DOI and its agencies.

8.       An evaluation of previous acquisitions or exchanges involving Collier
surface rights, or of Congressional actions that may relate to such rights, was
beyond the scope of our study. Such inquiry is not, however, beyond the
normal inquiry of an appraisal review had such a review been possible for the
reports in question. To comply with the spirit of USPAP and UASFLA
requirements that appraisers and reviewers of appraisals examine prior
transactions involving an appraised property, the Foundation calls your
attention to the need for further analysis to determine whether the Collier
interests may have already been compensated for all or part of the minerals
rights involved in our evaluation. We do not have sufficient information
available to us at this time to form a conclusion in this regard.

9.       Confusion may have existed within DOI or its staff as to distinctions
between real property and business interests and/or incomes. Additional
confusion may have been associated with distinctions between the potential
interests of a royalty interest, which would apply to real property rights, and
developer or operator rights, which would apply to business interests. In the
federal jurisdiction, compensation for acquisitions is generally limited to the
real property rights. In general, business rights are capable of transfer to other
activities and are technically not acquired. When an owner of real property
rights becomes, or has the potential to become, a developer and/or an operator
of resource extraction activities, the functions of a developer and/or an
operator are considered as business activities and are separate from the bundle
of land rights that is valued. Development and operation are entrepreneurial
activities on the land rather than elements of the land. When a royalty for the
land interest is paid at a market rent, contract and market rent are equal, and
there is no economic ownership of the Lessee in the land. The Lessee has
contract rights that may encumber the land, but they are ascribable to a
business arrangement rather than to real property rights.



        The Appraisal Foundation Report to the
        U.S. Department of Interior, Office of the Inspector General
        May 28, 2004
                                                                            Page 9
                 Section 1: 

                 USPAP and UASFLA Appraisal Standards 



Introduction     The Department of Interior’s (“DOI”) Office of Inspector General (“OIG”)
                 requested that the Appraisal Foundation (“Foundation”) discuss the role of the
                 Uniform Standards for Professional Appraisal Practice (“USPAP”) in
                 methodologies and appraisal practices utilized by the federal government, and
                 in particular the DOI, in determining the value of subsurface oil/gas mineral
                 rights. This report section is intended to acquaint the reader with the history
                 and nature of USPAP; the relationship of the Uniform Standards for Federal
                 Land Acquisitions (“UASFLA”), appraisal methods and practices of the
                 federal government; and how they apply to the valuation of real property
                 rights generally and to oil/gas mineral rights specifically.


The Appraisal    The United States has had ethical rules statements for real property appraisals
Foundation and   since at least the late 1920s. They were developed as partial response to
USPAP            fraudulent market practices and abuses in real estate characterized by the
                 repetitive sales of the Brooklyn Bridge and the rampant abuses of a “buyer
                 beware” market place. Recognizing that these and related systemic failures
                 contributed to the severity and extent of the Great Depression, professional
                 appraisal organizations were formed in the public interest to assist in
                 stabilizing markets and the economy at large, and in establishing foundations
                 of certainty and security for real estate investments in homes, places of
                 business, manufacturing facilities, and the public interest at large.

                 Appraisal principles were recognized prior to the Great Depression as
                 extensions of classical and neoclassical economics and were increasingly
                 recognized later, most particularly following World War II. As appraisal
                 principles were better defined and taught to professionals, they were added to
                 the body of appraisal knowledge and made a part of what is now recognized
                 as “generally accepted valuation principles (GAVP).” Beginning particularly
                 in the 1980s, the advancement of GAVP was accelerated by the promulgation
                 and enforcement of appraisal standards, first by professional appraisal
                 organizations and later by development and promulgation of standards by the
                 Appraisal Standards Board (ASB) of the Foundation.

                 The Foundation, created as an outgrowth of Title XI of the Financial
                 Institutions Reform Recovery and Enforcement Act of 1989 (FIRREA), was
                 created to establish an organized effort and to fix the responsibility for
                 carrying out certain Title XI responsibilities in the areas of appraisal standards
                 and appraiser certification/licensing. Enforcement of standards was federally
                 required at the state level amongst all 50 states, territories, and possessions.

                         The Appraisal Foundation Report to the
                         U.S. Department of Interior, Office of the Inspector General
                         May 28, 2004
                                                                                            Page 10
The Appraiser Qualifications Board (“AQB”) of the Foundation establishes
uniform standards for each state’s certification or licensing of professional
appraisers. The Appraisal Standards Board (“ASB”) develops and interprets
standards designed for the use of professional appraisers and the users of
appraisal services. These standards are the basis for judging appraiser
compliance with professional ethical and standards requirements. Violations
may be cause for civil and/or criminal sanctions against a licensed or certified
appraiser, including loss of the ability to legally practice as an appraiser.

The focus that Congress brought upon appraisers is strong evidence of the
critical importance of Qualified Appraisers and reliable appraisal opinions to
our government and to the public at large. This is particularly true when
financial transactions are involved.

The Preamble to USPAP 2004 states, “The purpose of the Uniform Standards
of Professional Appraisal Practice (USPAP) is to promote and maintain a high
level of public trust in appraisal practice by establishing requirements for
appraisers. It is essential that appraisers develop and communicate their
analyses, opinions, and conclusions to intended users of their services in a
manner that is meaningful and not misleading.” USPAP standards intend that
appraisers not perform appraisals in a way that would be misleading, advocate
the particular needs or dictates of the client, fail the tests of objectivity and
independence, or reflect performance that is less than competent.

USPAP addresses Rules of Ethics, Competence, and possible standards
Departure. It provides for Jurisdictional Exceptions and Supplemental
Standards. UASFLA falls into each of the last two categories, while including
each of USPAP’s Rules and all Standards that do not fall into the
Jurisdictional Standards category. USPAP covers real property, personal
property, and business property valuation activities and establishes
development and reporting standards for each. It also provides standards for
appraisal reviews, mass appraisals, and appraisal consultation. At present
only the standards applying to real property appraisals, which include oil and
gas mineral interests, are enforced by the states, but all standards are enforced
by the various professional organizations that are involved with the various
types of property to which they apply.

Jurisdictional Exceptions in UASFLA are discussed in its section D-1.
USPAP recognizes that exceptions may exist and provides that only the
excepted USPAP provision shall be considered void or of no effect in the
particular jurisdiction. We do not believe that any of these exceptions are of
significant importance to our studies.

USPAP (as is UASFLA) is based upon generally GAVP, but these principles
are more particularly identified and amplified upon in the widely accepted and

        The Appraisal Foundation Report to the
        U.S. Department of Interior, Office of the Inspector General
        May 28, 2004
                                                                          Page 11
                    applied basic texts of the major professional appraisal organizations. Many
                    are further recognized in the courts, in the actions of investors, and in other
                    market evidences.


Uniform Appraisal   UASFLA was first published in 1971. The current fifth edition was published
Standards for       in 2000, updating the 1992 fourth edition. Although the form and structure of
Federal Land        the 2000 edition make UASFLA considerably easier to read and comprehend,
Acquisitions        the content does not significantly change the 1992 edition as a general matter.
                    It does, however, make more clear the relationship between USPAP and
                    UASFLA and an identification of the Jurisdictional Exceptions that exist for
                    appraisals and review appraisals in the federal jurisdiction. The concept of
                    market value7 is not changed, although the 2000 edition contains a succinct
                    update of the definition for the federal jurisdiction. Additionally, there are no
                    significant changes to the development or reporting of a market value opinion
                    as compared with the earlier edition.

                    UASFLA is the product of more than 30 federal agencies who are signatories
                    to its contents. It is intended to apply to all federal government land
                    acquisitions and exchanges with the private sector. As stated in UASFLA,
                    “These Standards have been prepared for use by appraisers to promote
                    uniformity in the appraisal of real property among the various agencies
                    acquiring property on behalf of the United States. It should make no
                    difference to the landowner, whose property is being acquired, which agency
                    is acquiring the land, or what method of acquisition it uses.”8 The standards
                    further refer to the need for uniformity and fairness in the treatment of
                    property owners as a goal of the Uniform Relocation Assistance and Real
                    Property Acquisition Policies Act of 1970,9 and appraisals for direct voluntary
                    purchase, exchange, or eminent domain by the United States.

                    As a result of DOI agency determinations, the passage of other laws, and the
                    development of policies and procedures within various agencies, not all DOI
                    agencies in fact meet the intentions of the preceding paragraph. As described


                    7
                        Market value is defined in UASFLA as, “…the amount in cash, or on terms reasonably
                        equivalent to cash, for which in all probability the property would have sold on the
                        effective date of the appraisal, after a reasonable exposure time on the open
                        competitive market, from a willing and reasonably knowledgeable seller to a willing
                        and reasonably knowledgeable buyer, with neither acting under any compulsion to buy
                        or sell, giving due consideration to all available economic uses of the property at the
                        time of the appraisal.” UASFLA Interagency Land Acquisition Conference.
                        Washington, DC. Adopted December 20, 2000. Section A-9.
                    8
                        UASFLA. Purpose.
                    9
                        UASFLA. Purpose.

                               The Appraisal Foundation Report to the
                               U.S. Department of Interior, Office of the Inspector General
                               May 28, 2004
                                                                                                        Page 12
in the Foundation’s previous study of the Bureau of Land Management10
(BLM study) for example, the BLM has provisions in its policies that provide
for application of UASFLA “when appropriate.” This and other conflicts
have led to practices that the Foundation earlier reported as failing to
accomplish the intentions of UASFLA, failing to seek and use valid
determinations of market value by Qualified Appraisers that would be used in
land exchanges or other transactions, and a failure of uniformity in the
valuation of government and/or private land interests. We also found that
such failures are not, in our opinion, in the public interest.

Importantly, to the extent that specialized training is required to perform
appraisals under USPAP or UASFLA standards, each also provides standards
for appraisal reviews by Qualified Appraisers. Thus, each requires that
technical reviews must be performed under the same standards, but with
special requirements for the appraisal reviewer, to assure that both ethical and
performance requirements are met and that the review is reported in a form
that will be meaningful and not misleading to the ultimate user of the
appraisal’s opinions. This provides a check and balance when competent
professionals are involved and, when properly administered at the program
level, should provide insulation against inaccurate, improper, and potentially
illegitimate development or reporting of bogus or non standards-compliance
value opinions.

Notably, the use of Qualified Appraisers in the development and review of
appraisal matters specifically avoids the misuse of non-appraisal opinions and
discourages or eliminates program level decisions to administratively set
unqualified “values.” It is precisely this type of behavior on the behalf of
certain banking and savings and loan personnel that led to the financial
industry scandals of the late 1980s and resulted in FIRREA. The same
practices have been observed in a number of the more recent corporate
governance and financial reporting scandals of the past several years. (Again
we call your attention to our remarks contained in the 2002 BLM study.)
USPAP and UASFLA each have their roots in principles that were developed
to avoid fraud, waste, abuse, and misunderstanding, and have value to the
users of valuation services because they promote independence and
objectivity, whether the users are public or private.

The Foundation’s earlier BLM study also referred to inconsistencies among
several of our nation’s laws relating to land acquisitions and the



10
     The Appraisal Foundation. Evaluation of the Appraisal Organization of the
     Department of Interior Bureau of Land Management. Washington, D.C. October 9,
     2002.

           The Appraisal Foundation Report to the
           U.S. Department of Interior, Office of the Inspector General
           May 28, 2004
                                                                              Page 13
               implementations of those laws within DOI.11 We do not technically see these
               as operable problems for the matters involved in this report, because the DOI
               and its entities apparently realized that market value and appraisal related
               issues were involved and should be used as a basis for the purposed exchange.
               Having recognized that a market value determination is required, we have
               been unable to find any supportable reason why appraisers, who are trained,
               experienced, and employed to develop and review market value opinions,
               were—and not infrequently are—bypassed in the land activities of the DOI.
               Additionally, in our opinion, the inconsistencies and internal policies and
               procedures within DOI agencies still require the attention of appropriate
               government inquiry and analysis.


Standards      Exhibit 1 to this report contains an abbreviated appraiser’s checklist, which
Requirements   appears as Appendix A to UASFLA. The MMS reports we reviewed, the
               USGS report upon which one of the reports was in part based, and the other
               materials furnished to us, gave no evidence that those involved were aware of
               any of the fundamental requirements of UASFLA (or USPAP) with regard to
               this checklist or the more detailed performance requirements for a standards-
               compliant appraisal. Likewise, management evidenced awareness of certain
               legal and/or standards requirements, but neither sought nor received staff
               reports that complied with the necessary requirements.

               The 2000 MMS report cites the NPS’ admonitions that a valuation should
               only involve the land interest and no business interest. It also includes other
               references that indicate that at least some effort was made to guide or adjust
               the findings of the MMS analysts in a way that would, as a minimum, give the
               appearance that legal requirements for an appraisal would be met. The
               attempt did not comply with what was required, instead presenting
               incomplete, improper, and misleading conclusions. Some of these matters
               upon which these conclusions are based will be addressed later in this report,
               but a brief discussion of selected relevant minimum requirements of a market
               value appraisal is an important background understanding:

               1.       Identification of the property. This includes some identification of
               physical location(s) and the nature of the property. It is important to recognize
               that appraisers differ in the use of the word “property” between the physical
               asset (real estate) and the legal asset (real property). Hence, “property” can be
               a misleading term unless more specifically defined. UASFLA and USPAP
               each require more specific identifications to avoid confusion or misleading
               statements.

               11
                    Section 2 of the BLM study dealt with an identification and evaluation of formal
                    written BLM appraisal function guidance and discussed principal laws and regulations
                    upon which the BLM’s appraisal function is to be based.

                          The Appraisal Foundation Report to the
                          U.S. Department of Interior, Office of the Inspector General
                          May 28, 2004
                                                                                                 Page 14
       Comment. Neither the MMS reports nor the USGS report we
       received contained specific delineations of the property in question.
       Locations were only generally identified and even acreage
       measurements were inconsistent. Specific rights associated with each
       location were not identified. An averaging of disparate locations and
       property rights is not an acceptable appraisal practice in the
       acquisition of private rights of ownership. In this instance, those
       rights could not be analyzed in detail as a result of the missing
       information. These elements of information should have been
       required whether surface or subsurface rights were involved.
       Similarly, we found no related questions or issues raised by Dr. Grace
       or any of the other review materials we received.

2.      Identification of the Rights Appraised. By identifying the rights
appraised, an appraiser assures there is no gap between or lack of
understanding of the physical (location and nature) and legal (legal rights)
components of a property’s ownership. Specific identification of rights is
required in any case, but the absence becomes even more confounding when
the bundle of rights (the entirety of private ownership rights in land) is split
between surface and mineral estates.

       Comment. Even though we were unable to ascertain the physical
       locations of the properties involved in our review, such locations
       would have been incomplete without accompanying identifications of
       the rights attached to each location. No specific rights were identified,
       although their general nature as “mineral interests” was cited in the
       MMS reports. Absence of both physical and legal identities
       essentially invalidates any further analysis, and renders any value
       opinions as moot, speculative, and highly misleading. We are
       astonished that agency personnel and the DOI did not insist on an
       audit trail between each property, each set of rights, each report, each
       purported value conclusion, and the basis for each as a fundamental
       matter regardless of whether they agreed or disagreed with what they
       styled as a valuation.

3.      Effective date of appraisal. Because of market and other changes, an
appraisal is conditioned upon a stated date. Any value opinion must be stated
as of a particular date. Values are rarely constant over time, so dates of value
are essential in rendering an opinion of value and meeting even the most basic
requirements of accountability.

       Comment. There was no identification of a date as of which any of
       the MMS report figures that were purported to portray “values” was to
       have applied. This is further evidence that the reports were not

        The Appraisal Foundation Report to the
        U.S. Department of Interior, Office of the Inspector General
        May 28, 2004
                                                                         Page 15
           appraisals, but even had they been appraisals they would have been
           invalid for their failure to contain a specific date of value.

4.      Special Assumptions. USPAP defines the following terms that
appraisers are required to define and apply appropriately, along with certain
special requirements for disclosures: (a) assumption: that which is taken to be
true; (b) extraordinary assumption: an assumption, directly related to a
specific assignment, which, if found to be false, could alter the appraiser’s
opinions of conclusions; and (c) hypothetical condition: that which is contrary
to what exists but is supposed for the purpose of analysis.

           Comment. The MMS reports and other materials we received did not
           properly disclose that the existence of ANY oil or gas on whatever
           properties may be involved was a hypothetical condition because
           there was no known oil present.12 An extraordinary assumption is not
           to be stated as such if an appraiser knows that as a matter of fact it is
           not believed to be true. Thus, the reliance of MMS on statistical
           models in which probabilities of some degree of higher risk that larger
           oil and gas deposits were present at all obscures the fact that none are
           known to be present. A Qualified Appraiser must identify the MMS
           analyses as hypothetical models that might be considered by the
           applicable market (if this is true), but which are speculations based on
           hypotheses rather than measurements of known oil and gas
           discoveries. Instead, the MMS presentation and the use of their
           reports present an analysis in which speculative possibilities devoid of
           any actual known oil and gas presence led to conclusions more in the
           terms of an undisclosed extraordinary assumption, or even an
           assumption, in appraisal terms. Fundamentally, there is no market
           value of undiscovered oil and gas until the market says so. No market
           value evidence was presented in any of the reports and other materials
           furnished for our review.

5.       Special instructions. Appraisers are required to disclose any special
instructions given to them by their client or others who might influence or
may be users of the results of the appraiser.



12
      Although our Scope of Work did not include a request that we perform research in
     order to form a market value opinion regarding CRC’s mineral interests, we are aware
     that there is ample evidence that, as mentioned by not fully applied in the MMS report,
     markets view undiscovered oil and gas possibilities with skepticism. Prices paid, if the
     properties will sell at all, are based on a fraction of what would be paid for proven
     producing oil or gas. Ultimately the issue is an issue of what the market will decide
     for a given situation and it was this market consideration which was absent in the
     materials we analyzed.

            The Appraisal Foundation Report to the
            U.S. Department of Interior, Office of the Inspector General 

            May 28, 2004 

                                                                                     Page 16
           Comment. The appraiser’s caveat with regards to special instructions
           provides for full disclosure by the appraiser of any special instructions
           or influences that might bias the independence, objectivity, and/or
           transparency of the appraisal and its report. They also provide for an
           opportunity for reviewers and users of the report to judge whether the
           report is competently performed, relevant and applicable to the
           appraisal’s intended uses, and free from outside influences or
           directions that might bias the result. The Foundation team was
           furnished memoranda and/or other materials that indicated significant
           influence was exerted on MMS’ work, whether by written or oral
           means. References were contained in the reports about extensive
           interaction with CRC and/or its experts, and references to DOI
           Solicitor views.13 MMS relied upon CRC produced information as a
           significant element in its 2000 update report. We do not know
           whether they were instructed to do so, or by whom. The record is
           clear, however, that the materials relied upon were subject to a
           Confidentiality Agreement14 (Exhibit 2) executed with CRC, but
           which contained provisions by that CRC disavowed any warranty of
           accuracy. Thus, the MMS report and any subsequent use of their
           report are incomplete and misleading to the extent that special
           instructions were received but not adequately and fully disclosed.

6.      Appraiser’s Certification. USPAP and UASFLA each have
requirements for the appraiser to execute a signed Certification regarding the
appraiser, the assignment, independence, and related matters. Examples are
included in Exhibits 3, 4, and 5.

           Comment. UASFLA requires that the appraiser’s certification include
           that: (a) the facts are true and accurate; (b) the appraiser has no interest
           (or bias) in the property; (c) the appraisal and report confirm to
           USPAP; (d) the extent of property inspection; (e) acknowledgement of

13
      See for example the February 22, 2002 Memorandum from [former Deputy Regional
     Supervisor, Resource Evaluation Division, Offshore Minerals Management] (MMS) to
     “Dickerson, Barry, Hunt, Michael.” The memo indicates that CRC “continu[ed] to
     snipe at our evaluations and push the envelope, without acknowledging anything that
     was to their benefit in the analysis. Since they refuse to show us their model results
     and the lawyers won’t insist on seeing this info, I’m beginning to suspect that either
     their results are similar or they don’t have one.” It continues after confirming that the
     MMS had been instructed to “evaluate” the CRC properties as though they were the
     owner/operator of the properties, “Apparently in the Solicitors’ minds this gets past the
     NPS Uniform Appraisal Standards questions.” [The former Deputy Regional
     Supervisor] concluded, “I’ve repeatedly told the Solicitors that I don’t believe CRC
     has any intention of drilling a well—they’re just following the Coastal Petroleum
     paradigm.”
14
     Collier Resources Company. Confidentiality Agreement.

            The Appraisal Foundation Report to the
            U.S. Department of Interior, Office of the Inspector General
            May 28, 2004
                                                                                      Page 17
       professional assistance for work performed; (f) before and after values
       (where applicable); (g) the appraisal is limited only by stated
       assumptions; (h) a contingent fee was not involved; (i) the report
       conforms to federal standards; (j) the appraiser offered to have the
       owner accompany on property inspection; and (k) the effective date of
       value. There was no certification in either MMS report.

       The certification requirement for professional appraisers establishes a
       professional accountability and provides a focal point for disclosures
       that are necessary to judge the independence, objectivity, and
       framework for the value opinion. Unlike DOI staff reports we have
       reviewed that contain assertions but not certifications of
       independence, freedom from bias, assurance of accuracy and
       completeness, and the like, the required professional appraisal
       certification “lays it on the line” for each of the required elements and
       any others that the appraiser may consider necessary to add to the
       certification statement. This statement is of substantial value to those
       who use the results of a professional appraisal. Had certifications and
       appropriate disclosures been factually prepared in the matters we
       studied, there would have been no basis for the DOI proposal to
       proceed.

       We note that no such certification was present for any of the MMS or
       other reports we reviewed even if the MMS did not intend their
       reports as appraisals. Neither was there a certification with regard to
       the geologic, engineering, or other scientific processes that were
       performed. The DOI would be well served to have professional
       certifications designed and prepared for each professional discipline
       upon which the DOI relies in land transaction and exchange matters.

7.      History of the property. This topic generally includes a history of
the use of the property, sales and rental histories, assessed value and annual
property taxes (and their status), and zoning and other land use regulations,
among other requirements.

       Comment. There is considerable history of the use of the lands
       associated with the CRC’s mineral interests that may be of
       significance to a valuation either to the entirety or to partial interests.
       In any event, a 10-year use history is required by UASFLA. None is
       discussed in the MMS reports or related materials. These lands have
       been the subject of various acquisition activities over time and a 10-
       year record of all sales, and any offers to buy or sell the property under
       appraisal are also required. UASFLA Section B-5 contains a special
       discussion of sales histories. None is discussed in the MMS reports or
       related materials. The same is true for historical rental or lease history

        The Appraisal Foundation Report to the
        U.S. Department of Interior, Office of the Inspector General
        May 28, 2004
                                                                           Page 18
of the property, which is required for at least the past three years if
data can be obtained. Like assessed value and annual tax load, and
zoning and other land use regulations, the MMS reports and related
materials are silent on these required appraisal matters.

It is our opinion that the deletion of these histories and related
discussions is particularly serious as an appraisal matter. Appraisers
are required to collect and consider sales, rental, use, and other
historical information not only because they may be indicators of
likely market attitudes, but because they assist in verifying title,
outstanding interests, restrictions on use, and other factors that may
have significant effect on market value. The absence of historical data
in appraisal reports was a common failure that facilitated “land flops”
and fraudulent sales reports, which were uncovered in savings and
loan and bank investigations that led to the necessity for passage of
FIRREA. Within DOI and its agencies, the professional certifications
provide accountability and aid in reducing fraud and improper
practices.

From discussions and the materials submitted, we are aware that all or
part of the lands involved in MMS’ report(s) may have been or may
be the subject of other transactions or exchanges with the United
States. There are a myriad of issues that arise in determining whether
the compensation and/or economic basis for exchanges for the private
interests have been fair and in keeping with constitutional
requirements. It is also possible that all or part of the interests that are
the subject of the MMS reports have already been compensated for in
previous transactions and/or exchanges. Alternatively, there may have
been confusion with regard to surface and subsurface rights that
should be clarified. To determine which is accurate requires an audit
of previous land activities between the United States and CRC or
related Collier interests. As an example of our concern, the following
scenario is offered:

         - Suppose that the surface rights for the Collier lands in
         question were based upon market value appraisals in which
         the values were based upon land uses that could not be
         achieved if oil and gas exploration, development, production,
         and distribution were to occur. If those uses were the highest
         and best use of the land and were the basis for original
         compensation, they would preclude the subsequent addition of
         market value for mineral interests as such addition would be
         an example of the prohibited summation or cumulative
         appraisal method described earlier.            Under these
         circumstances, no further compensation for mineral interests

The Appraisal Foundation Report to the
U.S. Department of Interior, Office of the Inspector General
May 28, 2004
                                                                     Page 19
                     would be due because they were not deemed highest and best
                     use of the land at the time compensation was determined.

                     - As a second example, suppose that some form of reservation
                     of mineral interests were established prior to the completion of
                     an original appraisal for compensation purposes. Under
                     UASFLA’s unit rule, it would normally be necessary to value
                     the property as a whole rather than attempt a separate
                     valuation of the individual interests, particularly if they were
                     commonly owned or owned by related entities. This means
                     that the highest and best use analysis referred to in the first
                     scenario must be performed and a determination must be made
                     as to whether one or the other interest is dominant and
                     precludes the other, or whether they can in some manner co-
                     exist. In each of these analyses it is the market that is the most
                     crucial determinant and a market analysis must be made.

           Although these are only two illustrative scenarios of others that can be
           conceived, they are used to demonstrate the importance of market
           studies, distinctions between physical and legal considerations, and a
           reconciliation of all factors in terms of what is supportably
           documented from market analysis. None of these types of analyses
           were reflected in the MMS reports or related materials.

8.         Analysis of highest and best use.15

           Comment. According to UASFLA, “Highest and best use analysis is
           another critical element in the development of a reliable mineral
           property appraisal. Such a report must contain a well supported and
           documented market analysis that clearly establishes whether or not
           there is adequate market demand for the minerals located on the
           property….It is critical that the appraiser adequately address the
           question of the market for the minerals found on the property because
           it has been ruled that an expert must ‘make a showing of some sort of
           market, poor or good, great or small, for the commodity in question
           before the quantity and price of the commodity or substance may
           be…used as a factor in the expert’s opinion testimony.’ ”16



15
      Highest and best use is defined as, “The reasonably probably and legal use of vacant
     land or an improved property that is physically possible, appropriately supported, and
     financially feasible and that results in the highest value.” Appraisal Institute. The
     Appraisal of Real Estate, 12th Ed. Chicago, IL. 2001. p. 305.
16
     UASFLA. Sec. D-11.

            The Appraisal Foundation Report to the
            U.S. Department of Interior, Office of the Inspector General
            May 28, 2004
                                                                                     Page 20
           There was no highest and best use analysis or determination in either
           of the MMS reports and there was no mention of its absence in the
           Grace report or agency memorandum. A market value opinion
           cannot be validly developed or reported without a highest and best use
           for which the value opinion applies. Its absence is clear evidence that
           a reliable appraisal of market value could not have been performed
           and that agency personnel did not have sufficient understanding,
           expertise, or benefit of due diligence to recommend or conclude
           market value based on MMS’ work.

           Note that the above references pertain to identified rather than
           undiscovered oil and gas or other mineral interests. The MMS reports
           do not identify any known oil and gas on the CRC properties,
           whatever their location. In addition, permitting, environmental,
           exploration, development, construction, production, and distribution
           considerations associated with a highest and best use estimate are not
           discussed, even if some allowance for them might have been included
           in the hypotheses considered in MMS speculative statistical models.
           Thus, there is no basis from the MMS report to determine financial
           feasibility or legal possibility of oil and gas development. Without
           these and other considerations, there is no way for the government to
           know whether compensation paid for surface rights was already paid
           for a higher and better use, or in contemplation of some form of
           combined use if the economic and legal feasibility for mineral
           production exists at all. This is an important inquiry that should have
           been performed.

           UASFLA explains the need to consider what is known as the
           consistent use theory.17 This theory, which was illustrated without
           identification in the above scenarios, holds that land cannot be valued
           on the basis of one use while the improvements [or minerals] are
           valued on the basis of another use. At our request, the OIG sought
           and obtained some of the appraisals that were separately prepared by
           Collier and government appraisers for acquisition of Collier land
           interests in Florida.18 None of the appraisals we viewed identified oil
           and gas potential as a significant market value factor, instead
           identifying limited construction and recreation as the most likely
           highest and best use, and such uses were used in the market value
           opinions that were produced. In addition to the fact that the Collier’s
           and the government’s appraisals negate any value contribution of oil
           and gas speculation (since none was identified to be present on the
17
     UASFLA. Sec. D-11.
18
      To avoid any claims of confidentiality that may exist for these appraisals, we will not
     list them separately, but have retained them in the Foundation’s files.

            The Appraisal Foundation Report to the
            U.S. Department of Interior, Office of the Inspector General 

            May 28, 2004 

                                                                                       Page 21
     properties appraised), later addition of some valuation for oil and gas
     rights would constitute a prohibited cumulative or summation effect,
     thus doubling up on eligible market value compensation.

     We have discussed only a few of many deficiencies in the MMS
     reports if they were to be considered as standards-compliant
     appraisals, which they clearly are not even if one claimed that they
     were defective appraisals. Of prime importance are the absence of
     market data, the substitute of hypothetical and speculative analyses as
     though they represented or explained the actions of the market, and the
     absence of analyses that are crucial to a determination of highest and
     best use. Also important, the MMS’ failure to avoid a possible
     doubling of considerations by not first establishing that any prior
     compensation or financial consideration did not preclude or in some
     other manner affect the value numbers they estimated, given the
     intended use of their report which they acknowledged, demonstrates a
     serious failure of government to responsibly uphold the public trust.

9.   Application of the three approaches to value.

     Comment. USPAP and UASFLA require that each of the three
     approaches recognized under GAVP must be considered, and for each
     appraisal for which they are applicable and appropriate they must be
     applied. These approaches include the Sales Comparison Approach
     (in which actual market sales and other price indicators are analyzed
     and compared with the appraised property), Cost Approach (in which
     land is valued separately and the contributory value of improvements
     [or minerals] is added after their cost and applicable depreciation are
     considered), and Income Approach (in which anticipated future
     revenues applicable to the real property rights are quantified and then
     reduced [discounted] to a present value). Each requires the use of
     market data and related documentation and analytical support. The
     three approaches constitute a system of checks and balances to ensure
     the integrity of the findings. They are essential to ensuring public
     trust, which is why UASFLA requires them.

     UASFLA states a strong preference for the application of a sales
     comparison approach, even for the appraisal of minerals interests
     when sufficient data are available. Although the MMS reports explain
     UASFLA’s preference that a sales comparison approach be applied,
     the reports are silent on whether the MMS attempted to apply the
     approach, and no discussion of any consideration at all is contained
     in the MMS reports, although required by USPAP and UASFLA.



     The Appraisal Foundation Report to the
     U.S. Department of Interior, Office of the Inspector General
     May 28, 2004
                                                                     Page 22
         Although the MMS performed income analyses, their work was
         essentially an analysis of business rather than real property revenues,
         without the benefit or support of market data. Income hypotheses
         were expanded to many iterations through statistical use of Monte
         Carlo analysis, but were not based upon a highest and best use
         analysis. The MMS applied a number of probabilities, rates, and
         other ingredients in their income analysis that were neither market
         supported nor likely to represent market processes or attitudes
         collectively or for any particular property.

         In the 2000 MMS report there was an attempt to apply a limited
         number of NPS-supplied adjustments. These were apparently
         intended to reduce what, in the 1996 report was a business evaluation,
         to what in the 2000 report would appear to be an appraisal of real
         property rights. The 2000 MMS analysis did not result in a reliable or
         credible reflection of market value as presented, was based on faulty
         analyses, and did not properly apply the appraisal techniques and
         considerations necessary to value mineral interests.

         We conclude that no appraisal approaches as recognized under
         applicable standards or GAVP were applied by MMS even though the
         MMS did perform an incomplete and unsupported form of income
         analysis.

10.      Reliance on the use of other experts’ work.

         Comment. UASFLA and USPAP recognize that appraisers must
         sometimes rely upon the opinions of other experts. UASFLA
         particularly notes, “…studies regarding the physical characteristics of
         the minerals are usually conducted by specialists…who make
         determinations concerning such important factors as the location,
         quantity, and quality of the mineral deposit, and any variations in the
         quality that might be found on the property.                Additional
         determinations may be required regarding such factors as the
         accessibility of the mineral and problems and costs of extraction.”19 It
         also states, “However, before the adoption of these studies, it is the
         professional responsibility of the appraiser to thoroughly review and
         understand the reports prepared by other experts and adopt them only
         if the analysis and conclusions were prepared according to appropriate
         standards, are sound, and are adequately supported.”

         The MMS reports and related materials clearly fail these appraisal
         tests. There is no evidence that MMS separately verified or validated
19
     UASFLA. Sec. D-11.

          The Appraisal Foundation Report to the
          U.S. Department of Interior, Office of the Inspector General
          May 28, 2004
                                                                          Page 23
          the materials furnished to them by CRC, upon which they heavily
          relied. There is no significant mention of market data or tests relating
          to market value or how the pertinent market would consider the
          results of statistical models as based and processed according to
          MMS’ discussions. To translate hypothesis and statistical projections
          of speculative assumptions directly to a presumption of market value
          without the support that is required by appraisal standards is
          misleading. Further, for DOI officials to claim that the MMS reports
          were in any way appraisals or that their results represented market
          value appear to be seriously misleading. The information furnished
          for our review indicated that these results were most likely intentional.

          Information of a more general nature is available from various
          industry and market sources, but even this more remote information
          was not discussed in the MMS reports. Had the information been
          considered and reported, it is our opinion that the report would have
          given objective readers pause to accept MMS findings and
          conclusions even without other pertinent market data.

11.       Valuation of minerals properties generally.

          Comment. UASFLA and USPAP provide that all applicable appraisal
          approaches are normally applied, and further that the appraiser must
          justify the omission of any particular approach. UASFLA states, “As
          in the valuation of other property for federal acquisition purposes, if
          adequate sales data is available, the sales comparison approach is
          usually considered the best evidence of value. While it is recognized
          that each property containing valuable mineral deposits is unique, the
          same may be said, to some degree of all real estate.”20 The CRC
          properties to which the MMS reports relate are not known to contain
          valuable mineral deposits, any such “deposits” being undiscovered
          and only inferred as of the time of the MMS reports.

          The MMS reports state that a Sales Comparison Approach is the
          preferred valuation methodology for minerals properties wherever
          adequate data are available, but evidence no attempt to gather or
          analyze such data. To the contrary, discussions in the MMS reports
          are far more indicative that no such market exists. This indication
          arises from the absence of such data and by MMS’ references to the
          limited historical activity in the area due to market’s adverse reactions
          to available data.



20
     UASFLA. Sec. D-11.

          The Appraisal Foundation Report to the
          U.S. Department of Interior, Office of the Inspector General
          May 28, 2004
                                                                            Page 24
Pertinent UASFLA 	 To provide the reader with specific provisions of UASFLA’s federal appraisal
Provisions 	       standards, we extracted UASFLA provisions as shown below. The statements
                   chosen were selected based upon their specific relationship to many of our
                   analyses and conclusions. These should not be interpreted as anything but
                   examples of what is stated in UASFLA and the reader is cautioned to refer to
                   UASFLA for a full description and understanding of its contents.

                     General appraisal provisions

                     1.      Government appraisals are to comply with USPAP except for
                     Jurisdictional Exceptions. Section A, A-4, A-9, and C.

                     2.     UASFLA applies to “direct voluntary purchase, exchange, or eminent
                     domain.” Purpose.

                     3.      “These Standards have been prepared in recognition of the fact that
                     the vast majority of federal land acquisitions are accomplished by
                     voluntary means. However, the utmost objectivity, accuracy, and
                     thoroughness of appraisals, upon which those acquisitions are based, are
                     essential regardless of the government’s method of acquisition.” Purpose.

                     4.     The amount “to be paid to property owners when their property is
                     acquired by the government for public use is a matter of constitutional
                     law.” Purpose.

                     5.     If standards must be modified, “[s]uch modifications … should not
                     be undertaken without specific written instructions from the acquiring
                     agency or its legal counsel.” Purpose.

                     6.      Section A-14 explains that unity of ownership is an important
                     concept/test. Also, the appraisal must be based on the highest and best use of
                     the land. Splitting ownership (surface v. mineral) may create a conflict that
                     must be considered in a valuation.

                     7.     “The appraiser’s estimate of highest and best use must be an economic
                     use.” Sec. A-14.

                     8.      “A preliminary value estimate prepared under 43 C.F.R. 2201.1(b)
                     is not considered an appraisal even though it is to be prepared by a
                     qualified appraiser. … It is noted that 36 C.F.R. 254.4(b) is silent on
                     whether such a preliminary value estimate is considered an ‘appraisal’ by
                     the USFS.” Sec. D-1e.

                     9.      “[I]t is the agency’s responsibility to advise the appraiser of the
                     special conditions under which the appraisal is to be conducted, of the

                             The Appraisal Foundation Report to the
                             U.S. Department of Interior, Office of the Inspector General
                             May 28, 2004
                                                                                             Page 25
specific law requiring the invocation of USPAP’s Jurisdictional Exception
Rule, and, if necessary, of the hypothetical condition or extraordinary
assumption. … Any time appraisers confront a potential conflict between
USPAP and these Standards, or the client agency’s appraiser instructions,
they should always analyze the apparent conflict and avoid invocation of
USPAP’s Jurisdictional Exception Rule whenever possible. Often, these
Standards or the agency’s special appraisal instructions do not require a
jurisdictional exception, but rather merely that the appraiser conduct an
appraisal under a hypothetical condition or by adopting an extraordinary
assumption.21 … Appraisers are advised to bear in mind that full
disclosure is the essential element in preparing an appraisal report in
conformance with USPAP.” Sec. D-1g.

10.     “[T]he government ‘is not required to exchange any Federal lands.
Land exchanges are discretionary, voluntary real estate transactions
between the Federal and non-Federal parties.’22 This does not mean,
however, that such transactions are exempt from litigation relating to the
valuation of the property involved and/or the adequacy of the appraisal
report upon which the transaction was based.”23 This is pursuant to the
Federal Land Policy and Management Act of 1976 (FLPMA), as amended
(43 U.S.C. 1701 et seq.)

11.     “The requirements for classification as a qualified appraiser under
these exchange regulations are essentially the same as those for a contract
appraiser under 49 C.F.R. 24.103(d)(2) and these Standards, as described
in Section D-15. … An appraiser may be selected and retained by either
party to the proposed exchange, as long as the appraiser is qualified.” Sec.
D-7.

12.     “If an appraiser is retained by a private party to prepare an
appraisal for federal land exchange purposes and the client issues an
instruction to the appraiser to make an extraordinary assumption or to
adopt a hypothetical condition in the conduct of the appraisal which would
conflict with the exchange regulations, or these Standards, the appraiser
must advise the client of the conflict. … the appraiser [may] make the
assumption or adopt the condition in conducting the appraisal … but must
clearly identify the assumption and/or condition in the appraisal report”
Sec. D-7.

21
     For instance, the appraiser instructions discussed in Section D-1c could, with proper
     disclosure, be classified as a hypothetical condition rather than requiring the invocation
     of the Jurisdictional Exception Rule.
22
     36 C.F.R. 254.3(a). See also 43 C.F.R. 2200.0-6(a).
23
     See, e.g., Desert Citizens Against Pollution v. Bisson, 231 F. 3d. 1172 (9th Cir. 2000).

            The Appraisal Foundation Report to the
            U.S. Department of Interior, Office of the Inspector General
            May 28, 2004
                                                                                       Page 26
13.     “A review of the agency’s appraisal review should next be
undertaken, with particular note being made of any technical or factual
errors reported by the review appraiser.” Sec. D-9.

14.    The functions of negotiating, appraising, and appraisal reviews are
separate functions. Sec. D-9.

15.    “[A]ny indication that the property owner has accepted the price
paid with the understanding that the agency will support (or, at least not
oppose) the property owner’s attempt to take a tax write-off for a donation
for some amount in excess of the actual price paid should be noted. A
determination should be made whether the property owner or the owner’s
representative submitted an appraisal or any meaningful market data to the
agency that may have supported a value higher than the government’s
appraisal and the agency’s subsequent determination to pay more than its
appraisal. If so, the submitted material should be reviewed and analyzed.”
Sec. D-9.

16.      “A reading should be conducted of any correspondence from the
property owner’s political representatives, and the agency’s response
thereto, to determine whether there may have been undue non-market
pressure to consummate a sale at something other than market value. A
reading should also be conducted of any newspaper clippings that may be
in the file, to determine whether there was an undue amount of public
pressure on the agency or the property owner to consummate a quick sale.
Such public pressure can result in a price that is above or below the
market value of the property.” Sec. D-9.

Minerals appraisal provisions.

1.      “If the parcel under appraisal includes water rights, minerals, or
suspected mineral values, fixture values, growing crops, or timber values,
the treatment of their contributory value should be discussed, including
the methodology employed to avoid the forbidden summation or
cumulative appraisal.” Sec. A-10.

2.      “The total value of the property shall not be estimated by adding
the values of such separate items to the value of the land, and the fact that
the various items are in separate ownerships does not alter this rule.” Sec.
B-2.

3.      “The mere possibility of the existence of minerals, oil, or gas is not
sufficient to affect market value.” Sec. B-2.


        The Appraisal Foundation Report to the
        U.S. Department of Interior, Office of the Inspector General
        May 28, 2004
                                                                       Page 27
4.      “Even when valuing that type of property where there are an
adequate number of comparable sales available with which to develop an
indication of market value, the sales comparison approach to value must
also be developed and considered by the appraiser in arriving at a final
value opinion.” Sec. B-7.

5.     The previous statement “…does not mean, however, that the
various factors utilized by an appraiser can be used without justification
and adequate market support.” Sec. B-7.

6.     “For these reasons, appraisers utilizing the income capitalization
approach in the valuation of property for federal acquisition are
encouraged to make rate selections by comparison, as discussed in Section
A-18.” Sec. B-7.

7.     “In using the income capitalization approach, care should be taken
to consider only income that the property itself will produce—not income
produced from a business enterprise conducted on the property.” Sec. B-
7.

8.      “In these situations, business volumes may be considered but with
the sole reference to the market value of the land.” Sec. B-7.

9.     “The value to be estimated is the market value of the property as a
whole, not the value of the various interests into which it may have been
carved. This topic is discussed in greater detail in Section B-19.” Sec. B-
7.

10.     “It is generally recognized that it is improper to appraise the
market value of a property, for federal acquisition purposes, by
capitalizing the net income from a non-existent, hypothetical improvement
proposed as the highest and best use for the subject land, and then
deducting for development costs of the hypothetical improvement.” Sec.
B-7.

11.    “Property having a highest and best use for mineral production
may be appraised by an income approach. … this can be a highly
speculative appraisal method that must be used with great care.” Sec. B-7.

12.     “The market value concept adopted by the courts to be applied in
federal acquisitions generally requires application of the so-called unit
rule. … Property [must] be valued as a whole rather than by the sum of
the values of the various interests into which it may have been carved.”
Sec. B-13.


        The Appraisal Foundation Report to the
        U.S. Department of Interior, Office of the Inspector General
        May 28, 2004
                                                                       Page 28
13.     “The whole property or unit valuation remains applicable even
where the ownership is divided between such inherently diverse interests
as surface rights and timber rights or surface and mineral rights. That
does not necessarily mean, however, that the independent values of the
various interests are not admissible in a condemnation trial; but if they are
admitted it is for the sole purpose of aiding the trier of fact in fixing the
value of the property as a whole. Likewise, it is not inappropriate for
appraisers to consider the independent values of the interests, but again,
only for the purpose of better estimating the market value of the whole
property.” Sec. B-13.

14.    “A second aspect of the unit rule is that different elements or
components of a tract of land are not to be separately valued and added
together.” Sec. B-13.

15.     “A landowner in dealing with a parcel of land on which there is a
mineral, timber or like substance may not introduce expert testimony by
which the expert multiplies the gross material present by the market value
per unit thereof and thereby arrive at a figure which purports to be fair
market value for the parcel.” Sec. B-13.

16.      “In the development of an appraisal concerning mineral properties,
it is particularly important to understand the unit rule.”24 Sec. D-11.

17.     “Highest and best use analysis is another critical element in the
development of a reliable mineral property appraisal. Such a report must
contain a well supported and documented market analysis that clearly
establishes whether or not there is adequate market demand for the
minerals located on the property. The market analysis should provide the
underpinning for the appraiser’s conclusions regarding the marketability,
price, and competition for the mineral commodity found on the property.”
Sec. D-11.

18.     “If no market exists for the commodity, then the expensive and
time-consuming determination of the quantity and quality of the minerals
on the property is unnecessary. If a market exists for a mineral, then a
supportable determination must be made concerning both the legal
permissibility of extracting the mineral and the physical characteristics of
the minerals located on the property.” Sec. D-11.

19.    “Before the adoption of these studies, it is the professional
responsibility of the appraiser to thoroughly review and understand the

24
     See United States v. 91.90 Acres of Land, 586 F.2d, 79, 87 (8th Cir. 1978), cert.
     denied, 441 U.S. 944 (1979).

            The Appraisal Foundation Report to the
            U.S. Department of Interior, Office of the Inspector General 

            May 28, 2004 

                                                                                         Page 29
reports prepared by other experts and adopt them only if the analysis and
conclusions were prepared according to appropriate standards, are sound,
and are adequately supported.” Sec. D-11.

20.      “Under the [consistent use theory] concept, the “land cannot be
valued on the basis of one use while the improvements [or minerals] are
valued on the basis of another.25 … However, if the mineral deposit were
oil, a concurrent use of the surface for grazing purposes would not, in
most instances, be a violation of the consistent use theory.” Sec. D-11.

21.     “[E]lements of sales of quite distant properties, even those with
different mineral content, may be comparable in an economic or market
sense when due allowance is made for variables.” Therefore, it is
unacceptable for an appraiser preparing an appraisal under these Standards
to simply state that there are no comparable sales transactions without
providing adequate support for the conclusion.” Sec. D-11.

22.     “The income capitalization approach to value is also a valid means
for estimating the market value of mineral properties, but should never be
used exclusively if comparable sales are available for use in the sales
comparison approach. The income capitalization approach can be
especially applicable when the property under appraisal is already being
mined, and thus the historical income stream from the property is
available for analysis.” Sec. D-11.

23.     “The income that may be capitalized is the royalty income, and not
the income or profit generated by the business of mining and selling the
mineral.” Sec. D-11.

24.     “DCF analysis has been recognized by the courts as an appropriate
method of valuation to be employed in the valuation of mineral
properties.26 In conducting DCF analysis, the appraiser must avoid
estimating a property-specific investment value to a particular owner
instead of estimating the market value of the property if it were placed for
sale on the open market.” Sec. D-11.

25.    “In developing an estimated income stream, the proper royalty rate
can be derived from comparable mineral lease transactions, and the
mineral unit price to which the royalty rate is applied may be derived from
appropriate market transactions. The annual amount of production and the

25
     The Dictionary of Real Estate. Appraisal Institute. Chicago, IL. 1993. p. 72.
26
     Whitney Benefits v. U.S., 18 Cl. Ct. 394, 408 (1989); Foster v. U.S., 2 Cl. Ct., 426,
     448-449 (1983).

            The Appraisal Foundation Report to the
            U.S. Department of Interior, Office of the Inspector General 

            May 28, 2004 

                                                                                      Page 30
number of years of production are more difficult (and speculative) to
estimate, and require as a minimum not only physical tests of the property
to determine the quantity and quality of the mineral present, but also
market studies to determine the volume and duration of the demand for the
mineral in the subject property.” Sec. D-11.

26.     “[T]he application of various statistical techniques is not a
substitute for discount rate selection derived from and supported by direct
market data, which is the preferred and most widely accepted approach.”
Sec. D-11.




        The Appraisal Foundation Report to the
        U.S. Department of Interior, Office of the Inspector General
        May 28, 2004
                                                                       Page 31
                 Section 2
                 Analysis of Materials Received from OIG


Introduction 	   The Foundation’s Scope of Work was based primarily upon a review of
                 materials furnished by the OIG. These include:

                 1.      U.S. Department of the Interior, Minerals Management Service, Gulf
                 of Mexico Region, Office of Resource Evaluation, New Orleans, Louisiana.
                 [ ]. Evaluation of Collier Resources Company’s Mineral Estate in Big
                 Cypress National Preserve. March 1, 1996. (Administratively Confidential-
                 For U.S. Government Use Only.) Prepared by MMS solely to support U.S.
                 Government negotiations related to a proposed land exchange involving
                 Collier Resources Company’s interest in the mineral estate in Big Cypress
                 National Preserve and contains restrictions against disclosure or other use.

                 2.     U.S. Department of the Interior, Minerals Management Service, Gulf
                 of Mexico Region, Office of Resource Evaluation, New Orleans, Louisiana.
                 [ ]. Evaluation of Collier Resources Company’s Mineral Estate in Big
                 Cypress National Preserve and the Florida Panther National Preserve.
                 October 27, 2000.

                 3.      U.S. Department of the Interior, U.S. Geological Survey. [        ]
                 Undiscovered Oil and Gas in the Big Cypress National Preserve – A Total
                 System Assessment of the South Florida Basin, Florida. Open File Report 00-
                 317. Denver, CO. 2000. (Preliminary and not reviewed for conformity with
                 the U.S. Geological Survey editorial standards or with the North American
                 Stratigraphic Code.

                 4.     Grace, John D., Ph.D. ESA (Earth Sciences Associates). Letter
                 Report. Long Beach, CA. April 22, 2002.

                 5.      General Accounting Office. Land Exchange – New Appraisals of
                 Interior’s Collier Proposal Would Not Resolve Issues. GAO/GGD-88-85.
                 Washington, D.C. May 1988.

                 6.      Report, Chief, Geologic Resources Division, Natural Resource
                 Program Center to Director, Natural Resources Stewardship and Science,
                 Special Assistant to the Director – 20 August 2000.

                 7.      Memo, [ ], Acting Assistant Secretary, Water and Science and [ ],
                 Acting Assistant Secretary, Fish and Wildlife and Parks, to [ ], Assistant
                 Secretary, Land and Minerals Management, September 25, 2000.



                         The Appraisal Foundation Report to the
                         U.S. Department of Interior, Office of the Inspector General
                         May 28, 2004
                                                                                        Page 32
                   8.     Memo, November 21, 2001, [ ], Associate Director, Natural
                   Resource Stewardship & Science to Joseph Doddridge, Acting Assistant
                   Secretary, Fish & Wildlife and Parks.

                   9.     Staff email, Barry Dickerson, February 20, 2002 and response of [the
                   former Deputy Regional Supervisor, Resource Evaluation Division, Offshore
                   Minerals Management], February 21, 2002.

                   10.    Staff Memo, unnamed person, February 22, 2002.

                   11.    Staff email, Barry Dickerson, February 22, 2002 and response of [the
                   former Deputy Regional Supervisor, Resource Evaluation Division], February
                   22, 2002.

                   12.    Staff email, redacted and unnamed person, March 1, 2002.

                   13.      Various Public Laws and elements of legislative history pertaining to
                   these laws. Also included were documents that were either used, or proposed
                   for use, in the Collier exchange of Florida lands for the Phoenix Indian School
                   Property in Phoenix, Arizona.

                   14.     Appraisals of Collier land interests that, we believe, were considered
                   by the General Accounting Office in the above referenced GAO report.

                   15.    Collier Resources Company’s Confidentiality Agreement, which
                   appears at Appendix 2 of the 2000 MMS report.

                   The following review comments are not exhaustive, but illustrate observations
                   the Foundation team made during its reviews.


Comments on         1.    MMS 1996 Report
Materials Furnished
by the OIG                a.        The “Notice” at front of this report is an important
                                    disclosure. It states that the report is an “evaluation,” and
                                    subsequent presentations indicate that it was not a market
                                    value appraisal. The rights to be acquired are probably the
                                    “Collier Resource Company’s interests,” but for valuation
                                    purposes a more precise statement is necessary somewhere
                                    in the report. Also not disclosed are (a) why the privately
                                    furnished information was relied upon; (b) the extent to
                                    which such information was relied upon; (c) what
                                    validation was applied to assure that the federal analysis
                                    was objective and independent; (d) a more straightforward
                                    disclosure of the highly speculative nature of undiscovered

                           The Appraisal Foundation Report to the
                           U.S. Department of Interior, Office of the Inspector General
                           May 28, 2004
                                                                                           Page 33
         minerals; and (e) the fact that the analyses performed are
         primarily mathematical exercises based upon subjective
         premises. There was no apparent attempt to seek some
         form of market information that would permit a market
         value analysis for the rights to be valued, even for
         validation purposes. There is an absence of any
         appropriate economic feasibility analysis.

b. 	     To meet either USPAP or UASFLA requirements for an
         appraisal, the report must meet a series of tests that the
         MMS reports fail:

         (1) 	    Set forth a clear and accurate statement of the
                  appraisal in a manner that will not be misleading.
         (2) 	    Contain sufficient information to enable the
                  intended users of the appraisal to understand the
                  report properly.
         (3) 	    Clearly and accurately disclose any extraordinary
                  assumption, hypothetical condition, or limiting
                  condition that directly affects the appraisal and
                  indicate its impact on value.
         (4) 	    State the identity of the client and any intended
                  users, by name or type.
         (5) 	    State the intended use of the appraisal.
         (6) 	    Describe information sufficient to identify the real
                  estate involved in the appraisal, including the
                  physical and economic property characteristics
                  relevant to the assignment.
         (7) 	    State the real property interest appraised.
         (8) 	    State the purpose of the appraisal, including the
                  type and definition of value and its source.
         (9) 	    State the effective date of the appraisal and the date
                  of the report.
         (10) 	   Describe sufficient information to disclose to the
                  client and intended users of the appraisal the scope
                  of work used to develop the appraisal.
         (11) 	   State all assumptions, hypothetical conditions, and
                  limiting conditions that affected the analyses,
                  opinions, and conclusions.
         (12) 	   Describe the information analyzed, the appraisal
                  procedures followed, and the reasoning that
                  supports the analyses, opinions, and conclusions.
         (13) 	   State the use of the real estate existing as of the date
                  of value and the use of the real estate reflected in
                  the appraisal; when the purpose of the assignment is

The Appraisal Foundation Report to the
U.S. Department of Interior, Office of the Inspector General
May 28, 2004
                                                                   Page 34
                market value, describe the support and rationale for
                the appraiser’s opinion of the highest and best use
                of the property. [Note generally accepted valuation
                principles requirements for an opinion of highest
                and best use.]
         (14) 	 State and explain any permitted departures from
                specific requirements of USPAP Standard 1
                concerning reporting and the reasons for excluding
                any of the usual valuation approaches.
         (15) 	 Include a signed certification in accordance with
                USPAP Standards Rule 2-3 concerning reporting of
                values.

c. 	     The Background for the Executive Summary is, at best,
         incomplete. It indicates that MMS requested additional
         information from CRC, but does not indicate whether such
         data were received. Both the nature of the data and
         whether or not it was received are important because of the
         apparent lack of MMS validation of CRC information upon
         which MMS relied. Extensive contact between MMS and
         CRC is disclosed, but the objectivity and independence of
         MMS analyses are left in question. References to MMS’
         visit to Houston do not disclose that CRC’s proprietary
         data are expressly not warranted by CRC. Instead of
         identifying valuation parameters and how they were
         handled, the recitation indicates that a standards
         conforming appraisal was not performed, and raises
         significant questions as to whether the reported results were
         the opinions of MMS or those of CRC.

e. 	     The Exploration History provides a general summary of
         activity, but its description would be more appropriate if it
         more clearly summarized market attitudes towards the
         likelihood of economically feasible production. As
         presented, the material reflects some engineering
         information but does not relate it to a basis that can be used
         for real property valuation. If discoveries would constitute
         “a breakthrough for the basin,” it would seem that the
         market does not expect them to occur. This level of
         implicit speculation pervades the entire report, but is never
         fully dealt with by MMS in factual or market terms.

e. 	     The General Modeling Approach mentions “CRC’s net
         mineral estate interests,” but does not define the term. This
         becomes a crucial shortcoming because it later develops

The Appraisal Foundation Report to the
U.S. Department of Interior, Office of the Inspector General
May 28, 2004
                                                                Page 35
         that the report never made specific identification of the real
         property rights involved in the proposed exchange. We
         understand that UASFLA and U.S. laws generally would
         prohibit compensation for business interests without
         Congressional approval. This report does not make
         sufficient distinctions to allow readers to recognize the
         difference between real property or business elements or to
         calculate their differing impacts upon the “value” to be
         used for exchange purposes. The last two sentences of the
         lead paragraph in this section are particularly revealing of
         high speculation when they say that volumes are tested as
         they “may occur in nature” and incorporate chance that
         they may not exist and/or that they may not be economic to
         produce. From the information presented, it would appear
         more appropriate to disclose that models should be viewed
         as speculative probabilities that the minerals do exist and
         that, if they exist, they would be economic to produce.

         There is a statistical probability that a meteor will fall on a
         particular building at some time, and even that it will hit
         the building at a given time. Should we vacate the building
         at the appointed time, or should it be generally abandoned,
         because there is some probability of disaster? This is the
         flip side of saying that there is some probability that
         economically feasible of production minerals exist where
         oil and gas have not yet been discovered. One may argue
         the percentages to be used for probabilities, but each is
         only speculation until there is some form of evidence. This
         is why the lack of market information as to how real
         property rights would be valued given these probabilities is
         a fatal flaw of this report, even if oil and gas are
         discovered later.

         The minerals industries have generally accepted norms in
         mineral evaluations, but the analyses primarily apply at the
         entire business or industry levels. Real property issues
         require local market data and property-specific
         considerations. Note that even the last paragraph on page v
         discusses uncertainty in the absence of factual information,
         but the level of discussion focused on production fails to
         recognize that it is market behavior related to these
         uncertainties that is to be used in market valuation.

         Monte Carlo simulation can be a powerful decision tool,
         but it is not a generally accepted valuation tool for

The Appraisal Foundation Report to the
U.S. Department of Interior, Office of the Inspector General
May 28, 2004
                                                                 Page 36
         developing a market value opinion. The discussion on
         page vi is considered misleading in a market value context.
         The considerable extent of speculative assumptions that are
         necessary to analyze undiscovered oil and gas do not
         change speculation from being speculation, even if
         mathematical processes are “objective.” MMS has stated
         that CRC provided inputs for, and perhaps participated in,
         the analyses, but has not stated (or demonstrated) that THIS
         market has participants that would use the same Monte
         Carlo (or other analysis) inputs or rely upon the results in
         the way they were produced by MMS.

f. 	     The evaluation’s results are summarized beginning on page
         vii, which begins by saying that “45 prospects that were
         adequately supported…” formed the basis for their
         evaluation. “Prospects” are defined in a footnote as, “an
         untested geologic feature having the potential to be an oil
         or gas field.” What is “adequate support” for something
         that is “untested?” Yet the term “prospects” denotes some
         degree of likelihood that belies the speculative nature of
         what is being analyzed.

         On the same page, a diagram illustrates “Risked
         Recoverable Oil.” The mean value of 139 million barrels
         of oil is shown to have a standard deviation of about 122
         million barrels. The text does not explain that in terms of
         statistical significance, there is a 2/3 chance that the
         calculation represents a range of 17 million to 461 million
         barrels. At the 95 percent probability the range is minus
         105 million barrels to 383 million barrels. This is the “risk
         adjusted” result. Again, the valuation question is, what
         would the market do under these circumstances—if it
         agreed with the numbers to begin with?

         The term “risk adjusted” is not defined and is misleading
         in this context. There has been no discussion of permitting
         and licenses, EIS studies, exploration, discovery, drilling,
         completion, production, transportation, marketing, pricing,
         market changes, technological changes, or the like, so the
         term may be understood “in house,” but USPAP standards
         require that the report be understandable by its intended
         users.

         There is no attempt on our part to say that Monte Carlo or
         other statistical models cannot or should not be used in the

The Appraisal Foundation Report to the
U.S. Department of Interior, Office of the Inspector General
May 28, 2004
                                                                Page 37
         evaluation of oil and gas prospects, resources, or reserves.
         We do say, however, that they cannot substitute for the
         “market” of market value. Statistical models should aid in
         describing and simulating market behavior, not as a
         substitution.

         The “Net Present Worth” calculations are not capable of
         review because they are not presented in this report. Only
         portions are shown, and those depend upon generalizations
         and absences of input disclosures that are necessary to
         generate net cash flow forecasts. In any event, MMS
         appears to ignore the fact that it is real property that is to be
         valued, not a business. If all cash flow forecasts were
         properly generated, they would still be speculative and
         there is a significant issue related to the extent of risks that
         were considered, let alone properly dealt with.

         A lack of independence, and likely loss of objectivity, is
         evidenced in MMS’ handling of the issue of a tax-free
         exchange. A tax-free exchange could only benefit the
         particular owner of the property, but would not be
         available to another party except as a matter that is
         external to the valuation of these particular interests. This
         clearly violates the definition of market value and should
         not be a factor in this analysis.

         The Table on page ix is misleading by its insertion in the
         Executive Summary. (See discussion above relating to
         “risked recoverable oil.”)

g. 	     Page 28 begins a discussion of the assessment of MMS’
         data and analyses by MMS. The explanation candidly
         discloses that there was no consideration of the economic
         viability of what they hypothesized to be “discovered
         volumes.” Less candid is the implicit fact that they are
         dealing with hypotheses as to minerals that are not yet
         discovered. Monte Carlo cannot change facts – it can only
         deal with their speculations and hypotheses.

h. 	     A discussion of PRESTO V (modeling system) inputs is
         contained on pages 33 through 35. We will not critique
         line items individually, but we can succinctly report that we
         did not find explanations that indicate that MMS conducted
         the necessary research to quantify many of the inputs and
         none are included with their report. It can be seen,

The Appraisal Foundation Report to the
U.S. Department of Interior, Office of the Inspector General
May 28, 2004
                                                                   Page 38
         however, that several areas of risk or uncertainty mentioned
         above are not shown as parts of their model.

i. 	     The bottom of page 38 and top of page 39, dealing with
         economic presumptions, are especially troubling. First are
         the close participation of CRC in the calculations and the
         lack of evidence of MMS’ research or validation efforts.
         Second is that MMS processed the entire speculative
         income stream rather than to focus on a valuation or
         evaluation of the rights that are compensable. Third is that
         no attempt has been made to relate the cash flow
         projections to any reasonable market basis. And fourth,
         MMS uses a 7-percent discount rate to value the entire
         business income for oil and gas that is not even known to
         exist. This is an inordinately low discount rate for the risks
         involved and serves to inflate the value indication.

         USPAP contains a “Competency Rule” as follows: “Prior
         to accepting an assignment or entering into an agreement to
         perform any assignment, an appraiser must properly
         identify the problem to be addressed and have the
         knowledge and experience to complete the assignment
         competently.” There are specified means by which
         competency may be attained. The MMS report clearly fails
         to meet the USPAP competency rule as a real property
         valuation matter.

j. 	     From a standpoint of the public trust, we are concerned
         about Evaluation Results, discussion of which begins on
         page 39. Conclusions include a discussion of economically
         recoverable resources, which should as a minimum have
         been termed “hypothetical recoverable resources deemed to
         be economic for production” or words to that effect.
         Instead, the discussion is misleading because it attempts to
         justify the results as a valid indication of some form of
         value, but has failed to produce an indication of market
         value of the real property rights involved. This attempt at
         explanation or justification raises serious questions related
         to the competency and objectivity/independence
         requirements for appraisers.

k. 	     The statement of conclusions beginning on page 42 should
         by itself tell a reader that, even without the necessary
         market data by which to judge the analysis, the conclusions
         were highly speculative and intuitively unsupported.

The Appraisal Foundation Report to the
U.S. Department of Interior, Office of the Inspector General
May 28, 2004
                                                                Page 39
         Fourteen oil fields had been discovered over more than a
         half-century in the South Florida Basin, but only one for
         the last 11-years and that was a minor field. The modest
         level of geological and geophysical exploration activity in
         “recent years” had poor results, and were accompanied
         with market concerns about politics and the environment.
         Collectively these “dampened industry enthusiasm.”
         Dampened industry enthusiasm may be the closest the
         MMS came to a market analysis, but in USPAP terms is
         insufficient to reliably conclude that the market would
         proceed with a purchase of CRC’s rights at a mean value
         of $155-million to $221-million.

l. 	     Page 45 contains a mention of differences in the “specific
         geologic states of nature.” The focus should have been on
         differing results from analyses that were deemed
         sufficiently valid to merit representation and discussion in
         the MMS report. The mention of these states of nature is
         endemic to the entire report in that it substitutes either
         scientific or pseudo-scientific jargon where fact and proper
         analyses are required. Here, there is no reconciliation of
         the differences in the models. Had a reconciliation been
         applied, the MMS might have found that they failed a
         series of market value and related appraisal requirements,
         including failure to identify the rights that were to be
         appraised.

m.	      The 1996 MMS report is not a market value of CRC’s real
         property rights and is misleading because it offers either
         an opportunity to be misleading or to foster abuse where
         market value principles are to be applied.

n. 	     As the 1996 MMS report was written it is essentially
         unreviewable as an appraisal report and should not be
         taken to be an appraisal of real property rights in any
         context of which we are aware. In the context of appraisal
         standards, it does not meet the standards in sufficient
         fashion to be judged as an appraisal, but we can conclude
         that the absence of a proper review process in which the
         report’s lack of qualification as a standards-compliant
         appraisal would be discovered is a serious organizational
         and operational error.

o. 	     The Appraisal Foundation’s report in the BLM study
         recommended that minerals appraisers be moved to the

The Appraisal Foundation Report to the
U.S. Department of Interior, Office of the Inspector General
May 28, 2004
                                                               Page 40
                BLM’s appraisal staff. The MMS report is a prime
                example of why this move is so critically needed.

2. 	   MMS Report – 27 October 2000

       a. 	     Three of the four authors were coauthors of the 1996 MMS
                report discussed above.

       b. 	     A significant policy question exists in the Notice statement.
                If such policy exists it may be at odds with USPAP and
                UASFLA. This Notice indicates that the report is based in
                part on confidential information that is not in the public
                domain. The policy question is, can or should an appraiser
                (or other analyst) meet ethical and performance standards
                by agreeing to use information furnished by a participant
                in a land acquisition or exchange without offering
                opportunity for the public to have access to this
                information at least subsequent to the accomplishment of
                the transaction/exchange.

                This issue becomes especially important when assertions
                such as those made in the preceding Memo become a part
                of the process and when the information furnished by the
                private party is apparently not verified by the use of
                appropriate market information. Under the ethical rules of
                USPAP and the related requirements of UASFLA, such a
                confidentiality agreement places both an appraiser and an
                appraisal reviewer in the position where certain of the
                agreements may not be capable of verification or validation
                because of the terms of “confidentiality.” In this instance
                we have no evidence that a competent and experienced
                mineral interest real property appraiser was ever involved.

       c. 	     The preceding question is made even more relevant when
                the confidential non-public data provided by the private
                party is proffered under the statements made in Appendix 2
                to this report, CRC’s Confidentiality Agreement, which the
                U.S. executed. In addition to obvious questions of
                propriety and possible abuse of public trust, this situation is
                also subject to CRC’s explicit statement, “CRC makes no
                warranty, expressed or implied, as to the accuracy,
                correctness or completeness of the above listed proprietary
                data.” (Appendix 2) This raises the question of why the
                agreement would be signed in the first place if the data
                could or would not be warranted.

       The Appraisal Foundation Report to the
       U.S. Department of Interior, Office of the Inspector General
       May 28, 2004
                                                                        Page 41
d. 	     This MMS report’s Notice, unlike the previous MMS
         report, contains the words “might be generated,” giving
         some indication of its speculative character. It also states
         that the MMS report does not represent an estimate of
         possible fair market value. Also new is the recognition of a
         difference between business income and real property
         income. The NPS advisory upon which this report is in
         part conditioned appears headed a correct direction, but
         was either confused or garbled in the translation. MMS
         says they are to develop estimates of potential royalty
         receipts, “but not bonuses or annual rental payments.”
         Royalties may be paid in a form of rentals, so this
         statement is unclear.

         It should be emphasized that the appraisal development of
         market value of real property rights for mineral interests is
         not developed from final adjustments to geological and/or
         geophysical studies. Technical minerals studies are a part
         of the appraisal, but the appraisal must incorporate a
         complete understanding of these studies as an element of
         the appraisal if such studies are to be incorporated into
         required market analyses and quantifications. Simply said,
         the professional appraisal is not an appendage to minerals
         studies.

e. 	     An early MMS report reader question is whether the
         current report is a new report or an update of the previous
         MMS report. Although page 1 states that this report
         “represents a complete re-evaluation of the area,” and the
         report contains new considerations that attempt to deal with
         real property rather than business incomes as its focus, the
         report is clearly an update. The MMS dependence upon
         CRC data and opinions embodied into the earlier report
         was carried forward to 2000 report to a substantial extent,
         rendering the claim of a complete re-evaluation
         misleading.

f. 	     Background comments in the Executive Summary suggest
         that the MMS did not seek important market data either for
         primary analysis or for validation of information given to
         them by the NPS, CRC, or any other sources. The absence
         of market data renders this report a continued mathematical
         exercise that is without market support. As such, the 2000
         MMS report cannot be used directly in market valuation;

The Appraisal Foundation Report to the
U.S. Department of Interior, Office of the Inspector General
May 28, 2004
                                                                Page 42
         significant additional research, analysis, and validation
         are necessary in an appraiser were to use this work and to
         rely upon it in developing a market value opinion.

g. 	     As stated in the final paragraph of the Background
         statement (page 1), the MMS updated its geologic models.
         As a practical matter, this simply changes the speculation
         and hypotheses constructs to an undefined extent.

h. 	     It is disappointing that, given an opportunity to update its
         previous report with one that could stand robust and
         appropriate review, the MMS chose to use such
         explanations as the following, appearing at the bottom of
         page i: “A very modest level of geological and geophysical
         exploration has continued in the area in recent years;
         however, the combination of generally poor results and
         political and environmental concern has dampened
         enthusiasm. The majority of the fields and reserves were
         discovered between 1964 and 1978….” Although a similar
         statement was made in the earlier study, four years have
         passed and there should be opportunity to explain any new
         discoveries, the extent of exploration, and other area-
         specific activities during the elapsed time. We do not know
         what “modest” is and the remainder of the explanation is
         dated and too general for detailed understanding. Most
         importantly, these disclosures do not dampen the
         enthusiasm of the MMS later in the report in reporting
         economic projections as though an assumed market would
         pay some millions of dollars for their speculations as to
         royalty potentials related to undiscovered oil and gas.

i. 	     The last paragraph of the Introduction section on page ii
         discusses application of the PRESTO V model. We
         consider the statement, “These volumes are tested as they
         may occur in nature” misleading; the volumes “tested”
         cannot be physically tested because they are not known to
         physically exist. The structure of the sentence followed by
         a statement that “these hydrocarbon resources may not
         exist…,” admits that they are speculative without saying
         so, but a typical reader is likely to take this as a softening
         of a fact of the existence of hydrocarbons rather than the
         basis for how hypothetical notions were mathematically
         processed.



The Appraisal Foundation Report to the
U.S. Department of Interior, Office of the Inspector General
May 28, 2004
                                                                 Page 43
j. 	     The first sentence of the Results summary (page ii) refers
         to “CRC’s non-producing net mineral interest….” This is a
         continuation of language in both of the MMS reports that
         implies the existence of minerals to be produced and that
         they are simply not being produced at the time of the
         report. This is not a nit-pick inference; it is an example of
         how the speculative and hypothetical nature of
         undiscovered oil and gas is played down by first granting
         that the authors cannot be 100-percent sure that minerals
         are present, and then proceed to use mathematical models
         that assume a probability that they do exist.

         At best this report deals with a factual unknown: no one
         knows that economically viable oil and gas exists on the
         real estate to which CRC’s mineral interests apply. Once a
         geologic and geophysical study is independently and
         objectively completed, and some form of acceptable
         speculation is defined (the term “speculation” is a term of
         art in exploration for mineral interests), a qualified real
         property appraiser with minerals training and experience
         can then perform market research to see what price, if any,
         the market would pay for the speculation. If sufficient
         information can be gathered to support the estimate, an
         opinion of market value can then be developed and
         expressed in accordance with USPAP and UASFLA
         standards. This is not what happened in this MMS report
         or in any of the other reports analyzed by the Foundation.

k. 	     We continue to question the assertion that MMS
         “distribution of estimates are “fully risked” from a
         valuation perspective. (Results, page ii) As we stated for
         the earlier MMS report, there is no indication that all issues
         of importance from a valuation perspective have been
         considered. Second, to the extent that each risk item has
         been “fully risked,” there is a question as to how that
         process was performed and supported. What the MMS
         does not appear to understand, there is risk in the risking
         exercise itself, which must be fully understood before a
         market value opinion can be developed. Analytical
         concepts, software programs, and analysis inputs vary from
         analyst to analyst. The MMS is badly mistaken if they
         believe without support that their analyses, the CRC
         analyses, or a combination, necessarily express market
         behavior as expressed in the market value definition.


The Appraisal Foundation Report to the
U.S. Department of Interior, Office of the Inspector General
May 28, 2004
                                                                 Page 44
l. 	     The second paragraph of the Executive Summary’s
         Background section led us to believe that this update report
         was independent of the earlier reliance upon CRC and its
         confidential data. This reading proved to be incorrect
         when we read the Background section that begins on page
         1 of the report. Here we learn that CRC has new data that
         has been supplied to the MMS and that they had met with
         CRC and its consultants to discuss matters of importance to
         the update report. This continues to provide grounds for
         questioning the independence and objectivity of the report,
         particularly as it is expressed. The MMS statement on
         page 2 that they began a completely independent
         reevaluation of the area seems to contradict the statement
         that they relied upon CRC’s “additional information.”

m.	      The update report discusses more historical detail about oil
         exploration and geological or geophysical considerations
         than the original report. Although some specific references
         such as US Capital Energy’s re-entry in the original
         discovery well in the lake Trafford field resulted in a
         “modest production test,” we are not given the particulars
         of this activity, when it occurred, or even what a modest
         production test means when the MMS is still dealing with
         hypotheses and speculation. We question why issues such
         as the extent of production from the cited fields was not
         discussed in a way that provided some basis for judgment
         as to whether the fields may have been substantially
         depleted, whether secondary or other recovery means might
         be economically feasible, and the relationship between
         these issues and the speculative issues dealt with by MMS.

n. 	     A graph appears on page 4 as Figure 3. Discussion
         indicates that it purports to show a mean field size of 19.4
         million barrels. Elementary statistics would indicate that
         only three of the fields were any notable distance were
         above the trend line. Four were relatively close to the trend
         line. The remaining seven fields showed no (4) or minimal
         (3) reserves. Use of a mean is a misleading indicator given
         these data and the existence of at least one significant
         outlier. Objective analysis of this report would raise a
         question as to how the MMS applied statistical concepts in
         other areas of their statistical analyses. However, we
         know of no true review of the MMS report that was
         performed.


The Appraisal Foundation Report to the
U.S. Department of Interior, Office of the Inspector General
May 28, 2004
                                                               Page 45
o. 	     We are at a considerable loss of understanding as to why
         MMS felt it was appropriate to rely on CRC information
         for their analysis, absent direct orders from DOI officials
         to do so. It appears that an independent and objective
         analysis would have first proceeded without the CRC
         information, but with more research performed by the
         MMS. Once the MMS had its own preliminary indications,
         they could then process the models including CRC
         information. In any event the issues that CRC may have
         suggested (such as the impact of tax free exchange
         considerations and the use of full business income) should
         have been discarded and an attempt to validate information
         supplied by CRC should have been performed. There is no
         evidence that these steps, or this approach, were
         undertaken, raising significant questions of MMS
         independence and objectivity in this matter.

p. 	     The final paragraph on Geological and Geophysical
         Evaluation (page 8) illustrates our concern about the issues
         of independence and objectivity. CRC is identified as a
         source of data analyzed, but there is no evidence that MMS
         took steps to independently verify the information.
         Literature research is an element of such verification, but
         were no other steps even attempted. At the least ANY
         conclusions reached in the report should have referenced a
         condition that the findings are based upon speculative and
         hypothetical assumptions, many of which are based upon
         unwarranted information from CRC, the entity with whom
         the U.S. is dealing in land matters. It is also important to
         note that the MMS did not disclose that the USGS study
         was preliminary, not final.

q. 	     The Sunniland and Deep Basin Formation Plays (pages 12
         and 13) each have high risks associated with the MMS
         discussions, but the MMS reaches a conclusion that “The
         geologic risk for the area encompassed by the proposed
         exchange” is 0.012, or virtual certainty. This conclusion
         appears contrary to the independent data disclosed in their
         report, but is not sufficient explained or discussed to have
         support. This is an intermediate conclusion that would be
         focused upon if a competent review of the MMS report had
         been conducted, but again we know of no such review.

r. 	     The MMS report refers to stipulations explained in the [ ]
         report that have the greatest environmental (natural and

The Appraisal Foundation Report to the
U.S. Department of Interior, Office of the Inspector General
May 28, 2004
                                                               Page 46
         cultural resources) impact on MMS’ minerals evaluation.
         Who [ ] is/was is not explained. Also not explained are
         any changes or confirmations of these stipulations that had
         occurred over the previous nine years. It appears that this
         reference is included to substitute for more detailed
         analyses and determinations such as those that would be
         included in Environmental Impact Statements, applications
         for licenses or permits, or other administrative/regulatory
         requirements that would precede exploration or further
         minerals activities. In any event, we believe that the risks
         and requirements associated with minerals activity
         permissions and entitlements are not satisfactorily defined,
         analyzed, or property concluded.

s. 	     The MMS economic evaluation applies a number of
         “assumptions,” but we are not convinced that all important
         assumptions have been disclosed in the MMS report.
         Regardless, there is no evidence that market data were
         gathered and analyzed to support crucial assumptions upon
         which the conclusions are based.

t. 	     In discussing the Results of their study the MMS cites two
         scenarios that were “tested.” (Page 15) Neither has
         sufficient development to assure that it is independent and
         objective. Further, there is insufficient information to
         either judge which scenario might be the better even if
         either of them were not already speculative and
         hypothetical exercises dealing with undiscovered oil and
         gas. Here again we see the identification of “CRC’s non-
         producing net mineral interest,” rather than a straight
         forward statement of hypothetical exercises conducted on
         speculations of the existence of oil and gas in as yet
         undiscovered areas.

u. 	     From the information presented, we do not understand why
         the 95th percentile results for the two scenarios presented
         by MMS produce nearly equal indications. The related text
         is incomplete and potentially misleading, and the analysis
         should have been more carefully and fully explained.

v. 	     Table 6 (page 16) purports to illustrate the “fully risk
         adjusted” nature of the MMS report, but we see no
         evidence of factual consideration of construction,
         completion, production, transportation, marketing, price,
         and other risk factors that are fundamental elements of a

The Appraisal Foundation Report to the
U.S. Department of Interior, Office of the Inspector General
May 28, 2004
                                                               Page 47
                market value opinion. The absence of these types of
                disclosures not only renders the MMS report as less than
                complete for engineering purposes, but leave the report
                incomplete as a basic document for later appraisal
                analysis. This is only one of many examples of this
                problem.

       w. 	     MMS’ statement that, “Pursuant to the NPS guidance
                concerning Uniform Appraisal Standards, these estimates
                should be augmented by estimates of bonus and annual
                rental receipts that would accrue to the owner of the
                mineral estate,” is unintelligible and it renders the report as
                either misdirected or incomplete on its face. It appears that
                the MMS did not understand UASFLA or USPAP
                requirements, instead appearing to apply the language and
                certain requirements supplied by the NPS as they
                interpreted them.

       x. 	     We conclude that this report includes discussions and
                disclosures that somewhat exceed those of the MMS’
                earlier report, but the report is not sufficient as a document
                that could be confidently or reliably utilized as a report by
                other experts relied upon by an appraiser in performing a
                USPAP or UASFLA conforming market value appraisal of
                real property rights.

3. 	   USGS 2000 Open File Report 00-317

       a. 	     This report states on its face that it is a “preliminary
                report.” At least portions of its content have apparently not
                been reviewed. We have no evidence that the report was
                ever completed in a final form.

       b. 	     Page 4 states that it was the USGS’ mission to apply the
                best geological information and scientific theory available.
                It further states that seismic survey data were not available.
                With these disclosures, the work may be well performed,
                but it is still even more speculative because of the absence
                of data. The end result is still constituted of hypothetical
                opinions about undiscovered oil.

       c. 	     From at least a valuation perspective it is necessary to
                define and distinguish between “resources” and “reserves.”
                Some argue that undiscovered oil and gas do not even


       The Appraisal Foundation Report to the
       U.S. Department of Interior, Office of the Inspector General
       May 28, 2004
                                                                        Page 48
         qualify for the already speculative category of “resources,”
         but certainly do not constitute reserves.

d. 	     Despite the preceding comment, the USGS report includes
         a definition for “undiscovered petroleum resources.” It is
         especially important to any reader of this report, or who
         would rely upon the preliminary report for further analysis,
         to recognize that the USGS definition of undiscovered
         petroleum resources clearly states that the term applies to
         a “theory.” This is further confirmation of the speculative
         nature of the report, even if it is mathematically accurate.

e. 	     Monte Carlo methods such as those used by USGS were
         discussed above. Discussions by the USGS may be
         misleading to lay readers because they imply that because
         two models produced relatively similar results, those
         results must be accurate representations of fact. That is
         not the case. The discussion discloses that resources
         (estimates of actual oil and gas) were made and were used
         in the models. Thus, the models are subject to the accuracy
         of these assumptions and it is possible that the same
         assumptions may have been made as foundations for each
         of the models. Full review of their report was apparently
         not undertaken. Even as a preliminary report, it should
         have considered the sources of data and assumptions
         applied by the USGS, and should have stated any
         verifications that might have been made.

6. 	     Page C2 displays a summary of statistics from the USGS
         Monte Carlo analyses. After 50,000 hypotheses were
         processed, a mean quantity of about 273 million barrels of
         oil was calculated, with a standard deviation of 181-million
         barrels. See discussion of statistical significance above.
         Also note that this exercise was for hypothetical total
         production, but the speculation neither proceeded to a
         royalty level for real property valuation applications nor
         dealt with market attitudes regarding the hypotheses and
         speculations included in the USGS report.

g. 	     This report apparently does not intend to relate to market
         value or be offered as an appraisal. It does not deal with a
         series of economic issues that are crucial to conversion of
         the report’s findings to a framework that can be useful for
         valuation purposes.


The Appraisal Foundation Report to the
U.S. Department of Interior, Office of the Inspector General
May 28, 2004
                                                               Page 49
4. 	   Letter Report from John Grace, Ph.D., Earth Science Associates,
       April 22, 2002

       a. 	     Dr. Grace’s letter indicates that the purpose of his report is
                to analyze the volume of undiscovered oil that may be
                covered by mineral rights associated with “land the
                Department of Interior is seeking to acquire in Florida.”
                He states an overall opinion that the methodology
                employed by the MMS in their analysis was sound and
                correctly applied. Unfortunately, it is not clear whether
                Dr. Grace refers to the MMS estimates of volumes or the
                entire methodology of their report which includes the
                MMS’ estimates of “present worths” of “fully risked
                royalties.” The latter, we believe, is beyond Dr. Grace’s
                established area of expertise.

       b. 	     We note that Dr. Grace disclosed that CRC was involved in
                a conference call with unknown others, but presumably
                representative of the DOI or its agencies, on February 19,
                2002. Although Dr. Grace’s representations of portions of
                this discussion are too general for specific review, they
                establish that there were differences of opinion he was to
                consider. We question why those positions were not stated
                in writing by the MMS and posed to Dr. Grace on an
                independent and objective basis rather than to include him
                in what appears to be a continuing dialog. It appears that a
                portion of the answer to this question may have been
                MMS’ own failure to discriminate between its views and
                those of CRC, as reflected in the 2000 MMS report.

       c. 	     Dr. Grace’s comments about tax treatment for evaluation
                purposes indicates that his point of reference may have
                been on the hypothetical and speculative issues relating to
                the business of oil and gas production rather than a focus
                on a determination of real property market value for the
                CRC interests.

       d. 	     In Dr. Grace’s discussion of theoretical uses of a mean and
                measures of variance, there is no specific mention of means
                and variance of market behavior, only of statistically
                produced model results under the assumptions used in
                engineering and/or geological modeling. Thus, there is no
                linkage that Dr. Grace adds to market determinations.
                Further, Dr. Grace does not mention that model variance
                also indicates a probability range of the distribution about

       The Appraisal Foundation Report to the
       U.S. Department of Interior, Office of the Inspector General
       May 28, 2004
                                                                        Page 50
                the mean which, in this instance, shows that even the
                hypothetical results have a relatively low confidence
                interval for statistically significant reliance upon the
                calculations.

      e. 	      Most of Dr. Grace’s analysis relates to mechanical
                functions of the MMS analysis, differing views expressed
                by CRC, and the general processes applied to volumetric
                quantifications. He does not deal with an analysis of the
                market effects of undiscovered oil and gas, but does state
                that the analyses apply to “undrilled oil.” However,
                statements such as “The net impact on the risked amount of
                oil in place is unknown,” make it appear that he too begins
                with a hypothetical assumption that oil is present even
                though undiscovered and undrilled.

      f. 	      Dr. Grace’s discussions of OCS blocks in the Gulf of
                Mexico between 1951 and 2001 does not contain sufficient
                information for a reader to understand whether the bids
                pertained to oil and gas reserves or to far more speculative
                undiscovered oil and gas that might be comparable to the
                CRC interests. It does not explain changes in markets over
                the 50-year period, changes in technology, new geologic
                and geophysical information that may have been developed
                over time, or how any of these compare with the property
                interests that were the subject of the MMS report. As
                presented, the Gulf of Mexico information is interesting but
                of no significant assistance from our perspective. Dr.
                Grace’s data apparently apply to business income analyses
                rather than the royalty analyses that the MMS report
                correctly states should be the subject of appraisal analysis.
                Further, there is no attempt to compare the technical or
                market issues of the Gulf of Mexico with those of the on
                shore matters pertaining to all of the CRC properties.

5.      General Accounting Office. Land Exchange – New Appraisals of
Interior’s Collier Proposal Would Not Resolve Issues. GAO/GGD-88-85.
Washington, D.C. May 1988.

      a. 	      This report was solicited at the request of the Chairman,
                Committee on Interior and Insular Affairs, House of
                Representatives. The study involved a review of DOI real
                estate appraisals relating to a proposed exchange of the
                Phoenix, AZ Indian School land for approximately 118,000
                acres of land near the Big Cypress National Preserve in

       The Appraisal Foundation Report to the
       U.S. Department of Interior, Office of the Inspector General 

       May 28, 2004 

                                                                           Page 51
                     Florida owned by Collier. The purpose was to determine
                     whether DOI’s real estate appraisals of both properties
                     were reasonable and reliable enough to provide a basis to
                     proceed with the proposed exchange or whether other
                     appraisals would be advisable.

           b. 	      The GAO determined that, despite certain deficiencies in
                     the appraisals for the Florida properties resulting in a
                     possible overvaluation of $3- to $4-million, the magnitude
                     of the transaction did not merit reappraisals of these
                     properties.

           c. 	      The GAO also determined that the two Phoenix appraisals
                     varied because of widely divergent assumptions, but
                     because of the lack of decisions by the City of Phoenix on
                     what it would allow to be built on the site, there was no
                     basis to proceed with the exchange as it was proposed and
                     that new appraisals would not resolve these issues.

           d. 	      Although the GAO report does not discuss the rights
                     appraised, distinguishing between surface rights and any
                     reserved mineral interests, it does state that all three of the
                     appraisers in Florida agreed that the highest and best use
                     of the properties would be for recreational use and
                     speculative holding. “This is because the land is
                     predominantly what a layman would call a ‘swamp’ and
                     has practical as well as regulatory restrictions on
                     commercial or residential development.”27

           e. 	      Without access to all of the Florida appraisals that were the
                     subject of GAO analysis, or others that were performed in
                     connection with right-of-way eminent domain proceedings
                     of Collier properties, we are uncertain as to the extent to
                     which the market value conclusions were based upon
                     analysis of the economic feasibility of oil and gas
                     production, if any such analysis was considered necessary
                     by the appraisers.28 Under existing UASFLA standards at
                     the time, highest and best use of the fee simple ownership

27
     GAO report. p. 13.
28
      Each of the appraisals furnished to us by the OIG in connection with the Foundation’s
     study stated that the objective of the appraisal was to estimate the market value of the
     real property owner’s “fee simple rights,” which would have included oil and gas or
     other minerals potentials. None of the appraisals indicated that oil and gas or other
     minerals potential was a highest and best use of the properties to which they applied.

            The Appraisal Foundation Report to the
            U.S. Department of Interior, Office of the Inspector General
            May 28, 2004
                                                                                      Page 52
                rights should have considered the economic feasibility (and
                all other highest and best use tests) of oil and gas use of the
                land before concluding that recreational use and
                speculative holding were the optimum uses.

       f. 	     Assuming that oil and gas uses of the land were considered
                by the appraisers, their reported market values would likely
                stand on their own. Separate valuation of oil and gas
                interests and the addition of any market values that one
                might project for these interests would be subject to the
                prohibited summation or cumulative appraisal problems
                discussed earlier in our report. Thus, if compensation for
                the properties by cash, exchange, or combinations were
                based upon these fee simple appraisals, mineral interests
                would have been included in the appraised values and
                there would be no market value basis for additional
                consideration for minerals interests.

6. 	   Memo, Chief, Geologic Resources Division, Natural Resource
       Program Center to Director, Natural Resources Stewardship and
       Science, Special Assistant to the Director – 20 August 2000

       a. 	     This memo is dated less than a week after the date of the
                USGS preliminary report. The preliminary nature of the
                USGS report was not disclosed in this memorandum,
                leaving its recipients with a possible false impression of the
                USGS report’s status. There is also no identification of any
                reviews that were made of the USGS preliminary report.

       b. 	     The memo concludes, “…that the likely market value of
                the Collier mineral estate in the Big Cypress National
                Preserve is between $5 million and $20 million dollars [sic]
                excluding royalties from existing production in the
                Preserve.” There is no identification of the “Collier
                mineral estate” in terms of real property rights. Further,
                the USGS preliminary report is used as though it were an
                appraisal, which it was not. These statements are highly
                misleading. There is no mention of the hypothetical and
                speculative nature of the studies undertaken by the USGS
                or of the earlier study by MMS. In particular, there is no
                disclosure that only undiscovered oil and gas is the subject
                of the various studies, and of the USGS in particular.

       c. 	     In its Background discussion the Memo states that similar
                studies have been used in previous government land

       The Appraisal Foundation Report to the
       U.S. Department of Interior, Office of the Inspector General 

       May 28, 2004 

                                                                        Page 53
         activities. This suggests that a review of each should be
         undertaken to see the extent to which studies have been
         used as real property appraisals in compensation or
         exchange situations in which the original report was not so
         intended. The USGS report does not meet the requirements
         for an appraisal, so there is serious question as to why, at
         an administrative level, the report which was only
         preliminary should be used as though it were a market
         value appraisal, especially without competent appraisal
         review.

e. 	     Discussion of the “Collier Mineral Estate” is highly
         misleading. Whatever the rights may be, the USGS report
         dealt only with projections for a business, not for real
         property rights that the DOI should be identifying and
         valuing. There is no disclosure of this very significant
         difference in the Memo.

e. 	     “Mineral Estate Value Considerations” is a serious
         misstatement and inflates the conclusions beyond their
         proffered support. The USGS report may have been
         objective, but it is still speculative and based upon a series
         of hypotheses and assumptions. The Collier’s mineral
         estate was not identified in real property terms in the earlier
         report, but at a higher level the USGS report is used as
         though it relates to real property rights. Although there is
         explicit disclosure that the USGS did not perform an
         appraisal, the Memo’s author states that the USGS findings
         “may serve to demonstrate a value range that would likely
         result from a mineral estate appraisal performed by an
         independent qualified oil and gas mineral appraiser.” The
         latter statement is unfounded and, although stated as “may
         serve,” the statement serves as permission to serve rather
         than to raise the question or whether the findings may or
         may not serve as a proxy for an appraisal. A reasonable
         reading of the statement is that it is reasonable to use the
         USGS report as an appraisal for the “Collier’s mineral
         estate,” which it clearly is not.

f. 	     In its “Cautionary Note on Cash Flow Analysis,” the
         Memo actually not only discards the sales comparison
         approach (which is preferred by UASFLA) without mention
         that there was no known attempt to even develop one, but
         also obscures the fact that there was no explained attempt
         to gather market information regarding the market’s use of

The Appraisal Foundation Report to the
U.S. Department of Interior, Office of the Inspector General
May 28, 2004
                                                                 Page 54
         cash flow analysis for the valuation of real property oil and
         gas interests. Without evidence of market, there is no
         market. To assume that a market exists is not consistent
         with any applicable appraisal standards or our
         understandings of the requirements of federal law relating
         to land acquisitions and exchanges. Assumption of a
         market where none exists can lead to unwarranted
         compensation and unjust enrichment at the public’s
         expense. By the same token, the same laws require that
         private parties be paid “just compensation” or its
         equivalent, usually determined to be market value of the
         real property rights. This Memo makes unwarranted
         statements based upon unsupported conclusions and
         assertions and leaves at risk both the public and the private
         rights to be valued.

g. 	     It is our opinion that explanations of the factors for the
         Division’s application of cash flow analysis as they are set
         forth in the Memo are misleading and premature.
         Independent and objective analysis would conclude that all
         studies performed were speculative and essentially without
         market support as to any value conclusion. To avoiding
         misuse of the USGS report and confusion of reality with
         speculation, the Memo properly should have concluded that
         there was not sufficient evidence of market value to
         proceed. The conclusions superimposed upon the USGS
         preliminary report by this Memo are based upon “mean
         volumes of undiscovered oil reserves,” which for persons
         of responsibility should clearly indicate speculation and
         hypotheses. The addition of cautionary statements that are
         not heeded even by the author lead one to question whether
         there is intent of this Memo to mislead.

h. 	     The various adjustments to USGS findings that are
         superimposed in this Memo are stated without support or
         valid justification and compound the misleading nature of
         the Memo by their seeming precision.

i. 	     The use of a 7-percent discount rate for cash flow
         discounting was discussed above. It is still improper as it
         fails to be supported by any credible market evidence in
         this Memo.

j. 	     It is beyond our comprehension that the Memo concludes
         without stated support that the oil and gas industry applies

The Appraisal Foundation Report to the
U.S. Department of Interior, Office of the Inspector General
May 28, 2004
                                                                Page 55
                     discounts of 60-percent to 90-percent for calculated oil and
                     gas cash flows for proven and producing sites, and then
                     applies the same discounts (whether accurate or not) to
                     hypotheses involving undiscovered and potentially never
                     producing sites. The results of the Memo do not evidence
                     that any competent appraisal reviews were applied or make
                     a series of disclosures that would immediately reveal the
                     speculative and unsupported nature of the Memo’s
                     conclusions.

           k. 	      It should be noted that the dollar “values” concluded in this
                     memo are far below those of earlier report indications, even
                     though the earlier reports were not appraisals and did not
                     purport to qualify as such. The fact that the reported
                     “values” are lower does not make them accurate or
                     appropriate.

           l. 	      This Memo raises significant issues regarding the
                     bypassing of appraisals, the failure to apply market values
                     processes in valuation activities, the reliance by DOI on
                     staff opinions where independence, competency, and
                     objectivity are not assured in an appraisal sense, and the
                     like. This Memo clearly purports to substitute for a valid
                     appraisal, but inappropriately cites the USGS report, the
                     “industry,” and other generalizations as bases for its
                     unqualified results.

7. 	       Memo from [ ] and [ ] to [ ] dated 25 September 2000

           a. 	      This memo is included as Appendix 1 to the 2000 MMS
                     report.

           b. 	      We note that the National Park Service is not one of the
                     authors of the memo, although it was involved in earlier
                     correspondence.

           c. 	      The subject line of this memo cites a “preliminary
                     valuation,” which is misleading.29 No such valuation was
29
      Even if one or more of the various reports had been intended as a preliminary
     appraisal report, USPAP would require compliance with all ethical and standards
     requirements; further UASFLA recognizes that “preliminary appraisal reports” are
     sometimes prepared for internal agency use, but their intent as an aid to preliminary
     feasibility of one or more actions under review should not be confused with the
     purposes of a UASFLA compliant appraisal, and are not to be substituted for such an
     appraisal.

            The Appraisal Foundation Report to the
            U.S. Department of Interior, Office of the Inspector General 

            May 28, 2004 

                                                                                    Page 56
         performed to the best of our knowledge, but the MMS
         report that is cited in the report was clearly neither intended
         as an appraisal nor qualified to meet the requirements of a
         market value appraisal.

d. 	     We saw no evidence that indicates that the MMS produced
         a preliminary valuation of the CRC oil and gas interests in
         1995, and any such statement appears misleading.

e. 	     This memo indicates that “oil and gas development…has
         the potential to harm park resources.” This intuitive
         position was not clearly or definitively discussed in any of
         the MMS reports. The risk of obtaining necessary permits
         or other forms of entitlement for mineral activities on or off
         particular sites, not to mention a myriad of related
         permitting issues, could be the single most important risk
         factor that MMS should have dealt with, but, like the
         existence of any oil or gas in economically viable
         quantities, MMS left this issue as highly speculative and ill
         defined. It appears that if the strength of this statement is
         considered in a market value appraisal, a clear
         determination of permitting needs, and related risks,
         timing, and costs, are crucial unknowns at the time of the
         MMS report.

f. 	     According to the memo, “The purpose of the (MMS) update
         will be to develop ranges of estimates for the value of
         (CRC’s) resources based upon your analysis of the
         proprietary new data made available to MMS by the
         Collier Resources Company.” This is at odds with the
         basic explanations in MMS’ 2000 report. Further, that
         report cites “evaluations,” but makes no claim to be an
         appraisal or to deal with market value.

g. 	     We call your attention to the Foundation’s previous BLM
         study for further discussion of DOI staff and management
         practices with regard to the appraisal function. Processes
         applied by the DOI and its agencies in our current study
         were strongly reminiscent of what we observed in the BLM
         study.

h. 	     The various reports and correspondence reviewed in
         connection with this engagement provide evidence that
         underscores why competent and experienced mineral
         property appraisers should be involved in minerals interest

The Appraisal Foundation Report to the
U.S. Department of Interior, Office of the Inspector General
May 28, 2004
                                                                 Page 57
                land exchanges and transactions. The statement in the
                memo’s closing paragraph that, “(we have) found that the
                appraisal process has the potential for developing into an
                essentially adversarial proceeding that can be counter
                productive to our ability to protect the underlying
                resources,” can be interpreted as an “ends justify the
                means” statement.

                The seriousness of public trust and possible legal
                implications of this attitude (and statement) is enormous.
                What the memo obscures and fosters as a substitute for
                independent, objective, and competent appraisal studies is
                the process we have discussed above: one that may include
                misrepresentations, hypothetical conditions, assumptions,
                lack of objectivity and independence, mischaracterizations,
                and even a failure to consistently deal with the legal rights
                and processes associated with land valuations involving
                mineral interests under applicable valuation standards.

8. 	   Memo, November 21, 2001, [ ], Associate Director, Natural
       Resource Stewardship & Science to Joseph Doddridge, Acting
       Assistant Secretary, Fish & Wildlife and Parks

       a. 	     This memo is entitled “MMS Valuation in BICY.” It states
                the author’s understanding that DOI had “requested MMS
                to estimate potential oil and gas reserves [sic] in BICY and
                develop comparable estimates for offshore leases and/or
                bidding rights with the possibility of structuring an
                exchange agreement with the Collier Corp. for their
                mineral holdings in BICY.”

       b. 	     Park management’s strong support for an exchange to
                acquire “Collier’s mineral rights” within BICY was
                expressed. The rationale was that this would reduce the
                potential for future oil and gas development in the park
                with “its attendant impacts on the ecosystem and
                hydrologic resources.”

       c. 	     This memo distinguishes the proposed MMS study as an
                “evaluation of mineral reserves, not a formal mineral
                appraisal.” Because of MMS expertise, the author states
                there was no reason for NPS to be involved.

       d. 	     The author further states that cash flow models have been
                used to generate figures that allow “relative comparisons

       The Appraisal Foundation Report to the
       U.S. Department of Interior, Office of the Inspector General
       May 28, 2004
                                                                       Page 58
                 of oil and gas properties,” and states that such models do
                 not represent market value even if the industry uses similar
                 models to evaluate “the relative economic merits of
                 prospects.”

        e. 	     The memo provides clear evidence that at least some DOI
                 staff recognized that the MMS report was not intended to
                 be an appraisal, but does not reflect why the MMS report
                 was styled in such a way as to erroneously give the
                 appearance of one.

9.     Staff email, Barry Dickerson, February 20, 2002 and response of [the
former Deputy Regional Supervisor, Resource Evaluation Division], February
21, 2002

        a. 	     The Dickerson message conveyed a series of topics that the
                 author asked David Marin to discuss with CRC in a
                 teleconference. The topics included price parameters, Federal
                 income taxes, state income taxes and severance taxes, tangible
                 and intangible costs, and cost depletion. There was also a
                 mention of the PRESTO analysis model, which was identified
                 as an “assessment model.”

        b. 	     The [ ] response [of the former Deputy Regional Supervisor,
                 Resource Evaluation Division,] states, “Since the direction
                 from DOI is to assume CRC is both owner and operator it
                 would appear to me that any consideration of bonus or rental
                 payments is inappropriate.”

        c. 	     This “direction” under UASFLA would constitute instructions
                 from the “client,” and would constitute a required disclosure in
                 a qualified appraisal. As mentioned elsewhere, no such
                 disclosure was made. Even so, the parties were apparently
                 dealing with attempts to derive net income, but there was no
                 demonstrated attempt to distinguish between business and real
                 property income.

10. 	   Staff Memo, unnamed person, February 22, 2002.

        a. 	     This memo appears to be a file memorandum from an
                 unnamed DOI or agency staff person who made notes on a
                 February 21, 2002 telephone discussion with CRC. It
                 reviews a series of points discussed, primarily focusing on
                 federal income tax, depletion, interest rate, and related cash
                 flow issues.

        The Appraisal Foundation Report to the
        U.S. Department of Interior, Office of the Inspector General
        May 28, 2004
                                                                          Page 59
       b. 	     The author of this memo states, “I am not clear as to why we
                are evaluating this based on Collier’s value. What the
                government should pay for this is more closely tied to what a
                buyer would pay than what Collier would sell for.” This
                statement succinctly encapsulates one of the principal
                conclusions that we draw from our reviews: There is clear
                evidence of direction of the analysis efforts by some
                influencing party within the DOI, accompanied by an
                essentially open door policy for CRC in an intended federal
                land exchange. The analysis does not have the characteristics
                of independence and objectivity, instead having some form of
                pressure or direction to develop a price that would be
                satisfactory to CRC whether it factually represents market
                value or not.

       c. 	     We are uncertain as to the concluding comment, but it
                appears that there was a response from another party who
                agreed with the original author’s conclusions and asserted
                what appears to be a lack of objectivity and fair
                representation on behalf of CRC in terms of what is
                required of the federal government.

11.    Staff email, Barry Dickerson, February 22, 2002 and response of [the
former Deputy Regional Supervisor, Resource Evaluation Division],
February 22, 2002

       a. 	     This email sequence begins with Barry Dickerson’s report that
                he attended a “telecom with Collier” the previous day and
                provided “most of the discussion on economic topics.” He
                concluded, “My impression is that these people are just
                throwing topics into the air to see what they can get us to jump
                at.”

       b. 	     The email summarizes elements of the telephone discussion,
                but does not indicate there was any discussion relative to the
                consideration of real property rights and associated market
                value separate from the business.

       c. 	     Mr. Dickerson’s final statement was, “I am not clear as to why
                we are evaluating this based on Collier’s value. What the
                government should pay for this is more closely tied to what a
                buyer would pay than what Collier would sell for.” This is
                further indication that the government’s staff was operating
                under orders with which they did not agree.

       The Appraisal Foundation Report to the
       U.S. Department of Interior, Office of the Inspector General 

       May 28, 2004 

                                                                         Page 60
        d. 	     [The former Deputy Regional Supervisor]’s response concurs
                 with Mr. Dickerson’s observations, adding in part, “There
                 would be no lessee/lessor in [the situation of an
                 owner/operator], therefore no bonus, rentals or royalties.
                 Apparently in the Solicitors’ minds this gets past the NPS
                 Uniform Appraisal Standards questions. CRC has filed the
                 20+ exploration plans and recently had them approved. I
                 believe this was a ploy to set up a takings case (if denied) or to
                 increase pressure for a deal (if approved). I’ve repeatedly told
                 the Solicitors that I don’t believe CRC has any intention of
                 drilling a well—they’re just following the Coastal Petroleum
                 paradigm.”

        e. 	     The Conduct section of USPAP’s Ethics Rule states, “In
                 appraisal practice, an appraiser must not perform as an
                 advocate for any party or issue….An appraiser must not
                 accept an assignment that includes the reporting of
                 predetermined opinions and conclusions….An appraiser must
                 not communicate assignment results in a misleading or
                 fraudulent manner.      An appraiser must not use or
                 communicate a misleading or fraudulent report or knowingly
                 permit an employee or other person to communicate a
                 misleading or fraudulent report.” We see no reason why
                 government staff and appraisers should not be held to these
                 same standards.

12. 	   Staff email, redacted and unnamed person, March 1, 2002

        a. 	     This e-mail is incomplete in that neither the writer nor the
                 addressee is identified. The content indicates that there was
                 continued internal evaluation of income tax and related
                 considerations that were reflected in the memos discussed
                 above.

        b. 	     This writer affirms that there were “instructions” that the
                 evaluation was to be conducted “from the point of view that
                 Collier is the owner and operator.” This appears to be further
                 confirmation that DOI instructions were instrumental to the
                 premises applied in deriving “values” for CRC properties.

13.      Various Public Laws and elements of legislative history pertaining to
these laws. Also included were documents that were either used, or proposed
for use, in the Collier exchange of Florida lands for the Phoenix Indian School
Property in Phoenix, Arizona.

        The Appraisal Foundation Report to the
        U.S. Department of Interior, Office of the Inspector General
        May 28, 2004
                                                                            Page 61
a. 	     Our reviews of the documents furnished were principally
         directed towards matters pertaining to the Florida Collier
         properties and issues relating to oil and gas right valuations.
         The exchange of lands for the Phoenix Indian School property
         is essentially beyond the scope of our analyses except for the
         fact that it depended upon “values” that were established as
         the basis for the exchange (and or any other form of
         compensation associated with the transaction).

b. 	     As discussed below, we attempted to follow an “audit trail” of
         value sources and amounts connected with the U.S.
         government – Collier exchange. Although there were a
         limited number of appraisals for the Florida lands that we were
         able to analyze, we found that each appraisal, whether
         performed for Collier or for the government, stated that it was
         a “fee simple” ownership appraisal of market value. None
         found a highest and best use for oil and gas or any other
         minerals. Thus, to the extent that these appraisals were used
         as a basis for the consideration to be used in the Florida
         portion of the exchange, any oil and gas potential would have
         been an element of the market value opinions and there would
         be no basis for any further compensation.

c. 	     United States Public Law 100-301, 1988 S 90, April 29, 1988,
         102 Stat 443, Sec. 8 provides that the Secretary of the Interior
         shall promulgate rules and regulations for potential
         exploration, development, and production of non-Federal
         interests in oil and gas within the Big Cypress National
         Preserve and the Addition. Authority was also granted to the
         Secretary to enter into interim agreements before such rules
         and regulations were finalized. There are other documents
         that pertain to the need for preservation, wildlife and
         environmental protections, and the like.

d. 	     Because we do not have all applicable documents, we are
         unable to complete an analysis of the audit trail described
         above, but recommend that it be performed by the OIG or
         others. The best indication we have from the documents
         available indicates that at some point agreements and/or
         documents were prepared that would provide for a Quit Claim
         Deed by Collier of its property rights in Florida, excepting oil
         and gas rights, in return for mutual performances of their
         requirements and those of the Federal government in the
         exchange. If this occurred, we have no evidence that the

The Appraisal Foundation Report to the
U.S. Department of Interior, Office of the Inspector General
May 28, 2004
                                                                  Page 62
                 properties were reappraised subsequent to the ones we
                 analyzed, and which were the subject of a portion of the 1988
                 GAO report. Thus, we are unable to verify that there was a
                 valuation basis for any consideration being applied to the
                 Collier’s oil and gas rights, if any.

14.    Appraisals of Collier land interests that we believe were considered by
the General Accounting Office in the above referenced GAO report.

        a. 	     No attempt was made to perform an appraisal review for
                 any of the appraisals submitted to us. Rather, they were
                 considered historical documents that might shed light on
                 the nature of oil and gas rights that had been identified for
                 the Collier’s Florida properties and how any such rights
                 had been treated in prior appraisals.

        b. 	     Each of the reports analyzed specified that their purpose
                 was to develop an opinion of market value for fee simple
                 rights, the full “bundle of rights” that constitute the entirety
                 of ownership in real property. If mineral interests of any
                 sort had been reserved, extracted, or otherwise removed
                 from the bundle of rights, none of the appraisals would
                 have qualified as “fee simple” appraisals.

        c. 	     Each of the appraisals had discussions of markets for the
                 appraised lands and considerations of each property’s
                 “highest and best use.” None of the appraisals reported a
                 market for oil and gas or other mineral interests, instead
                 determining that other surface uses met the definition of
                 highest and best use.

15. 	   Collier Resources Company’s Confidentiality Agreement

        a. 	     This agreement appears as Appendix 2 of the 2000 MMS
                 report. Although styled as a Confidentiality Agreement, the
                 document is also CRC’s disclaimer of the accuracy,
                 correctness or completeness of the data furnished to MMS.

        b. 	     The tenuous and apparently unreliable nature of CRC’s
                 involvement as a supplier of data for MMS consideration is
                 indicated from the last paragraph of the CRC
                 Confidentiality Agreement: “CRC makes no warrant,
                 expressed or implied, as to the accuracy, correctness or
                 completeness of the above listed proprietary data. This
                 data is supplied for the convenience and information of the

        The Appraisal Foundation Report to the
        U.S. Department of Interior, Office of the Inspector General
        May 28, 2004
                                                                          Page 63
         Evaluator and any reliance on this data is at the Evaluator’s
         sole risk.” Our conclusion is not that CRC could not have
         supplied reliable information, but that in the form it was
         furnished and with the file disclosures by DOI staff
         comments, it is instead that the information should not have
         been considered reliable for valuation purposes.




The Appraisal Foundation Report to the
U.S. Department of Interior, Office of the Inspector General
May 28, 2004
                                                               Page 64
               Section 3
               Final Conclusions and Reasoning

Introduction   The Purpose of the Foundation’s engagement is detailed in the Executive
               Summary of this report. This report section addresses a series of findings
               developed from our analysis of the materials furnished to us, as well as
               additional research and analysis. We conclude the section by addressing the
               specific questions posed in the OIG’s definition of our Scope of Work.

               UASFLA cites United States policy in acquiring real property or any interest
               therein as impartially protecting the interests of all concerned.30 It further
               states with regard to conjectural and speculative evidence:

                         “In seeking to determine market value, there should be taken into
                         account all considerations that might fairly be brought forward and
                         reasonably be given substantial weight in bargaining between buyer
                         and seller. However, the Supreme Court has stated that: Elements
                         affecting value that depend upon events or combinations of
                         occurrences which, while within the realm of possibility, are not fairly
                         shown to be reasonably probable, should be excluded from
                         consideration.” [Citing Olson v. United States, 292, U.S. 246, 257
                         (1934); also, United States v. 320.0 Acres of Land, 605 F.2d 762, 814-
                         820 (5th Cir. 1979).]31


Principal      The speculative nature of undiscovered oil and gas serves as a central focus
Conclusions    for the series of issues and events analyzed by the Foundation Team. The
               technical materials submitted to us indicated that that the existence of such
               minerals on the CRC properties may or may not have been out of the realm of
               possibility, but no evidence was provided to indicate that they were
               reasonably probable. Even more important from a market value perspective,
               no evidence was presented that any buyers who may meet the market value
               definition as prospective purchasers of the rights appraised would pay any
               amount for the properties at issue. Thus, there is no credible or reliable
               evidence that there was a market for the CRC’s property rights or that they
               had any market value as of the dates for which it was incorrectly claimed that
               they had been valued.

               Beyond the central issues of speculation, there were additional issues
               regarding how the question of market value and proper compensation for CRC
               ownership rights were approached by the DOI and/or its agencies. The

               30
                    UASFLA 2000. Policy.
               31
                    UASFLA 2000. Sec. B-9.

                         The Appraisal Foundation Report to the
                         U.S. Department of Interior, Office of the Inspector General
                         May 28, 2004
                                                                                          Page 65
               record indicates that a management decision was made to by-pass a
               professional valuation of the CRC’s property rights by a Qualified Appraiser,
               instead substituting a process in which false and misleading practices resulted.
               Under the apparent direction of a person or persons within the DOI unknown
               to us, staff personnel were given directions and/or adopted positions and
               practices that could not have fairly met the United States policy statement
               cited above. Instead, steps were taken to control DOI staff work to the extent
               that required unverified and unwarranted information to be used as the basis
               for technical analyses. The results provided an apparent market value
               probability where no such probability was established.

               There was no record evidencing that any Qualified Appraisers were involved
               at any time in the development of opinions or in any review processes.
               Instead, the record indicates to the contrary: professional appraisers were
               consciously by-passed by management. Stated reasons appear more suited to
               an excuse that attempted to justify what was clearly an unwarranted decision,
               and thereby permit development and reporting of inflated “values.” The result
               was unsupported and knowingly incorrect reports that were not market value
               appraisals, but that were misleadingly represented and used by the DOI as
               though they were.

               Although documentation for our analysis was limited, it is possible that there
               have been “disconnects” or inconsistencies in the government’s dealings with
               Collier lands. Initial acquisition appraisals furnished to us indicate that they
               were market value appraisals for fee simple ownership rights. If the numbers
               from those appraisals were relied upon by Congress, or other U.S. agencies, in
               acquisitions or exchanges, then the market value of any mineral rights that
               Collier might have possessed was accounted for in the original appraisals.
               Any further compensation would constitute a doubling of the compensation
               for their interests. This would call into question whether the provisions of the
               United States policy statement have been met.


General        1.     None of the reports reviewed by the Foundation were “appraisals” of
Findings and   market value.
Reasoning
                      Reasoning.      References to MMS reports as “valuations” or
                      “appraisals” by DOI entities or individuals were incorrect and
                      misleading, especially in the light of the reports’ disclosures that they
                      were not appraisals. As a result, the DOI does not have a basis to
                      conclude market value of the alleged CRC mineral interests from the
                      materials furnished to us. Appraisals should have been performed and
                      reviewed by Qualified Appraisers, particularly because of the nature
                      of the interests involved and the government’s previous history of
                      involvement with the same or related property interests.

                       The Appraisal Foundation Report to the
                       U.S. Department of Interior, Office of the Inspector General
                       May 28, 2004
                                                                                        Page 66
2.      The principal conclusions reported by MMS in each of its reports are
highly speculative, largely unsupported, and improper as foundations for
market value determinations relating to the alleged mineral interests to which
they refer.

           Reasoning. The reports deal with the hypothetical presence of oil and
           gas in statistical exercises that, as presented, obscure the fact that no
           actual oil or gas has been discovered for any of the properties
           purportedly “appraised.” Because the numbers supplied by the MMS
           in its 2000 report were apparently erroneously used by DOI as
           “appraisal” results, or their equivalent, what may be an interest with a
           zero market value was handled as an interest worth many millions of
           dollars.

3.      MMS reports do not specifically deal with the identification of the
“rights appraised” that is fundamental to market value opinions.

           Reasoning. Because these identifications were not made, the nature
           and extent of the legal interests was not specifically identified
           (although generalizations were made) on a parcel specific basis. As a
           result, no user of their reports as they were presented can identify what
           CRC might or might not have owned, where the location of the rights
           may have been, or the nature of CRC’s sub-surface rights. For that
           reason, we refer to any mineral interests CRC may or may not own as
           “alleged interests.”

4.   The MMS reports do not comply with the USPAP Ethics Rule or the
USPAP Preamble.

           Reasoning. For their apparent intended use as indicators of value (or
           more precisely “market value”)32 the MMS reports are misleading and
           are not meaningful. They also do not comply with the Conduct
           portion of USPAP’s Ethics Rule in that they do not appear to be
           impartial, objective, and independent. Further, they do not meet
           USPAP’s Competency Rule requirements for the acceptance of an
           assignment. In part these acts of non-compliance are evidenced in the
           MMS’ own report text and in other parts by their attempt in the 2000
           report to apply UASFLA guidelines presented to them by the National
           Park Service to comply with appraisal standards. The impact of their
           deviations from those required for standards-compliant appraisals was

32
      According to UASFLA, Policy: “It is the duty of the state, in the conduct of the
     inquest by which the compensation is ascertained, to see that it is just, not merely to
     the individual whose property is taken, but to the public which is to pay for it.”

            The Appraisal Foundation Report to the
            U.S. Department of Interior, Office of the Inspector General
            May 28, 2004
                                                                                        Page 67
          to ascribe “values” to undefined but alleged CRC mineral interests
          that may overstate actual market value by many millions of dollars.

5.       Both USPAP and UASFLA are available not only to the MMS, but to
the staff of DOI and its agencies.

          Reasoning. Despite the clear language contained in these standards,
          the DOI and/or its agencies prepared memoranda, and may have taken
          subsequent actions, that they should have known were not supported
          by appraisals and appraisal reviews performed by Qualified
          Appraisers as they are defined by the federal government and in
          UASFLA.

6.      The comments by the DOI’s Acting Assistant Secretaries of Water
and Resources, and Fish and Wildlife and Parks [sic] that they believed an
appraisal of the CRC interests would be, in essence, counter-productive and
that an update of its 1996 report by MMS would allow negotiations with CRC
to proceed on a timely basis were erroneous and misleadingly implied that
such review could substitute for a qualified appraisal and appraisal review.

          Reasoning. The Foundation commented on similar practices by the
          BLM in its 2002 report33 and continues to emphasize that such views
          and actions are ill-advised, improper, incorrect, and may be contrary
          to applicable law. In the instance we reviewed they led to an ill-fated
          attempt by MMS to either perform an appraisal or to have their report
          provide the appearance of having met UASFLA requirements.
          Neither was accomplished and the result was misleading and subject
          to abuse.

7.     There was no evidence that Qualified Appraisers were involved at any
stage of the reporting and related correspondence that we reviewed. This
includes the consulting report of Dr. Grace, d/b/a ESA.

          Reasoning. The question may be raised, why is this important since
          the DOI avoided the use of an appraisal? We respond that
          considerable effort was undertaken to shape the 2000 MMS language
          into a form that would imply that the substance of their report was an
          appraisal. Separate representations were made by the DOI that the
          results were “value” figures that could be used for the purpose of a
          purchase or exchange of CRC interests, and they apparently were
          ultimately relied upon for such purposes. Thus, the process itself was
          misleading and, in our opinion, prejudicial to the DOI’s obligation to
          uphold the public trust. Although the DOI may assert that the 2000
33
     2002 BLM study by the Foundation.

           The Appraisal Foundation Report to the
           U.S. Department of Interior, Office of the Inspector General
           May 28, 2004
                                                                          Page 68
           MMS report was more in the vein of a “preliminary estimate,” in our
           view such an assertion would only compound the fault.34 Dr. Grace’s
           report does not indicate any appraisal education, training, experience,
           or other appraisal qualifications.

8.      The MMS reports refer to CRC data and involvement in their text, but
do not include any disclosures regarding instructions, assumptions and
limiting conditions upon which their reports are based. This is a particularly
important omission in the 2000 report because it was the “updated report”
upon which the DOI finally relied.

           Reasoning. Distinctions among the terms assumption, extraordinary
           assumption, and hypothetical condition were discussed earlier.
           Failure to make full disclosure of each element can, and commonly
           does, develop a less than credible and reliable report that misleads.
           This disclosure failure is generally compounded when some or all of
           these elements are applied as the result of undisclosed client
           instructions. In this instance, MMS’ client can be interpreted as those
           who generated the request for their report and who were in a chain-of-
           command position to influence its results. The existence and propriety
           of instructions can only be known and judged with proper disclosure.
           Records furnished for our review indicated that undisclosed
           instructions had been given to the MMS and were applied in the
           completion of their analyses and reporting. Reliance upon the
           instructions without disclosure would violate appraisal standards for
           the 2000 MMS report.35

9.       Because of the absence of information that would have been in a
standards-complying appraisal report, but was not contained in the MMS
materials furnished, it is possible that full compensation may have already
been paid for Collier interests in the Everglades36 where the alleged mineral
rights are involved.

34
      A “preliminary estimate” is, for example, provided for in the BLM’s Exchange
     Handbook which defines the term as, “…a short oral or written report estimating a
     value or a range of values for properties….Because preliminary estimates are brief
     they should be used for internal purposes only.” UASFLA points out that such an
     estimate is a Jurisdictional Exception to USPAP, where the process would require
     compliance with USPAP standards. UASFLA explains, however, “The preliminary
     estimate is generally not an appraisal but shall be prepared by a qualified appraiser.”
     (UASFLA, Sec. D-7.)
35
     See, for example, UASFLA, Sec. D-3. UASFLA indicates that instructions should not
     only be disclosed but that written instructions should be included with the report.
36
     This statement refers to the absence of historical title information in the MMS report.
     The absence of such discussion made it infeasible for our Team to attempt an audit of
     prior title acquisitions of Collier properties in the Everglades. The term “Everglades”
            The Appraisal Foundation Report to the
            U.S. Department of Interior, Office of the Inspector General
            May 28, 2004
                                                                                       Page 69
            Reasoning. If this is true, further compensation or allowance of a
            market value basis for an exchange would compound their
            compensation. In part this conclusion is based upon the fact that for
            any earlier appraisals to have complied with applicable appraisal
            standards, they must have applied the unit rule37 and must have
            identified the contributory value of CRC mineral interests, if any.
            Further, the appraisals we were able to study indicated that they were
            market value appraisals of fee simple ownership rights.

10.     The role of USPAP is equally important within the public sector as it
is within the private sector and provides a foundation for fairness,
transparency, objectivity, independence, competency, and other ethics and
standards matters associated with generally accepted valuation principles.

            Reasoning. USPAP was developed to protect the pubic interest as
            well as the interest of private individuals and entities. As such, it is
            recognized in the courts, in Congress, and in a wide spectrum of
            private market transactions, especially including mortgage lending,
            and the purchase and sale of real property rights. UASFLA serves as
            an important set of supplemental standards to allow for the minimal
            number of special differences that occur in the federal jurisdiction and
            to assure that UASFLA is otherwise applied in government land
            acquisitions.

11.     Although USPAP is updated on an annual basis and UASFLA’s 2000
revision post-dated at least some of the reports discussed herein, general
principles and provisions of the current versions are not generally considered
different than those that applied as early as 1996.


     was used in the context of the GAO report which we also reviewed. In short, there is
     no basis to know whether the property included in the MMS study overlaps or does not
     overlap prior acquisitions of Collier properties regardless of the reservation of mineral
     interests issue.
37
      In the federal jurisdiction the unit rule has two aspects; one relating to the interests, or
     estates, into which ownership of real estate may be carved, and the second relating to
     the various physical components of real estate. The first requires that property be
     valued as a whole rather than by the sum of the values of the various interests into
     which it may have been carved, such as surface and subsurface rights. One may
     preclude the other or, in some instances, allocations may be made consistent with
     market information and generally accepted valuation principles. The second requires
     that different components of a tract of land cannot be valued separately and then added
     together, the latter resulting in a prohibited summation or cumulative appraisal. (See
     UASFLA, Sec. B-13.) We were unable to find any MMS discussions of the rights
     appraised, previous allocations or compensation, or even the extent, nature, and
     location of the alleged CRC rights.

            The Appraisal Foundation Report to the
            U.S. Department of Interior, Office of the Inspector General 

            May 28, 2004 

                                                                                          Page 70
       Reasoning. USPAP and UASFLA are built upon long-established
       valuation principles, particularly those relating to identifications of
       property rights and the subject of valuations, ethical requirements for
       appraisers, the concept of market value, and other generally accepted
       valuation principles.

12.    The value of appraisals and the proper direction of appraisers and
review appraisers are frequently overlooked or ignored in program and
management functions of the DOI. These problems were particularly
evidenced in the materials we reviewed for this report.

       Reasoning. Our involvement with DOI agencies leads us to believe
       that they have a competent group of staff appraisers and, in general,
       good leadership within the appraisal function. When considering the
       staff appraisers as one of the more valuable assets of the DOI, one
       must question whether this asset is fully and properly managed when
       program staff and/or management take it upon themselves to avoid the
       use of appraisals and review appraisals in support of sound fiscal
       management of public resources, and assurances of objectivity and
       fairness to the private sector. The situation we reviewed in the current
       study is an example of significant problems that were created in large
       part by an apparent attempt to totally bypass professional development
       of market value opinions by professional appraisers. These actions,
       and the eagerness of staff to overlook errors and to make
       misrepresentations and/or misstatements of fact, raise questions of
       staff intent to push through a program they may have realized would
       not stand the independent and objective study of appraisal
       professionals.

       DOI staff has used excuses and have made damning assertions about
       the problems they claim that appraisers bring to the DOI’s ability to
       accomplish program goals. We must pose the question of whether
       program goals are in all instances identical to the obligations of law
       and the public trust or whether they are based upon other motivations
       of those who raise these arguments. Regardless, it is clear that the
       DOI’s assertions through its staff regarding appraisers’ lack of value
       are simply incorrect. The appraisal asset may lay dormant through
       lack of proper application and/or be mismanaged, but market value is
       too important to the fundamental programs of land acquisitions and
       exchanges for the DOI to fail to consistently call upon and rely upon
       qualified professional appraisers and review appraisers within the DOI
       or, when necessary, available from contractors.




       The Appraisal Foundation Report to the
       U.S. Department of Interior, Office of the Inspector General
       May 28, 2004
                                                                        Page 71
Conclusions:      In addition to the broader statement of findings and conclusions summarized
Questions Posed   in the Executive Summary, the following is a direct response to the questions
by the OIG        raised by the OIG in the Foundation’s Scope of Work.

                  Question 1:     “What evaluation methodologies and appraisal practices are
                  utilized by the federal government, in particular the DOI, in determining the
                  value of subsurface oil/gas mineral rights? Include a discussion of the role of
                  the Uniform Standards for Professional Appraisal Practice (USPAP).”

                  Response 1: Agencies within the DOI, and the DOI itself, sometimes apply
                  practices that are not in accord with either USPAP or UASFLA. In general
                  the practices involve program and/or administrative staff substitutions of
                  technical, engineering, or other studies or opinions produced by non-
                  appraisers for conclusions of value of real property interests which are within
                  the province of Qualified Appraisers. Certain DOI agencies have developed
                  internal guidelines or policies that facilitate an avoidance of the use of
                  Qualified Appraisers even when such appraisers should be a part of the
                  processes in order to protect the public trust.

                  When such incorrect and improper policies or practices are applied, the
                  individuals and agencies substitute evaluations by non-appraisal staff that do
                  not meet the requirements of USPAP or UASFLA even though the
                  conclusions purport to determine “values.” Further, our research indicates
                  that as a general matter, the value opinions developed by non-appraisers are
                  not likely to be reviewed by Qualified Appraisers prior to their adoption by
                  the DOI for exchanges or transactions with individuals or entities in the
                  private sector. We are aware of instances in which, when reviews of non-
                  appraiser opinions was performed by Qualified Appraisers, the reviews were
                  ignored and the non-appraisal “values” were adopted by the DOI.

                  In the CRC matters we evaluated for the Everglades38 minerals interests,
                  agencies of the DOI sought and procured minerals studies by the USGS and
                  the MMS. They apparently steered a second MMS report by first requiring
                  that the MMS incorporate data furnished by CRC, the entity involved in the
                  potential exchange, despite the tenuous nature of CRC’s information that even
                  CRC would not warrant as true and correct. Second, they furnished
                  information to the MMS that encouraged MMS to restate its already highly
                  speculative conclusions involving undiscovered oil and gas into explanations
                  that, on face, gave the appearance of UASFLA-compliant market value

                  38
                       This statement refers to the MMS and related report studies. As stated above, we did
                       not know the specific geographic or legal boundaries of properties in the MMS study,
                       but used the colloquial term “Everglades” to denote the probable location and nature of
                       the majority of the “lands.” The principle applies, however, to the lands included in
                       the GAO study.

                              The Appraisal Foundation Report to the
                              U.S. Department of Interior, Office of the Inspector General
                              May 28, 2004
                                                                                                      Page 72
opinions. At no time did MMS, the DOI, or any DOI agency, ever define the
exact legal interest, if any, held by CRC. Neither did they explain the
locations of any such interests. Instead, generalizations and averages were
used in such a way that the MMS reports were not sufficient for full technical
review, let alone as a basis for a Qualified Appraiser to reach a competent
opinion of market value.

These practices do not meet the competency and ethics requirements of
USPAP by which Qualified Appraisers are bound. Such practices can
fraudulently provide the appearance that the evaluations produce valid
opinions of market value, which they do not. The role of USPAP, and of
UASFLA as supplemental standards to USPAP, is to provide standards not
just for the performance of appraisals by Qualified Appraisers, but to establish
business and governmental recognitions and understandings that will aid in
the avoidance of fraud and abuse, and will lead to better documented and
reasoned financial decisions.

It is our opinion that any exchange or transaction based upon the figures
reported in the 2000 MMS report or any of the other documents reviewed by
the Foundation was not based on credible or reliable information by which to
judge the market value of purported (and undefined) CRC property interests.

Question 2:    “Determine whether the processes employed in the 1996 and
2000 MMS evaluations, and the 2002 review conducted by Earth Science
Associates (ESA), of the Collier mineral estate were valid and appropriate.
Identify whether, in general, the processes constituted a valid methodology for
use by the federal government in determining onshore mineral values.
Review includes the following documents:

       MMS Valuations:
       ▪	 Evaluation of Collier Resources Company’s Mineral Estate in Big
          Cypress National Preserve, [ ], -US DOI MMS, Gulf of Mexico
          Region, Office of Resource Evaluation, New Orleans, LA (March
          1, 1996)
       ▪	 Evaluation of Collier Resources Company’s Mineral Estate in Big
          Cypress National Preserve and the Florida Panther National
          Wildlife Refuge, [ ], -US DOI MMS, Gulf of Mexico Region,
          Office of Resource Evaluation, New Orleans, LA (October 27,
          2002)

       Others:
       ▪	 Dr. John Grace’s (d/b/a ESA) independent review of the
          methodology employed by MMS, and subsequent development of
          a range of values using statistical models (April 22, 2002).
       ▪	 National Park Service valuation study of BCNP.”

        The Appraisal Foundation Report to the
        U.S. Department of Interior, Office of the Inspector General 

        May 28, 2004 

                                                                         Page 73
Response 2. Portions of the technical processes employed in the 1996 and
2000 MMS evaluations were mechanically valid and appropriate as a part of
minerals studies, but they were not valid and appropriate, nor properly
supported, as representations of the markets from which market values of
CRC’s purported mineral interests should be derived.

Each of the MMS reports were highly speculative. There was no market
support for their eventual conclusions in either report that the market would
ascribe a market value to undiscovered oil and gas located in a National
Preserve setting, and with the particular set of hypotheses, subjectively
assigned probabilities, and conjectures applied by the MMS. Although the
MMS recognized in the text of their reports that there were significant risks
and uncertainties associated with their analysis, these admissions did not deter
the MMS from rationalizing that a mathematical exercise involving
probabilities, and apparently unvalidated data upon which the exercise relied,
could substitute for market data. Their reports evidence a lack of
independence, bias, and loss of objectivity. The 2000 MMS report is
particularly misleading because of its improperly developed attempt to restate
its revised estimates as though they constituted indicators of market value.
This effort resulted in stated opinions that are contrary to USPAP and
UASFLA, and facilitated an improper and possibly fraudulent use of their
report.

The Earth Sciences Associates (ESA) report was too general and misdirected
to be of assistance as an appraisal review, and in our opinion was inadequate
as a technical review of the 2000 MMS report. It appears that ESA attempted
to apply off-shore information that may or may not have been comparable or
otherwise applicable, but did not attempt to explain or justify the extent to
which such data or experiences were other than background observations.
The ESA report was not a rigorous technical review of the MMS work.

For example, It did not appear to evidence any attempt at crucial verifications
of the work such as (a) the locations of the properties involved, (b) the nature
and extent of CRC’s legal interest for each, (c) the paucity or absence of
market activities and/or market data that would have been useful in the light of
the intended use of the MMS report, (d) the derivation of probabilities and
quantifications applied in MMS’ statistical models, (e) the ascribing of any
market value from a model that, on the main, indicated there was limited
probability of oil and gas production, (f) the absence of more definitive
information regarding the probability and costs of permits that would be
required for exploration, development, completion, production, pipe line
locations, and (g) other important verifications.



        The Appraisal Foundation Report to the
        U.S. Department of Interior, Office of the Inspector General
        May 28, 2004
                                                                         Page 74
The ESA report did not reliably support the notions that the MMS processes
were valid or that ESA’s own use of off-shore information or experiences
were appropriate or meaningful. Instead, a robust review of MMS’ data, data
sources, analyses, and reasoning was required. This should have included
validations of the data inputs and the derivation of independent information by
which an independent and objective review could be performed. This would
also require the development of market data, since such data was lacking in
the MMS report, or statements by MMS regarding the lack of documentation
and support, and the effect of such deficiencies on both the technical and the
valuation aspects of the MMS report.

Question 3.    “State whether an appraisal is necessary in cases involving the
purchase or exchange of subsurface oil/gas mineral rights.

       ▪If an appraisal is necessary, what part of the USPAP applies and what
       part of the Uniform Appraisal Standards of Federal Land acquisitions
       apply?
       ▪ If an appraisal is not required, state why not, and identify the range
       of options by which a federal entity, specifically the DOI, has for
       valuing the purchase or exchange of subsurface oil/gas mineral
       rights.”

Response 3. Market value appraisals by Qualified Appraisers and reviewed
by other Qualified Appraisers should be recognized as necessary in all land
acquisitions and exchanges by the federal government. These incorporate the
entirety of USPAP except for the Jurisdictional Exceptions of UASFLA, and
an overlay of UASFLA with its Exceptions. This fundamental step has the
advantage of assuring that, in keeping with United States policy, the public
and the government that constitutional rights are upheld, that public funds or
their equivalent (in the instance of exchanges) are managed fairly and
accountably, and that fraud and program abuses are eliminated or minimized.
Without competent appraisals performed and reviewed by Qualified
Appraisers, there is no audit trail by which to assess or judge the actions of
program officials such as those in DOI.

The September 25, 2000 Memorandum from [             ] to [    ] states in part,
“Overall, the Department’s experience in various large land acquisition
projects over the years has found that the appraisal process has the potential
for devolving into an essentially adversarial proceeding that can be
counterproductive to protect the underlying resources. In the present case, we
believe that an update of [the MMS] study will allow interagency discussions
and negotiations for a potential exchange to proceed on a timely basis.” In lay
terms this statement equates to children who say, “I don’t ask Dad if I can go
to town because he might say no. Instead, I only ask Mom.” In professional
terms it implies that the DOI does not care about market value requirements

        The Appraisal Foundation Report to the
        U.S. Department of Interior, Office of the Inspector General
        May 28, 2004
                                                                         Page 75
and is willing on occasion to seek other methods that will produce inflated
figures to accomplish program goals. These goals would trump properly
founded financial decisions that can stand public
scrutiny or the reviews that must accompany competent appraisals. We
strongly disagree with the spirit and accuracy of the statement, especially
because Qualified Appraisers must be objective and independent. Is it those
qualities that create “adversarial proceedings?” Further, examples such as this
foster individual and agency abuses of office and opportunity for failures to
uphold the public trust.

When purchase or exchange of oil/gas mineral rights is involved, it is
especially important that a standards-compliant appraisal and appraisal review
be performed. A classic example is involved with the Collier’s Florida
Everglades39 properties. Under the unit rule and the principle of consistent
use, real estate of the entirety of an ownership is normally to be valued at its
highest and best use and in such a way as to avoid what is called a summation
or cumulative appraisal.40 In lay terms, it is possible that oil and gas activities,
if feasible, could be performed in conjunction with certain surface uses of the
land, but it is also possible that they might not. If only a surface use was
determined to be economically feasible, an acquisition or exchange for the
market value of the surface rights might extinguish any potential market value
contribution of the subsurface rights. These and related considerations are
crucial to the economics surrounding market value and require analysis by
competent and experienced Qualified Appraisers and reviewers.


39
     This statement refers to the lands included in the GAO study. The principle applies,
     however, in the MMS and related studies. Notably, before concluding highest and best
     use (HABU), an appraiser must consider all reasonably probable legal uses of land and
     consider the elements of the highest and best use definition. The legal uses require
     distinction between surface and subsurface rights if they are actually owned separately
     because an owner of one does not have control over the other. If the rights are
     combined into a single ownership, HABU reflects whether use of the surface
     constitutes HABU or, alternatively a use of subsurface rights through development of
     minerals potentials. If the rights are divided, there are questions of the dominant estate
     that must be answered before either estate can be valued. It is possible that a combined
     use could constitute HABU, but this requires significant analysis and support in view
     of the unit rule and other UASFLA considerations. The appraisals studied in
     relationship to the GAO report indicated that they pertained to fee simple title and
     found HABU other than for production of minerals. The MMS report property was
     less than fee simple, requiring that an appraiser ascertain that the rights were factually
     owned and determine the nature of the rights. There was no evidence that this was
     done. It is our position that an appraisal is particularly necessary in situations such as
     this because USPAP and UASFLA standards require these analysis, and supporting
     documentation, to assure that the government’s actions with private individuals and
     entities are conducted consistently, appropriately, and in keeping with established legal
     and procedural standards.
40
     See, for example, UASFLA 2000, Sec. A-10, and discussions in Sec. B-13.

            The Appraisal Foundation Report to the
            U.S. Department of Interior, Office of the Inspector General
            May 28, 2004
                                                                                       Page 76
There have been mistaken notions within DOI agencies that the appraisal
function can, and in some instances should, be bypassed because (among
other reasons) the process of negotiations between the government and private
sector individuals or entities requires an accommodation of interests on both
parties. Although statutory authority may be given to the Secretary of the
Interior to make decisions that are not necessarily based on market value, we
see no rationale that supports the failure of the DOI and its entities to procure
reliable and competent market value appraisals from Qualified Appraisers as a
part of these processes. How else can negotiators or program officials know
that constitutional rights of the private sector have been met? How else can
either DOI or Congress know what the marginal difference is between market
value and the price or effective value of an acquisition or exchange?

These issues were brought to government’s and the nation’s attention during
the savings and loan scandals and banking crises of the 1980s. The
Foundation, the USPAP standards developed and promulgated by the ASB,
and appraiser qualifications and standards enforcement activities relegated to
the states surely must have equal weight within the federal jurisdiction.
UASFLA, like USPAP, serves as a guide to appraisers and to users of
appraisal services.

Minerals are only one example of the many technical issues that must be
considered by Qualified Appraisers. The special nature of scientific or
technical inquiry and analysis do not ultimately render the appraisals of
properties with mineral interest issues as significantly different than many
other types of appraisals. To the extent that they are more complex or
technical than some appraisals, properties with mineral interests still must be
valued at market value and the expertise of a minerals engineer or qualified
scientist are elements of such an appraisal, but not a substitute.

Question 4.     “If the evaluation methodology used by DOI is deemed to be
outside of acceptable industry practices, identify and describe generally the
impacts to the valuations.”

Response 4. The evaluation methodology used by DOI is decidedly outside
of industry practices when they do not seek market value opinions from
Qualified Appraisers. Simply stated, none of the DOI reports furnished to the
Foundation met the most crucial and fundamental requirements of a market
value appraisal, even though the 2000 MMS report was styled in such a way
that it could be on face misinterpreted as reporting a market value conclusion.
It was, therefore, misleading at the least.

One of the principal impacts of DOI’s methodologies in the subject matter
evaluated was that 1996 report significantly overstated even a highly
speculative market value potential for the interests involved by including

        The Appraisal Foundation Report to the
        U.S. Department of Interior, Office of the Inspector General
        May 28, 2004
                                                                          Page 77
business value components. Once MMS became aware that this was
egregiously improper, their attempt to apply adjustments in the 2000 report
were improperly founded, especially because the new analysis was still
hypothetical and not based upon reliable market data. The impact of all
reports in general is that they overstate any supportable basis for any finding
of market value whatsoever for the alleged CRC mineral interests. We did not
find any support for a market value of the undefined mineral interests.

Question 5.      “Identify any acceptable deviations to the evaluation and
valuation methodology utilized by MMS and describe generally the impact of
the deviations.”

Response 5. In the context of their reports and their intended uses, we did
not find any acceptable deviations to the evaluation methodology utilized by
MMS. Their reports did not contain valid valuation methodologies.

If the MMS were to take an alternative approach that did not purport to
develop a market value conclusion, they could have identified their reports as
hypothetical reports that were conditioned upon an acceptance of confidential
data from CRC which was not warranted by CRC as true and correct. They
should have identified the absence of supporting market data in any event, but
as an alternative they could have performed sensitivity tests that would show
some range of the impact on their conclusions that would be produced within
a range of variance. This is separate from the technical probability analysis
that was performed for geological issues. They should distinguish between
geologic risking in their model and the risk analysis that applies to other
analyses, particularly those elements that are within the purview of Qualified
Appraisers. Even if these steps were taken in conjunction with a preliminary
valuation analysis as it is defined within the DOI, it would not have been
proper because of the many omissions, particularly the absence of credible
market information.

In final analysis, all of the materials we evaluated were implicitly based upon
the presumption that oil and gas are present where CRC mineral interests
exist, even if that probability is minimal. Without market support for their
conclusions, they apply a series of hypotheses (many of which are not
disclosed or explained), consider statistical probabilities of hypotheses, and
conclude opinions as to how the market would act based upon the MMS
analysis. In doing so, they reflect significant weaknesses in the technical
analysis and fail to derive competent or reliable market value opinions or
indications.

Question 6. “In light of the above considerations, review the following
document: GAO Report entitled: Land Exchange-New Appraisals of


        The Appraisal Foundation Report to the
        U.S. Department of Interior, Office of the Inspector General
        May 28, 2004
                                                                        Page 78
Interior’s Collier Proposal Would Not Resolve Issues, May 1988. GAO
Report No. GAO/GCD-88-85.”

Response 6. The May 1988 GAO report is well founded, but does not
contain the detail necessary for a full review of the MMS reports and
associated issues pertaining to CRC’s alleged mineral interests.41 The GAO
report indicated that the “highest and best use” of the properties appraised by
the National Park Service and by Fish and Wildlife Service were for
“recreational use and speculative holding.” It did not, however, explain the
importance of the rights appraised in each of those appraisals. As reported
earlier, our studies of the provided appraisals indicated that each was a “fee
simple ownership” appraisal, thus including any consideration of the market
value contribution of mineral interests.

Some weaknesses in the various appraisals reviewed were observed and there
was a general indication of overvaluation on the part of the state of Florida’s
appraisal of a remainder value for the Big Cypress Addition. However, the
GAO indicated that the negotiated value of the Florida properties was close to
the value agreed by negotiation and found little potential benefit to the
government from reappraising the Florida property. The owner’s appraisals
were not discussed.

We note that the GAO report does not have a legal description or an explicit
recitation of the rights appraised for all interests involved, but does cite
Collier’s agreement to provide a quitclaim deed for land that was submerged
in a dispute (for the 10,000 Islands tract). We believe that the Phoenix Indian
School property valuations are not directly an issue for the Foundation’s
current report.




41
      One of the Foundation team members was a consultant to the GAO in the preparation
     of their 1988 report and was chosen in part because of his familiarity with issues
     involved.

           The Appraisal Foundation Report to the
           U.S. Department of Interior, Office of the Inspector General
           May 28, 2004
                                                                                 Page 79
                                       EXHIBIT 1




                 UNIFORM APPRAISAL STANDARDS FOR
                    FEDERAL LAND ACQUISITIONS

        APPRAISAL REPORT DOCUMENTATION CHECKLIST




The Appraisal Foundation Report to the
U.S. Department of Interior, Office of the Inspector General
May 28, 2004
                                       EXHIBIT 2




                      COLLIER RESOURCES COMPANY

                      CONFIDENTIALITY AGREEMENT




The Appraisal Foundation Report to the
U.S. Department of Interior, Office of the Inspector General
May 28, 2004
                                       EXHIBIT 3




                         USPAP STANDARDS RULE 2-3

      REAL PROPERTY APPRAISAL REPORT CERTIFICATION




The Appraisal Foundation Report to the
U.S. Department of Interior, Office of the Inspector General
May 28, 2004
                                       Exhibit 3
                         USPAP Real Property Report Certification
                                  Standards Rule 2-3


I certify that, to the best of my knowledge and belief:

   •	 the statements of fact contained in this report are true and correct.
   •	 the reported analyses, opinions, and conclusions are limited only by the reported
      assumptions and limiting conditions and are my personal, impartial, and unbiased
      professional analyses, opinions, and conclusions.
   •	 I have no (or the specified) present or prospective interest in the property that is
      the subject of this report and no (or the specified) personal interest with respect to
      the parties involved.
   •	 I have no bias with respect to the property that is the subject of this report or to
      the parties involved with this assignment.
   •	 my engagement in this assignment was not contingent upon developing or 

      reporting predetermined results. 

   •	 my compensation for completing this assignment is not contingent upon the
      development or reporting of a predetermined value or direction in value that
      favors the cause of the client, the amount of the value opinion, the attainment of a
      stipulated result, or the occurrence of a subsequent event directly related to the
      intended use of this appraisal.
   •	 my analyses, opinions, and conclusions were developed, and this report has been
      prepared, in conformity with the Uniform Standards of Professional Appraisal
      Practice.
   •	 I have (or have not) made a personal inspection of the property that is the subject
      of this report. (If more than one person signs this certification, the certification
      must clearly specify which individuals did and which individuals did not make a
      personal inspection of the appraised property.)
   •	 no one provided significant real property appraisal assistance to the person
      signing this certification. (If there are exceptions, the name of each individual
      providing significant real property appraisal assistance must be stated.)




        The Appraisal Foundation Report to the
        U.S. Department of Interior, Office of the Inspector General
        May 28, 2004
                                       EXHIBIT 4




                         USPAP STANDARDS RULE 3-3

             APPRAISAL REVIEW REPORT CERTIFICATION




The Appraisal Foundation Report to the
U.S. Department of Interior, Office of the Inspector General
May 28, 2004
                                       Exhibit 4
                       USPAP Appraisal Report Review Certification
                                 Standards Rule 3-3


I certify that, to the best of my knowledge and belief:

   •	 the facts and data reported by the reviewer and used in the review process are true
      and correct.
   •	 the analyses, opinions, and conclusions in this review report are limited only by
      the assumptions and limiting conditions stated in this review report and are my
      personal, impartial, and unbiased professional analyses, opinions, and
      conclusions.
   •	 I have no (or the specified) present or prospective interest in the property that is
      the subject of this report and no (or the specified) personal interest with respect to
      the parties involved.
   •	 I have no bias with respect to the property that is the subject of this report or to
      the parties involved with this assignment.
   •	 my engagement in this assignment was not contingent upon developing or 

      reporting predetermined results. 

   •	 my compensation is not contingent on an action or event resulting from the
      analyses, opinions, or conclusions in this review or from its use.
   •	 my analyses, opinions, and conclusions were developed and this review report
      was prepared in conformity with the Uniform Standards of Professional Appraisal
      Practice.
   •	 I have (or have not) made a personal inspection of the subject property of the
      work under review. (If more than one person signs this certification, the
      certification must clearly specify which individuals did and which individuals did
      not make a personal inspection of the subject property of the work under review.)
   •	 no one provided significant appraisal, appraisal review, or appraisal consulting
      assistance to the person signing this certification. (If there are exceptions, the
      name of each individual(s) providing appraisal, appraisal review, or appraisal
      consulting assistance must be stated.)




        The Appraisal Foundation Report to the
        U.S. Department of Interior, Office of the Inspector General
        May 28, 2004
                                        EXHIBIT 5




                          USPAP STANDARDS RULE 5-3

REAL ESTATE APPRAISAL CONSULTING REPORT CERTIFICATION




 The Appraisal Foundation Report to the
 U.S. Department of Interior, Office of the Inspector General
 May 28, 2004
                                    Exhibit 5
               USPAP Real Property Appraisal, Consulting Certification
                               Standards Rule 5-3


I certify that, to the best of my knowledge and belief:

   •	 the statements of fact contained in this report are true and correct.
   •	 the reported analyses, opinions, and conclusions are limited only by the reported
      assumptions and limiting conditions, and are my personal, impartial, and unbiased
      professional analyses, opinions, conclusions, and recommendations.
   •	 I have no (or the specified) present or prospective interest in the property that is
      the subject of this report, and I have no (or the specified) personal interest with
      respect to the parties involved.
   •	 I have no bias with respect to any property that is the subject of this report or to
      the parties involved with this assignment.
   •	 my engagement in this assignment was not contingent upon developing or 

      reporting predetermined results. 

   •	 my compensation for completing this assignment is not contingent upon the
      development or reporting of a predetermined value or direction in value that
      favors the cause of the client, the amount of the value opinion, the attainment of a
      stipulated result, or the occurrence of a subsequent event directly related to the
      intended use of this appraisal.
   •	 my analyses, opinions, and conclusions were developed, and this report has been
      prepared, in conformity with the Uniform Standards of Professional Appraisal
      Practice.
   •	 I have (or have not) made a personal inspection of the property that is the subject
      of this report. (If more than one person signs this certification, the certification
      must clearly specify which individuals did and which individuals did not make a
      personal inspection of the property).
   •	 no one provided significant real property appraisal or appraisal consulting
      assistance to the person signing this certification. (If there are exceptions, the
      name of each individual providing significant real property appraisal or appraisal
      consulting assistance must be stated.)




        The Appraisal Foundation Report to the
        U.S. Department of Interior, Office of the Inspector General
        May 28, 2004
